<html>
<title> - HEARINGS ON THE DECISION-MAKING PROCESSES AND INTERAGENCY COOPERATION OF THE NATIONAL MARINE FISHERIES SERVICE NORTHWEST REGION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 HEARINGS ON THE DECISION-MAKING PROCESSES AND INTERAGENCY COOPERATION 
       OF THE NATIONAL MARINE FISHERIES SERVICE NORTHWEST REGION

=======================================================================

                                HEARINGS

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

              JULY 24 AND AUGUST 15, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-34

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-214 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GIL.CHREST, Maryland        SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho

                    Harry Burroughs, Staff Director
                     Bonny Bruce, Legislative Staff
                 Elizabeth Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearings:
    July 24, 1997................................................     1
    August 15, 1997..............................................    67

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii............................................     2
    Crapo, Hon. Michael, a Representative in Congress from the 
      State of Idaho.............................................     2
        Prepared statement of August 15..........................    68
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     1
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Bowles, Edward C., Anadromous Fish Manager, State of Idaho 
      Department of Fish and Game................................   124
        Prepared statement of....................................   429
    Boyer, Lionel, Fisheries Policy Representative, Shoshone-
      Bannock Tribes.............................................    28
        Prepared statement of....................................   249
    Bruce, Dr. Steven M., President, Idaho Steelhead and Salmon 
      Unlimited..................................................    98
        Prepared statement of....................................   345
    Campbell, Scott, Idaho Farm Bureau prepared statement of.....   309
    Casavant, Dr. Ken, Council Member, Northwest Power Planning 
      Council....................................................    94
        Prepared statement of....................................   333
    Dehart, Douglas A., Chief of Fisheries, Oregon Department of 
      Fish and Wildlife..........................................   122
        Prepared statement of....................................   425
    Deurloo, Robert, Meridian Gold Company.......................    45
        Prepared statement of....................................   282
    Grace, Stan, Council Member, Northwest Power Planning Council    43
        Prepared statement of....................................   274
    Grunke, James W., Executive Director, Orofino Chamber of 
      Commerce...................................................    79
        Prepared statement of....................................   326
    Hayes, Justin, Save Our Wild Salmon Coalition................    47
        Prepared statement of....................................   290
    Little, Jim, Grazing Permittee, Idaho Cattle Association.....   100
        Prepared statement of....................................   348
    Martinez, Eluid, Commissioner, Bureau of Reclamation, 
      Department of the Interior accompanied by Ken Pedde, 
      Assistant Regional Director, Bureau of Reclamation.........    70
        Prepared statement of....................................   307
    McFarland, Dave, Chairman, Lemhi Riparian Conservation 
      Agreement..................................................    24
        Prepared statement of....................................   170
    Penney, Samuel N., Chair, Nez Perce Tribal Executive 
      Committee..................................................    25
        Prepared statement of....................................   216
    Charles Ray, Idaho Rivers United,............................    96
        Prepared statement of....................................   340
    Rohleder, Joseph, Northwest Sportfishing Industry Association    41
        Prepared statement of....................................   257
    Semanko, Norman, Twin Falls Canal Company and North Side 
      Canal Company..............................................    49
        Prepared statement of....................................   297
    Smith, Bruce, Rosholt, Robertson & Tucker....................    76
        Prepared statement of....................................   313
    Stelle, William, Regional Administrator, National Marine 
      Fisheries Service, Department of Commerce..................   127
        Prepared statement of....................................   442
        Additional material submitted by.........................   304
    Strong, Ted, Executive Director, Columbia River Inter-Tribal 
      Fish Commission............................................   125
        Prepared statement of....................................   431
    Yost, Jim, Senior Special Assistant, Idaho Governor's Office.    22
    Williams, Dr. Richard N., Chairman, Independent Scientific 
      Advisory Board.............................................   102
        Prepared statement of....................................   353
    Wilson, Peter K., Vice President, Port of Lewiston...........    78
        Prepared statement of....................................   323

Additional material supplied:
    Batt, Philip E., Governor, Boise, Idaho......................   166
    Kempthorne, Hon. Dirk, a Senator in Congress from the State 
      of Idaho, prepared statement of............................     4
        Additional materials submitted by........................     6
    Memorandum of decision-making processes of the National 
      Marine Fisheries Service's Northwest Region................   160
    The Pacific Rivers Council, Eagle, Idaho, prepared statement 
      of.........................................................   455


    OVERSIGHT HEARING ON THE DECISIONMAKING PROCESS AND INTERAGENCY 
 COOPERATION OF THE NATIONAL MARINE FISHERIES SERVICE NORTHWEST REGION

                              ----------                              


                        THURSDAY, JULY 24, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., 
Room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Good morning. The Subcommittee will come to 
order. The purpose of today's hearing is to review the 
authority and decisionmaking process of the National Marine 
Fisheries Service's Northwest Region. As many in this room 
know, the Columbia River Basin is the focus of much debate and 
controversy regarding the appropriate actions needed to restore 
the declining salmon populations.
    Our colleague, Mr. Crapo of Idaho, has been grappling with 
the problems surrounding this issue for many years. We are 
holding this hearing at his request so he can get specific 
answers to questions about interagency dynamics, tribal 
concerns, interstate cooperation, and the interests of 
commercial and recreational fishing sectors, as well as those 
of environmental organizations.
    I am looking forward to this hearing and hearing from our 
witnesses. Thank you for traveling to Washington today to share 
with us your expertise and your feelings on these matters. At 
this time, I will turn to the Ranking Member, the gentleman 
from Hawaii, for any opening statement he may have.
    [Statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The Subcommittee will come to order.
    The purpose of today's hearing is to review the authority 
and decision-making processes of the National Marine Fisheries 
Service's Northwest Region. As many in this room know, the 
Columbia River basin is the focus of much debate and 
controversy regarding the appropriate actions needed to restore 
the declining salmon populations. Our colleague, Mr. Crapo of 
Idaho, has been grappling with the problems surrounding this 
issue for years. We are holding this hearing at his request, so 
he can get specific answers to questions about inter-agency 
dynamics, tribal con-

cerns, interstate cooperation, and the interests of the 
commercial and recreational fishing sectors, as well as those 
of environmental organizations.
    I am looking forward to hearing from our witnesses. Thank 
you for traveling to Washington to share your expertise with 
us.
    [Memorandum may be found at end of hearing.]
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, this is a very timely and necessary hearing 
being held at the request of Congressman Mike Crapo.
    The National Marine Fisheries Service is the Executive 
agency responsible for the revitalization of the Columbia River 
Basin salmonid populations. Congressman Mike Crapo represents 
areas in Idaho that have a major interest in any recovery 
efforts implemented by the National Marine Fisheries Service to 
restore these declining Columbia River Basin salmon 
populations.
    We will hear testimony today commenting on the National 
Marine Fisheries Service's leadership and their ability to 
implement recovery options. I am interested in hearing the 
views of our witnesses on how their concerns were reflected in 
the agency's decision making and how we can improve the 
consultation process in the future. It is clearly in our 
nation's interest to rebuild and revitalize the salmon stocks 
of the Columbia River Basin.
    Thank you, Mr. Chairman.

    STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mr. Abercrombie. Thank you, Mr. Chairman. I would just like 
to incorporate your remarks as my own and look forward to the 
hearing. Thank you very much.
    Mr. Saxton. Thank you very much. I would like to turn at 
this time to the gentleman from Idaho who is, obviously, very 
interested in this. He may wish to make an opening statement 
and introduce panel number 1.

 STATEMENT OF HON. MICHAEL CRAPO, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Crapo. Thank you, Mr. Chairman. I appreciate very 
deeply your holding this hearing on the decisionmaking process 
of the National Marine Fisheries Service and hope that we can 
use this hearing as an opportunity to not only delve into the 
issues at hand, but to help educate members of this committee 
and their staff on some of the critical issues in the Pacific 
Northwest.
    I noted when I attended one of the hearings we held with 
regard to the fishing issues in Hawaii a month or two ago how I 
was very unaware of those issues before the hearing but 
fascinated with what I learned. And I hope that that same 
process can take place with regard to the issues we face in the 
Pacific Northwest with regard to other members of the 
Committee.
    It is my pleasure today to welcome several citizens from 
Idaho and others from the Pacific Northwest who are here to 
discuss the issues and to point out that under the Endangered 
Species Act the National Marine Fisheries Service has the 
authority in the Pacific Northwest to be the lead agency for 
the recovery of the endangered Pacific Northwest salmon stocks.
    I acknowledge that this issue is very complex and divisive 
and could produce many losers, one of which could be the 
salmon. For the salmon to be recovered, it is imperative that 
consensus within the region be found and that public support be 
gained. There is growing concern in the region that NMFS has 
not recognized the power of a consensus decisionmaking process 
for salmon recovery.
    There is great concern that the National Marine Fisheries 
Service is developing a public policy that will not recover 
salmon, while failing to take into account the other interests 
and concerns of the region. This growing concern and 
frustration has caused the State of Montana and four of the 13 
Indian tribes of the region to withdraw from the regional forum 
dedicated to finding consensus on salmon recovery.
    These fish are incredible creatures. The salmonids are 
hatched in streams and tributaries of the Columbia and Snake 
River and swim sometimes over 700 miles to the ocean where they 
will spend the majority of their lives. Not only must they 
migrate such a long way to the ocean, they must then at the end 
of their lives migrate back up the river system.
    These streams and tributaries provide water that is the 
lifeblood of irrigation, recreation, power production, and 
transportation industries of the Columbia and Snake River 
system. The majority of the region's population live and work 
around some form of water in the watershed. And an adequate and 
dependable supply of water is the backbone of the region's 
economy. The streams and tributaries that empty into the Snake 
and Columbia River weave throughout the Pacific Northwest.
    Because the salmonids are hatched in and use the streams 
and tributaries of the Columbia and Snake River as their 
highway to the ocean, NMFS has oversight over all land and 
water use policies that could potentially impact salmonid 
migration to and from the ocean. This includes oversight over 
irrigation, mining, grazing, timber harvesting, river 
transportation, energy production, and recreation.
    NMFS has a virtual veto over many aspects of the Columbia 
and Snake River systems that are the economic base of the 
region, and many times some of us have felt that NMFS has made 
decisions in a vacuum without taking into consideration the 
benefits to the fish or the impact to the economy.
    I recognize that the objective of the Endangered Species 
Act as written is the recovery of endangered or threatened 
species, and I agree with that objective. However, the bottom 
line is that there is a legitimate concern that the fish will 
not be recovered and that collateral damage will be caused to 
the region's economy.
    Today, we have invited individuals, representatives of two 
tribes, representatives of State government, business, and 
environmental interests. These people have been invited because 
they and the interests they represent constitute the critical 
mass of consensus that must be achieved if we are to succeed in 
recovering the species.
    Given that the National Marine Fisheries Service is 
intending to make a policy decision in early 1998, it is 
imperative that we evaluate the processes involved well enough 
in advance of the decision in order to improve the odds of 
success.
    This is the first of two scheduled hearings on this issue. 
There were far too many people who have shown an interest to 
testify to be accommodated here today, and Chairman Saxton has 
been gracious in allowing another hearing to be held in Boise, 
Idaho. This hearing will give more affected interests the 
opportunity to be heard, and this hearing will include the 
testimony by NMFS.
    Again, Mr. Chairman, I thank you for your attention to this 
very important issue. And Senator Dirk Kempthorne from Idaho 
has asked if there would be permission for his statement to be 
entered into the record.
    Mr. Saxton. Let me just ask unanimous consent at this point 
that all members' statements be included in the record, 
including the Senator's.
    [The prepared statement of Senator Kempthorne follows:]

 Statement of Senator Dirk Kempthorne, a Senator in Congress from the 
                             State of Idaho

    Good morning Mr. Chairman, ladies and gentlemen. Thank you 
for holding this hearing on salmon recovery and the National 
Marine Fisheries Service's performance as the lead Federal 
agency in salmon recovery efforts. I would like to share with 
you my recent experience with the NMFS.
    On April 16, 1997, I wrote to Will Stelle, Administrator 
for the Northwest Region of the National Marine Fisheries 
Service to object to the National Marine Fisheries Service's 
(NMFS) decision to disregard the concensus proposal on 
steelhead and salmon migration promoted by the State of Idaho. 
At a meeting of the Executive Committee for recovery of 
Columbia/Snake River salmon and steelhead the consensus 
proposal to transport Chinook Salmon and Steelhead was rejected 
by the National Marine Fisheries Service. Instead, the NMFS 
adopted daily full transport of the Chinook and the Steelhead.
    I asked Mr. Stelle to explain to me the biological basis of 
this decision. With the advice of some of the best biologists, 
water managers, and stakeholders Governor Batt had devised a 
plan for ``spreading the risk'' between in-river migration and 
barging. This plan was subjected to a facilitated negotiation 
process that involved stakeholders from throughout the 
Columbia/Snake River Basin. The resulting proposal deserved to 
be considered for its ability to recover two of our regions 
most important fish species, and for its ability to bring 
together stakeholders from throughout the basin.
    I urged Mr. Stelle to reply to me quickly as the migration 
was in full swing. I needed to know why we were transporting 
such a high percentage of fish during this good water year. 
Ironically, I support transport of a high percentage of the 
fish. The National Academy of Sciences in their report on the 
salmon crisis in the Northwest has described transport as the 
best interim solution to getting smoults downstream until we 
have developed better technology for getting them around the 
dams. But, because this ``spread the risk'' policy is the 
result of an Idaho effort, supported by Idahoans, and 
negotiated with the best fish managers in the region, I support 
them and their efforts.
    As time went by, I repeatedly contacted Mr. Stelle's 
office. On June 5, 1997 I wrote Mr. Stelle again to express my 
concern about the National Marine Fisheries Service's (NMFS) 
decision to disregard the 1997 consensus proposal on steelhead 
and salmon migration. And, I must admit I was frustrated by the 
lack of a response. After all, the NMFS had chosen to transport 
more fish rather than fewer during this good water year. During 
the time he had failed to respond to my letter, or to my staff 
inquiries, ever higher numbers of fish were transported down 
the Snake and Columbia Rivers.
    I am sorry to report that the apparent strategy to ignore 
me and the stakeholders who worked together to obtain a 
compromise until the migration season was over seems to have 
worked. The NMFS letter from Mr. Rollie Smitten purporting to 
explaine their actions, dated June 9, 1997, finally arrived in 
my office on Friday the 13th of June.
    Frankly, the letter and the studies which it cited did 
little to convince me that the NMFS acted in a thoughtful way 
using data that supported their position under these water 
conditions. Without taking the Committee's time with detailed 
comment and rebuttal, suffice it to say that the decision-
making ability of the NMFS, as demonstrated by this incident is 
seriously in doubt. Most importantly, it appears to me 
decisions that should be made by the fish managers on the scene 
are regularly being made in Washington DC by people in the 
Administration.
    Mr. Chairman, I would like to submit my letters and Mr. 
Smitten's reply for the record. In addition, I would like to 
include the analysis of the NMFS letter by Idaho Fish and Game.
    Mr. Chairman, thank you for your time.

    [Additional material submitted by Senator Kempthorne 
follows:]

[GRAPHIC] [TIFF OMITTED] T4214.001

[GRAPHIC] [TIFF OMITTED] T4214.002

[GRAPHIC] [TIFF OMITTED] T4214.003

[GRAPHIC] [TIFF OMITTED] T4214.004

[GRAPHIC] [TIFF OMITTED] T4214.005

[GRAPHIC] [TIFF OMITTED] T4214.006

[GRAPHIC] [TIFF OMITTED] T4214.007

[GRAPHIC] [TIFF OMITTED] T4214.008

[GRAPHIC] [TIFF OMITTED] T4214.009

[GRAPHIC] [TIFF OMITTED] T4214.010

[GRAPHIC] [TIFF OMITTED] T4214.011

[GRAPHIC] [TIFF OMITTED] T4214.012

[GRAPHIC] [TIFF OMITTED] T4214.013

[GRAPHIC] [TIFF OMITTED] T4214.014

[GRAPHIC] [TIFF OMITTED] T4214.015

[GRAPHIC] [TIFF OMITTED] T4214.016

    Mr. Crapo. Thank you, Mr. Chairman. Would you like me to 
introduce the first panel? Thank you, Mr. Chairman. In our 
first panel, we have with us today Mr. Jim Yost, who is the 
Senior Special Assistant to the Idaho Governor's Office, Idaho 
Governor Phil Batt; Mr. Dave McFarland, who is Chairman of the 
Lemhi Riparian Conservation Agreement; Mr. Samuel Penney, the 
Chair of the Nez Perce Tribal Executive Committee; and Mr. 
Lionel Boyer, the Fisheries Policy Representative for the 
Shoshone-Bannock Tribes. And I certainly welcome each of you 
here and thank you for the time and attention you have given to 
this matter. And, Mr. Chairman, I turn the time back to you.
    Mr. Saxton. Well, Mr. Crapo, we want to thank you for 
framing this issue for us. Those of us from other parts of the 
country, obviously, have not lived with or dealt with this 
issue as you have. And so we are, obviously, anxious to be 
helpful in helping you and your constituents and others who are 
interested in this issue come to a successful resolution.
    Let us turn at this point to panel number 1. Just to give 
you an idea of the ground rules, we have three little lights 
there in front of you. One is green, one is yellow, and one is 
red, and the colors of those are that way for obvious reasons. 
However, you have come a long way to share your thoughts with 
us. So when the red light goes on, you will know that your 5 
minutes has expired.
    However, we can grant some latitude so that you can finish 
your thoughts in a constructive way. So, Mr. Yost, why don't 
you begin, and then we will move across the table, and we are 
anxious to hear your thoughts on this which is a very important 
matter. You may begin.

    STATEMENT OF JIM YOST, SENIOR SPECIAL ASSISTANT, IDAHO 
                       GOVERNOR'S OFFICE

    Mr. Yost. Thank you, Chairman Saxton, Congressman Crapo, 
and Congressman Abercrombie. The Governor of Idaho extends his 
pleasure at having had the opportunity to send someone to visit 
with you about these issues.
    One of the primary issues that the Governor asked me to 
represent to you is that Idaho does care about anadromous fish 
and resident fish, and we are making every effort and we are 
proud of the effort that we have made thus far in trying to 
participate in the regional forum within the area.
    The problem is compounded in the region because of the 
decisions and the time lines that have been established thus 
far in fairly much a uniform and mutual-consented arena. That 
is, we have a biological opinion on anadromous fish listed 
under the Endangered Species Act to be decided in the spring of 
1999. There is an effort underway at this particular time to 
advance that time line into the spring of 1998.
    There isn't a real concern that the region will make 
decisions in the proper time line. However, we are finding it 
very difficult to reach any type of decision in the region 
because of the forum that is currently established.
    Originally, there were three or four different efforts 
being attempted, one through the Northwest Power Planning 
Council, another through the NMFS forum or the National Marine 
Fisheries or Federal agencies forum, and we participated in all 
of those hoping that there would be an ultimate regional forum 
that we could build consensus and reach some of the decisions 
that are important for the region.
    That process is not working. It is marginal at best, and it 
seems to be crumbling a little bit more each month as we go by. 
The struggle is being made now to restore a regional forum, and 
the Governors are becoming more involved from the four States--
Idaho, Oregon, Washington, and Montana. But there are too many 
avenues in which to try to reach a regional forum to reach 
consensus in which to make some of those decisions that the 
region needs to make and in the time line that they have.
    Specifically, when you look at the NMFS forum, the 
technical management team level, the implementation team level, 
which is midpolicy decisions and the Executive Committee 
process that has been established, which is higher level 
decisionmaking, the process is extremely complicated in that 
the representation has not been well-defined, and there are 
some folks who are not adequately represented and who have 
withdrawn their representation from that process.
    The time that it takes for the four States to send their 
representatives to participate in that process is extensive, 
and they are willing to make the effort. But the process then 
becomes convoluted because once you reach a regional consensus 
with the participants at the table, then as an example, Idaho 
has developed an Idaho strategy for operations for this year. 
Idaho was able to get consensus from all of the participants in 
the region--the Corps of Engineers, BPA, and the four States--
the State fish and game--all of the participants at the table 
except NMFS.
    Somewhere along the process of three or 4 months, NMFS 
should have said that they were not going to agree with the 
process instead of waiting until the very end to veto the 
decision that was reached by consensus for the rest of the 
region.
    The timing of NMFS is, obviously, slow. The Hanna Slough 
issue that was recorded in my testimony--the length of time 
that it took for NMFS to make a decision there was too lengthy. 
It was an important, critical area. They just were unable to 
make a decision at the local level. They weren't even able to 
make a quick decision in an expedient manner at a higher level 
in Portland.
    The same event occurred on Salmon River floaters where we 
had commercial tubing and activities on the Salmon River, and 
everyone agreed that there was a process that would have been 
in place for 3 years, and NMFS restricted that unilaterally.
    I guess if there was one message that I would like to 
present today is that the NMFS makes unilateral decisions 
without actively participating in the consensus building at the 
local level. The process either needs to be changed, or we need 
a different regional forum within the region. I thank you very 
much, Mr. Chairman.
    [Statement of Governor Batt can be found at the end of the 
hearing.]
    Mr. Saxton. Thank you, Mr. Yost. Mr. McFarland.

     STATEMENT OF DAVE McFARLAND, CHAIRMAN, LEMHI RIPARIAN 
                     CONSERVATION AGREEMENT

    Mr. McFarland. Mr. Chairman, Committee members, my name is 
Dave McFarland. I represent the people of Lemhi County, Idaho, 
as an agent of the county commissioners. As a rancher with 
Federal grazing permits, I also represent those interests.
    During these hearings, you should hear plenty of negative 
testimony concerning National Marine Fisheries Service. I 
concur. In Lemhi County, recovery of endangered salmon is a 
laudable and very popular goal. Yet, National Marine Fisheries 
Service is held in lower esteem than the IRS.
    Mr. Saxton. Excuse me. That is pretty low, isn't it?
    Mr. McFarland. That is true. NMFS decisions seem to occur 
in a vacuum. Nevertheless, some good decisions have been made 
by National Marine Fisheries Service personnel, and some of 
these have occurred in Lemhi County. I have observed that many 
of the best solutions have occurred when the best communication 
happens.
    We propose these suggestions for improving dramatically 
protection of endangered salmon and improving National Marine 
Fisheries Service's effectiveness. One, National Marine 
Fisheries Service must actively participate with diverse 
interests to make optimum decisions. Decisions openly made are 
easier to implement, less divisive, and generally meet their 
goals better.
    Number 2, instead of hiring more people, NMFS should ally 
with or in some other manner use the expertise already hired by 
other Federal agencies. The Endangered Species Act is not about 
building kingdoms. It is about protecting species. I have 
talked to many flora and fauna experts in the Forest Service 
and BLM who would be glad to guard the interests of the ESA.
    I back my points with the followinG: several years ago, 
Lemhi County residents developed a method of communication with 
Federal and State management agencies. It is a semiformal 
method whereby the agencies and county representatives meet to 
discuss long and short-range planning for all of Lemhi County. 
Although not perfect, the process has succeeded spectacularly.
    By being included in the process, we have given Federal and 
State land managers information to make better decisions. By 
keeping us informed and involved, we have been able to support 
difficult decisions like road closures, changes in management 
practices, and so forth. Throughout this entire process, all 
participants have been aware of the need to protect our natural 
resources and endangered species, even prior to listing.
    Graphically, I refer you to the orange booklet given 
members of the Committee. This is a trend report on riparian 
conditions from 1988 through 1995. Note the quick-to-reference 
charts on the gains in riparian conditions, and then also 
peruse the photos. As you do that, please note the different 
management schemes.
    As we explored ways to contend with species listings in 
many of our planning sessions, two things became apparent. 
Number 1, single species management could not be the best 
recovery strategy. There are too many species and too many 
unknown variables. And, number 2, intense management of Federal 
land alone would probably fail. Only 8 percent of Lemhi 
County's approximately 4 million acres is privately owned, but 
that contains 90 percent of the occupied salmon habitat.
    From these two tenets, we arrived at our Riparian Habitat 
Agreement, which is appended to this testimony. I urge you to 
glance through it. It is a simple but powerful document. 
Basically, the signatories agree to protect riparian habitat to 
the best of their knowledge and ability. Importantly, the 
county and its residents freely offer private land to the same 
scrutiny Federal lands are required to have.
    On the signatory pages, the absence of National Marine 
Fisheries is conspicuous. We have repeatedly asked them to 
actively participate. On two occasions, NMFS has met with us 
primarily to tell us they won't actively participate. I submit 
to you that this reduces their effectiveness.
    The last point I would like to make is that soon Congress 
must make a political decision. It seems evident that bull 
trout may be listed in the Northwest streams. This will put 
NMFS, U.S. Fish and Wildlife Service, and the Federal agencies 
all in charge of the same small stream reaches.
    We ask that you, as Members of Congress, designate U.S. 
Fish and Wildlife Service as lead agency under the ESA for 
inland streams. They have already shown greater experience, 
plus they have demonstrated the ability to communicate with our 
interests. The budget outlay for their management should also 
be less. Respectfully submitted, Dave McFarland.
    [Statement of Mr. McFarland can be found at the end of the 
hearing.]
    [Conservation agreement will are being held in the 
Committee files.]
    [Progress report can be found will are being held in the 
Committee files.]
    Mr. Saxton. Thank you very much, Mr. McFarland. Mr. Penney.

    STATEMENT OF SAMUEL N. PENNEY, CHAIR, NEZ PERCE TRIBAL 
                      EXECUTIVE COMMITTEE

    Mr. Penney. Thank you, Mr. Chairman. Good morning to the 
members of the Subcommittee. My name is Sam Penney. I am the 
Chairman of the Nez Perce Tribal Executive Committee. I would 
like to thank you for this opportunity to testify on our views 
on the recommendations of the National Marine Fisheries Service 
and their role in salmon restoration efforts especially in the 
Pacific Northwest.
    From the Nez Perce Tribe's point of view, reversing the 
decline of Columbia basin salmon is more than just a matter of 
professional interest or a legal obligation or a cost of doing 
business. Since time immemorial, our people have fished for 
salmon in Nez Perce country, which originally encompassed over 
13 million acres in what is today known as north central Idaho, 
southeastern Washington, and northeastern Oregon. Salmon have 
always been and continue to be intricately linked to our 
people's way of life, our economy, our beliefs, and our 
culture.
    The Nez Perce Tribe's legal basis for its role in salmon 
restoration efforts stems from the supreme law of the land, our 
treaty of 1855 with the U.S. Government in which we expressly 
reserved the right to take fish. The United States also owes a 
trust or fiduciary duty to the Nez Perce Tribe.
    The United States' trust responsibility permeates every 
aspect of the Federal Government's relations with the Tribe and 
imposes a duty on the Federal Government to safeguard natural 
resources which are of crucial importance to Indian people. I 
will provide a copy of the paper entitled. ``Columbia River 
Treaty Fishing Rights'' to the Subcommittee so you will 
understand the legal and moral obligations of the United States 
to the Nez Perce Tribe, as well as other tribes.
    The Nez Perce Tribe is committed to doing everything we can 
to ensure that these declines of salmon are reversed and that 
all species and all stocks of salmon are restored. We know in 
our hearts that our vision and plan for salmon restoration will 
provide a sustainable fishery resource for the benefit of all 
peoples in the Pacific Northwest and Alaska.
    We recognize that we have more to lose than anyone if these 
declines are not reversed. It is from this perspective that we 
provide the following observations in hope that the National 
Marine Fisheries Service will have the opportunity to respond 
to our concerns that we and others are bringing before this 
Committee today.
    First, I would like to address the Endangered Species Act's 
role in salmon restoration. Although the Endangered Species Act 
has received a great deal of attention for its potential role 
in the recovery of salmon in the Pacific Northwest, the ESA is 
but one legal commitment that is relevant to salmon restoration 
efforts. The ESA operates like an emergency room focused on 
recovery of the listed fish.
    The ESA does not guarantee fulfillment of the 1980 
Northwest Power Act's promise of parity between salmon 
protection and hydroelectric generation and that Act's call for 
a program to restore fish and wildlife populations to the 
extent affected by the development and operation of the 
Columbia basin hydroelectric system, nor does the ESA guarantee 
fulfillment of the United States' treaty promises to our people 
to protect our aboriginal right to take fish at all usual and 
accustomed fishing places or the Federal Government's trust 
obligation to the Nez Perce Tribe.
    In contrast to the ESA, the Nez Perce Tribe's vision for 
salmon restoration, shared by other Columbia River treaty 
tribes and contained in the Spirit of the Salmon, is 
substantially broader. Our peer-reviewed plan, which I will 
provide to this Subcommittee, is focused on restoration of all 
species and all stocks to provide harvestable populations of 
fish for our people, as well as the citizens of the Pacific 
Northwest and Alaska.
    One would think that the purposes of the ESA could be read 
consistently with the Northwest Power Act, the Tribe's treaty 
reserved fishing rights, the Federal Government's trust 
responsibility to the Tribe, as well as with the case law 
principles developed in United States v. Oregon and United 
States v. Washington, and the rebuilding program envisioned by 
the United States v. Oregon Columbia River Fish Management Plan 
and the Pacific Salmon Treaty.
    Second, I would like to address the Nez Perce Tribe's 
standard for evaluating whether NMFS is properly implementing 
its authori-

ties under the ESA. This standard may simply be stated as 
follows: NMFS's decisions must be consistent with the 
biological requirements of salmon, emphasize reductions to the 
largest sources of salmon mortality, equitably allocate the 
conservation burden, and be consistent with the United States' 
legal obligations.
    Our written testimony details our experience with NMFS's 
implementation under ESA over the last 6 years. NMFS has not 
effectively recognized our treaty-reserved fishing rights and 
the Federal Government's trust obligation.
    I would like to quickly summarize our concerns with the 
National Marine Fisheries Service. First, we are concerned that 
NMFS has accepted an extremely high level of risk in its short 
and long-term recovery strategy. We are also concerned that 
NMFS failed to consider the best available science in the 
initial biological opinions on the Federal Columbia River Power 
System.
    We are concerned that NMFS designated an ESA implementation 
process that failed to recognize the Tribe's treaty rights and 
the Federal Government's trust obligation to the Tribe. We are 
concerned that NMFS is not taking action necessary to ensure 
protection of salmon habitat.
    We are concerned that NMFS is not assembling the data 
necessary to make the long term recovery decision concerning 
modifications to the hydrosystem through natural river drawdown 
or major improvements in the barging program and may be 
approaching this as solely an ESA issue.
    We are concerned that NMFS is stifling responsible 
supplementation programs designed to restore salmon. We are 
concerned that NMFS may unlawfully attempt to restrict tribal 
harvests in violation of treaty right principles, and Federal 
Government's trust responsibility to the tribe.
    Now, I would like to conclude by offering a few 
recommendations for our future relationship with NMFS and its 
administration and also concerns implementation of the ESA. We 
hope that the NMFS will honor the Federal Government's 
obligation to the tribes, and we believe that this commitment 
would result in a better decisionmaking process in further 
decisions and would help alleviate many of the concerns we have 
presented as mentioned by the previous witnesses.
    There have been many meetings which tribal input is not 
seriously considered. We are one of the tribes that did 
withdraw from the NMFS process, and we would hope that in the 
future that NMFS would recognize the input not only of the 
tribes but all the others that are involved as well so that 
there can be some consensus in the Northwest.
    And also to Congressman Crapo--the Power Summit, I think, 
on Energy Deregulation also adds to this issue as well, the 
uncertainty of the deregulation of the utility industry in the 
Northwest further complicates the problem. But I would like to 
thank you for this opportunity, Mr. Chairman, and members of 
the Subcommittee.
    [Statement of Mr. Penney can be found at the end of the 
hearing.]
    [Columbia River treaty can be found at the end of the 
hearing.]
    Mr. Saxton. Thank you, Mr. Penney. Well, you may have just 
heard the buzzers and so on. That means we have to go vote on 
the House floor. It will probably take us about 15 or 20 
minutes to get there and back, and when we come back, we will 
hear your testimony. And then at the conclusion of that, we 
will begin to ask some questions which we each have beginning 
with Mr. Crapo. Thank you.
    [Recess.]
    Mr. Saxton. We kept our word to get back as quickly as 
possible, and so we will now proceed with Lionel Boyer. You may 
proceed, sir.

  STATEMENT OF LIONEL BOYER, FISHERIES POLICY REPRESENTATIVE, 
                    SHOSHONE-BANNOCK TRIBES

    Mr. Boyer. Thank you, Mr. Chairman, and members of the 
Subcommittee. My name is Lionel Boyer, Fisheries Policy 
Representative for the Shoshone-Bannock Tribes of the Fort Hall 
Indian Reservation located in southeastern Idaho.
    I come here today to express my tribes' frustration with 
the National Marine Fisheries Service's representation of the 
trust responsibility of the United States to the Shoshone-
Bannock Tribes. The lack of equitable management of the 
Endangered Species Act with my tribes' rights that are 
guaranteed under provisions of the Fort Bridger Treaty of 1868.
    The Shoshone-Bannock Tribes have taken the position that 
the ESA does not apply to our people. To enforce the ESA on 
tribes would be an abrogation of our treaties unless there was 
proper consultation leading into an agreement or understanding 
as to how and what would apply to tribes. Otherwise, the 
treaty, which is the supreme law of the land, would be 
enforced.
    We have said unofficially that we would work within the ESA 
provided it serves our concerns. The Shoshone-Bannock Tribes 
did use the ESA to petition for the listing of the depleted 
runs of the redfish lake sockeye salmon, and today we have 
within our fisheries program a recovery effort to save this 
magnificent animal for the future generations. I might add that 
the redfish lake sockeye would have become extinct if the 
Shoshone-Bannock Tribes had not acted to petition for the ESA 
listing.
    Mr. Chairman, I would like to talk briefly about the 
concerns that are in the written testimony that is before you. 
There are many more concerns that we have, but this is a few of 
them in conjunction with the National Marine Fisheries Service.
    NMFS's failure to significantly improve the migration 
corridor. NMFS has continuously failed to give a jeopardy 
opinion against the dam specifically--the four lower Snake 
River dams. They continue to annihilate from 80 to 99 percent 
of the juvenile fish migrating to the main Columbia River and 
then to the ocean.
    NMFS has continued to allow the slack waters created by the 
dams to increase in temperatures that is deadly for any cold 
water fishes. The NMFS has continually allowed the Shoshone-
Bannock Tribes' position to breach, mothball, or remove the 
dams to fall off the tables of discussion.
    The NMFS has continually pursued the flawed position of 
transporting the juvenile fish in barges past these dams. This 
is and was a band-aid approach of 20 years or so. It has not 
brought any recovery of the runs, only added costs and a 
continued misguided belief that it would bring about recovery.
    Recent studies indicate a positive probability of recovery 
with breaching of the dams would occur, but NMFS continues to 
maintain status quo and the continued expenditures to maintain 
the studies, approve construction of unproven methods on the 
very problems that continue to destroy the runs and the dams.
    NMFS's failure to provide equitable harvest opportunity to 
the Shoshone-Bannock Tribes. The data clearly shows that about 
57 percent of the salmon that enter the Columbia River were 
destined for the Snake River. NMFS allowed harvest grades for 
downriver fisheries in 1997 that could not be maintained by the 
Shoshone-Bannock Tribes.
    The Shoshone-Bannock Tribes had a biological analysis of 
the Shoshone-Bannock Tribes' proposed harvest of salmon 
presented to NMFS since early spring. This was approved by 
them, but when the Shoshone-Bannock Tribes were preparing their 
tribal regulations, NMFS all of a sudden had a problem. We had 
to scramble and go through the process to have a technical 
review by the Technical Advisory Committee. The Technical 
Advisory Committee did not see any conflict with our proposal 
but NMFS did; consequently, no consensus.
    We had to call for a review by the USB Oregon Policy 
Committee. Again, the policy committee had no problem with the 
numbers but NMFS did; again, no consensus. Our next step was to 
take it before the Master of the Federal Court, Judge Marsh. 
Before our appointment with the Court, we had a hurried meeting 
with NMFS and was able to get an interim harvest for an interim 
period with the Biological Opinion which was to be presented 
for signature.
    The technical review of the numbers returning updated the 
data which clearly indicated that the NMFS was using data that 
no one else had and also that it was flawed. The Shoshone-
Bannock Tribes did request an increase in the harvest because 
of the large numbers of salmon that was returning, but we 
continually ran into conflict with the NMFS.
    The State was approved to have its sport harvest by NMFS, 
and today there is fish returning that far surpass the hatchery 
quota, and now they, the State, are proposing outplanning for 
sport harvest in the Boise and Payette Rivers. The Shoshone-
Bannock Tribes are still having to jump through the hoops that 
NMFS has placed for our treaty and ceremonial harvest.
    But the State can do what they want. What happened to the 
concern of recovery? Now, it is a bathtub fishery with what 
they call surplus fish. With so many fish returning, they 
should be used for supplementing the weak spawning areas to 
recover the salmon, not to put more dollars in the State's 
coffers.
    NMFS's failure to designate adequate critical habitat for 
recovery. Designated ESUs--they are arbitrary and without merit 
scientifically and technically--simply a means to eliminate and 
exempt historic and natural production areas to keep them out 
of the purview of the ESA. NMFS has failed to promote and 
assure the recovery of the Snake River salmon by eliminating 
the Middle Snake River which historically produce 70 percent of 
all the listed stock ranges.
    NMFS's failure to provide adequate production 
opportunities. The wild stocks continue to plummet in the Snake 
River. NMFS does not allow the Shoshone-Bannock Tribes to 
increase production, NMFS's definition of 150 individual fish 
being the minimum viable population. The returns of the wild 
salmon number less than 100 in historic stream and river 
systems.
    The Snake River salmon are effectively or genetically 
eliminated in many areas. NMFS refuses to improve the migration 
corridor. NMFS must allow substantive reintroduction by using 
hatchery populations. NMFS is arbitrarily separating wild fish 
and wild fish production areas from hatchery fish.
    NMFS's failure to fulfill trust responsibility to tribes. 
Each year, the Biological Opinion is held in abeyance by NMFS 
to delay our ceremonial and subsistence fisheries. This year, 
the fishery opportunities are more than half over, and we still 
have not received the complete Biological Opinion.
    The tribes' right to fish is provided in the Fort Bridger 
Treaty of 1868, and NMFS continues to protect industry and 
other causes through the demise of the salmon and refuses to 
bring a jeopardy opinion against the dams, but continues to 
abridge the Shoshone-Bannock Treaty of 1868.
    The NMFS does not have the authority to abrogate my tribes' 
or any other tribes' treaty. Rendering a treaty null and void 
is not within the agency's right or authority. The NMFS cannot 
define a tribe as a person as they are attempting in their 
administering of the ESA. Ours is a tribal sovereign right, not 
an individual right.
    In conclusion, as I state in my testimony, we have other 
concerns about the recovery of our brother, the majestic 
salmon, and we can provide potential solutions to these 
questions in the near future if requested. Again, we believe 
our concerns would be appeased and that the salmon would 
quickly be recovered if NMFS provided a natural corridor 
through the Lower Snake River.
    Again, I thank you for this opportunity to express some of 
our concerns about the continued demise of the still majestic 
salmon. We need to wake up and provide for our future 
generations the continued existence of these great fish or 
forever be haunted by the loss of them. Thank you.
    [Statement of Mr. Boyer can be found at the end of the 
hearing.]
    Mr. Saxton. Thank you very much, Mr. Boyer. Let me just 
express my appreciation to all four of you for very articulate 
testimony wherein you not only point out the facts of the case, 
but also your frustration with the seeming inability of the 
Federal agency to play a productive role. We are going to each 
have some questions for you at this point, and we will begin 
with Mr. Crapo.
    Mr. Crapo. Thank you very much, Mr. Chairman. I would like 
to start out, Mr. Yost, with you. As you may recall, were you 
at the hearing in I believe it was Lewiston which we held in 
May, which Chairman John Doolittle of the Water and Power 
Subcommittee held with regard to drawdowns?
    Mr. Yost. Mr. Crapo, no, sir.
    Mr. Crapo. At that hearing, I asked virtually every witness 
from whatever perspective they may have come whether they felt 
that the process that NMFS was following was allowing them and 
their point of view to be adequately heard, and virtually every 
witness said no.
    Now, I realize that whenever you are the lead agency on an 
issue, you are going to face discontent and concern by the 
various parties who are concerned. But it was remarkable to me 
that every witness, whether it was from one angle, one 
perspective or the other felt that the process was not working 
in terms of allowing them to have access and feeling that their 
point of view was being heard.
    The reason I lead in with that is that Idaho has in the 
last year or two developed a salmon migration plan or policy 
that it has proposed in the negotiations. Is that not correct?
    Mr. Yost. Mr. Chairman, Congressman Crapo, yes, sir. Idaho 
tries to bring all of the affected and interested parties in 
Idaho together each year to formulate a river operations 
strategy for that particular year because the State of Idaho's 
position is that in an effort to restore salmon and assist 
resident fish that we utilize the resources that we have in the 
best available manner.
    Those resources change year by year; that is, the amount of 
rainfall and snowpack we have depends on the amount of flows 
that come out of Idaho that are used to assist salmon. Also, 
the number of smolt that go out each spring is different year 
to year. So each year we develop a particular river operation 
scenario for that particular year, spring and summer.
    Mr. Crapo. And in the last 2 years, it has been very 
successful in terms of at least achieving the agreement of all 
of the major interests involved. Is that not correct?
    Mr. Yost. Mr. Chairman, Congressman Crapo, that has been 
correct. We have had a major component of our proposal accepted 
by the region. All of the interests in the region have accepted 
the majority of our proposal.
    Mr. Crapo. And when that proposal was presented at the 
appropriate time and location with the National Marine 
Fisheries and other managing agencies and so forth, it is my 
understanding that it was very broadly accepted by most, if not 
all, of the other parties present. Is that correct?
    Mr. Yost. Mr. Chairman, Congressman Crapo, 12 of the 13 
participants accepted that. The only dissenting vote was the 
National Marine Fisheries Service.
    Mr. Crapo. So in the face of virtually all other 
participants, the National Marine Fisheries rejected the 
policy?
    Mr. Yost. Mr. Chairman, Congressman Crapo, that is correct.
    Mr. Crapo. Mr. McFarland, would you describe for me your 
experiences with National Marine Fisheries personnel as you 
have tried to work with them or reach agreement on habitat 
protection?
    Mr. McFarland. Generally, it has been very difficult to get 
any positive participation from National Marine Fisheries. They 
constantly have the excuse that they have no personnel. They 
don't have enough people. But when the time comes that we do 
get some people to our meetings to work with us, they show up 
in droves. I mean, I am calling three a drove. But we would 
much rather have one three times than three one time.
    There are some positive things going on though. We have 
finally got through to some of the lower echelon units. And 
since we have began communication, there are some positive 
things going on in our area.
    Mr. Crapo. All right. Thank you. And, Mr. Penney, the Nez 
Perce Tribe and three other tribes have pulled out of the 
National Marine Fisheries Executive Committee, and I think that 
you have explained in your testimony the reasons for that. 
Could you tell me what it would take for you to come back into 
the process, if you have authority to state what it would take 
for the Tribe to come back into the process?
    Mr. Penney. Mr. Chairman, Congressman Crapo, on June 3 in 
Portland, Oregon, there was a meeting between the various 
Indian tribes and the State Governors, which I felt was very 
productive for a first meeting. But at that meeting also, the 
Governor of Montana expressed his concerns on the process as 
well.
    I think our concern from the Nez Perce Tribe is the NMFS 
process itself--it seemed like every meeting that either myself 
or our staff attended--supposedly a consultation meeting to 
decide some of these issues that some of these issues were 
already in place, and we were simply informed what was going to 
take place.
    And we didn't think that was a very productive forum for 
the Columbia River Tribes, including the Umatilla, Yakama, and 
Warm Springs Tribes. We decided that the forum was no longer 
productive for us, and we would not participate in that forum 
unless there were changes made in how it was structured.
    Mr. Crapo. Would you participate in some type of a forum 
that involved--what I am hearing you say is that you felt the 
decisions were made and that your participation did not really 
impact the decisions. Is that correct?
    Mr. Penney. Well, I believe the tribal input, as I 
mentioned in my testimony, that a lot of the best available 
data, science are not fully considered when those type of 
decisions are being made. And when we do get to the meetings, 
we are informed that this was the direction NMFS is going to 
take.
    Mr. Crapo. Do you feel that a decisionmaking process that 
gave decisionmaking authority to a regional body of some type 
that represented the sovereigns in the region would be 
acceptable?
    Mr. Penney. Mr. Chairman, Congressman Crapo, I think that 
was the intent of our June 3 meeting, that the States, the 
Federal Government, and the tribal governments need to be fully 
involved in any decisions that are made. In fact, the title of 
that meeting was the meeting of the three sovereigns, Federal, 
State, and tribal. And I believe that is the proper way to 
address this regional--especially the Northwest issues.
    And I think going back to some of the issues that have been 
stated previously that we want to keep it a regional issue. As 
mentioned earlier, the bull trout, the steelhead, there are a 
number of other stocks that are in trouble at this time. So we 
need to reach a regional consensus among those----
    Mr. Crapo. If that approach were taken, what about--how 
would the interests such as irrigators or the transportation 
concerns or fish and wildlife advocates--how would their 
interests be represented in the decisionmaking body?
    Mr. Penney. Well, I co-chair the Snake River Basin 
Adjudication as well for the Nez Perce Tribe, and all of those 
interests are represented under the State. And I would assume 
there would be representatives of the State under the umbrella 
of the State.
    Mr. Crapo. All right. And, Mr. Boyer, I note that the 
Shoshone-Bannock Tribes have not withdrawn from the process at 
least at this point. I assume, however, that you share the same 
concerns from your testimony. It appears you share very many of 
the same concerns that the Nez Perce Tribes do. Is that 
correct?
    Mr. Boyer. Mr. Chairman, Mr. Crapo, correct. The Shoshone-
Bannock Tribes, as the other tribes have, since the formation 
of the Executive Committee have opposed the Executive 
Committee. It is a committee that was--as in your briefing here 
is an informal committee. However, being an informal committee, 
it develops policy decisions without our participation. That is 
our concern.
    It was presented to the Members Committee of Columbia River 
Basin Fish and Wildlife Authority in 1995--it was presented, 
and the members at that time, which is made up of the 13 
tribes, the four States, and the Federal agencies, minus the 
Corps of Engineers and the Bureau of Reclamation, sitting at 
one table. It was presented and at that particular time the 13 
tribes did not accept that process.
    Mr. Crapo. Thank you. I just have another question or two 
of Mr. Yost, if I might, Mr. Chairman. Mr. Yost, in the 
discussion that we just had with regard to regional 
decisionmaking or changing--moving to a process where the 
decisions were actually able to be made in a regional 
decisionmaking body of some sort, there has been a lot of 
discussion, as we just had, with regard to whether the 
sovereigns ought to be the ones that make up that 
decisionmaking authority, or whether it ought to be a more 
broad-based decisionmaking group that involved representatives 
of different interest groups. Do you have a position on that?
    Mr. Yost. Mr. Chairman, Congressman Crapo, I think that the 
regional forum that currently exists has to be radically 
changed. Either NMFS has to change the way they operate now, or 
there has to be a completely different regional forum 
established. I think the region can decide who should be on the 
committee or how it should be established.
    I think they can come to an agreement within the region as 
to who should be on the--participate in the regional forum. 
There is a difference of opinion now, but it is being discussed 
between the three sovereigns, as was mentioned--the Federal, 
State, and tribal sovereigns. It is either going to have to be 
done in the region, or Congress or the Courts will have to 
decide what happens.
    Mr. Crapo. Does it appear to you that the National Marine 
Fisheries Service views the research and data from the States 
and the tribes and other sovereigns on the same level and 
accuracy and usefulness as it views its own research data?
    Mr. Yost. Mr. Chairman, Congressman Crapo, no. The National 
Marine Fisheries Service does not consider scientific data or 
scientific opinion from the other Federal partners or their 
sister agencies in the Federal Government--the Corps of 
Engineers, BPA, or the Bureau of Reclamation, nor any of the 
tribal fish and game de-

partments, nor other information and data that is available 
from the private sector.
    And that is part of the problem. If they have to go out and 
research and prove all of the--or disprove all of the data that 
is there, they want to make their own decisions. The problem 
with that is is that there is a diversity of information and 
data within the region. If I can reach consensus in the region 
with everyone but NMFS, are they part of the process? Are they 
part of the solution? Are they participating in the process? Or 
are they making unilateral decisions?
    I think the evidence that you hear today and the evidence 
we have experienced in the last 2 years in that regional forum 
will indicate that they make unilateral decisions. Either they 
want their science--to use their science to promote their 
principles or objectives, or they want to pick up their marbles 
and go home.
    Mr. Crapo. Thank you. I just have one final point to make 
again with you, Mr. Yost. I started out asking you about the 
consensus that had been reached with regard to the Idaho 
proposal, the Idaho policy. And it seems to me that the 
decision that NMFS made to move in a different direction has 
resulted in an immediate and long-term threat to many water 
uses along the Snake and Columbia River system--threats to 
irrigation, commercial, residential water users, and the entire 
regional economy--a threat that is not justified by the 
science, nor designed in my--or likely, in my opinion, to have 
a significantly positive impact on salmon recovery.
    And it is also an immediate and long-term threat to State 
water sovereignty and not just with regard to the State of 
Idaho either. And I just would like to have you comment on it. 
And I am going to talk to the next panel about that as well.
    But would you please comment? Do you agree with my 
observation there with regard to the impact of the current 
policy being pursued by NMFS and its potential implications for 
water sovereignty and other water uses in the region?
    Mr. Yost. Mr. Chairman, Congressman Crapo, the issues are 
very critical when you are dealing with river governance in the 
State of Idaho. Those issues are so sensitive and so volatile 
and so critical to the entire livelihoods of everyone in the 
Northwest. It has a tremendous impact on power and how power is 
used. You can't separate the operation of the river system in 
power that pays for fish mitigation.
    We have to have the biological solution to save the fish 
and to restore the salmon runs. We have jurisdictional issues 
and sovereignty issues that have to be maintained. Each issue 
is critical and is complex. And, of course, those decisions 
will be best for the region that are made within the region 
with as much consensus as possible. We need to have NMFS as a 
player, not as someone who would make a unilateral decision 
regardless of the consensus reached by the other participants 
in the process.
    Mr. Crapo. Thank you very much. And, Mr. Chairman, I would 
yield back my time at this point.
    Mr. Saxton. Thank you, Mr. Crapo--excellent questions. Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you. Mr. Chairman, before I get to 
individuals, I want to comment to you and to Mr. Crapo and I 
guess to the panel and those upcoming as someone who is very 
much interested in trying to be a useful catalyst in this 
process to you, in just thinking about, very frankly, Mr. 
Chairman and Mr. Crapo, a water distribution question that we 
are dealing with in the Island of Oahu right now.
    You can imagine the parallel interests that I would have 
when you are an island in the middle of the Pacific utterly and 
totally dependent upon an aquifer, which must remain pristine, 
cannot in any respect be contaminated except at the immediate 
peril of everyone there, and a competition for the use of such 
water right.
    But I was thinking to myself I thought that was complicated 
until I got to this today. Now, just in--I haven't covered it 
by any means, but, Mr. Chairman, I detect so far five Federal 
agencies, five States, 13 tribes, three categories--I don't 
even want to break the categories down, but they include 
commercial and environmental and recreational--leading to 
legislative acts from which plans come, opinions, systems, 
committees, teams, and boards--almost all in the plural. And in 
order to deal with the acts, plans, opinions, systems, teams, 
committees, and boards, there are councils, groups, 
authorities, and forums, regional, State, tribal, et cetera. 
Have I got it so far?
    Mr. Crapo. Mr. Chairman, Mr. Abercrombie, I think you have 
been a very quick read on this. The only thing you left out was 
there was another foreign nation as well, the Nation of Canada, 
that is also involved.
    Mr. Abercrombie. Oh, that is a nation. OK. Right.
    Mr. Crapo. Add a nation to your list.
    Mr. Abercrombie. Right. So I have an idea that the National 
Marine Fisheries Service has either by default or design or 
both become the czar in this and is pretty much regarded by 
everybody the way the czar was regarded in 1917 or 1918.
    As of yet, apparently, the head of the National Marine 
Fisheries hasn't suffered the same fate as the Romanovs, but 
that is not necessarily out of the picture, apparently. So by 
no means am I trying to make light of it or go into a Pontius 
Pilate mode and wash my hands of it because it is complicated 
and detailed.
    But I do think--would I be correct, Mr. Yost, Mr. 
McFarland, Mr. Penney, and Mr. Boyer--would it be fair to say 
then that the human dimension in this, obviously, causes great 
strain in trying to deal with all of these abstract categories? 
I think that that is--everybody would agree.
    So the question then becomes, for me, is it possible to 
achieve a consensus, not agreement--not so much a consensus 
agreement, but a consensus approach on how we would deal with 
this legislatively? Because I have an idea that as odd as it 
may sound, the Congress might prove useful in this because we 
could act as an honest broker.
    I mean, I realize it is fashionable these days to trash 
government, but we are here after all under the Constitution a 
free people trying to decide on the basis of what is good for 
the community, what is good for the polis, what is good for us 
as a Nation. And, obviously, this is a national resource.
    I am correct, am I not, that all interested parties here 
regard the issue at hand here as something which involves a 
national treasure and resource, as well as the individual 
attachments that people may have? That being the case, my 
suggestion, Mr. Chairman, is rather than ask questions, I 
think, as you mentioned, all of the people have made their 
positions very clear.
    But I think there is a common theme running through all of 
the testimony, at least that we have seen so far, which is that 
there is an agreement that there is a decline in the salmon 
stocks, that the elements which have to be taken into account 
include ocean conditions, the dams themselves, water use, 
overharvesting, habitat destruction, hatchery impacts, and the 
question of the reservoirs associated with the dams.
    It would seem to me then, Mr. Chairman, that perhaps we 
could devise some legislation which would cross the various 
entities here and the various jurisdictions in a way that would 
help us to come--help the decisions to be made which would 
advance the cause of increasing the stocks and access to them 
in a reasonable way which takes historical necessities into 
account.
    My bottom line on this would be, Mr. Chairman, that 
representing as I do a State which has a history of native 
peoples not being taken into account, any solution that we come 
up with I think, Mr. Chairman, has to have as a fundamental 
proposition recognition of an adequate attention paid to the 
rights in a modern context of the native peoples.
    I don't think it is possible probably given the fact that 
you have eight dams and significant change in the actual 
physical characteristics of the river to apply literally and 
rigidly the terms ``usual and customary'' with respect to 
tribal use. But we certainly can have as an ongoing admonition 
that maximizing the intent of customary and usual use for 
tribes should be foremost in whatever legislation appears.
    Mr. Crapo. Thank you. Would the gentleman yield?
    Mr. Abercrombie. Certainly.
    Mr. Crapo. I appreciate your approach to this, Mr. 
Abercrombie. Many times I have said and one of the things that 
I am advocating is that we need to find a decisionmaking 
process I believe focused in the Pacific Northwest so that all 
of the people and interests and concerns in the Pacific 
Northwest are represented in the process and feel represented 
in the process and actually have decisionmaking impact in that 
process. And I feel not only your interest but your offer of 
the fact that perhaps Congress needs to help find that solution 
is a wise and helpful observation.
    Mr. Abercrombie. Well, the final thing I would say then--
thank you very much--is that perhaps the National Marine 
Fisheries Service is not the best agency to be the final 
arbiter, if you will, but I have an idea that no matter what 
entity is either selected or created that that entity, as I 
think you indicated in your commentary, is likely to be the 
villain.
    So I don't think that that is not an argument against 
coming to a legislative conclusion. If anything, it should spur 
us to say, ``Look, then let us try and figure out a way that 
everybody can agree allows for participation, and then having 
had that participation, I think you have to make decisions and 
not just string it out and let the difficulty of it prevent us 
from coming to a conclusion.'' And then we support it with 
appropriations if that is what is needed or legislation or 
both.
    But I certainly would pledge my every effort to you and to 
the Chairman and to our guests here today to try to be a 
constructive force in achieving a just and fair conclusion 
which will advance the cause I think that everybody ultimately 
has allegiance to.
    Mr. Crapo. Thank you and I look forward to working with you 
on that.
    Mr. Saxton. Thank you, Mr. Abercrombie. Let me just make a 
couple of observations and ask some questions for purposes of 
my clarification. Mr. Yost--well, first of all, let me say that 
my two colleagues who are here with me today know that I am 
from New Jersey, and one of the things about resource 
management that I have learned since I have been in Congress is 
that resource management works best when the resources that 
affect the people who are the closest are managed by those 
people. In other words, local decisions mean an awful lot in 
terms of the success of whatever resource it is that we are 
trying to manage.
    In New Jersey, for example, the most densely populated 
State in the country, we take some degree of pride in the 
degree of environmental protection that we have been able to 
provide for our resources, but we have done it out of 
necessity, quite frankly, because there are so many people who 
have decided or inherited this little piece of real estate 
called New Jersey. And we have found out that out of necessity 
we have to be very careful of our resources because there are 
so many of us who can muck them up real quick.
    So we have a Department of Environmental Protection and 
environmental protection laws that are very, very burdensome as 
compared to States that are less densely populated. But it 
works because New Jerseyans decided that that is what we needed 
to do. And I suspect or know that other parts of the country 
have the same kind of desire to manage resources appropriately 
for that region of the country.
    Now, a week or so ago, we all participated in trying to 
help straighten out another issue where local people had some 
desires and a management plan that they tried to put in place 
and were foiled by another Federal agency known as the U.S. 
Forest Service. A plan was developed by Mr. Herger, the 
gentleman from northern California, and his constituents.
    And the Forest Service played NMFS, and we ended up a week 
or so ago legislating a law that we knew--a bill that we knew 
as the Quincy Library Group proposal to put in place 
legislatively a management plan that was developed by local 
people because that is what we believe ought to happen.
    Now, Mr. Yost, you indicated that there were 13 agencies or 
13 parties to an agreement--potential parties to an agreement. 
Is that right?
    Mr. Yost. Mr. Chairman, there were 13 participants at the 
Executive Committee in the region who had agreed to--who were 
at an Executive Committee meeting. Twelve of those supported 
us. There were those who--the only one who opposed us in the 
region at that particular vote was the National Marine 
Fisheries Service.
    Mr. Saxton. All right. Now, were there other Federal 
agencies in attendance represented?
    Mr. Yost. Mr. Chairman, yes, the Bureau of Reclamation, 
Bonneville Power Administration, Corps of Engineers, U.S. Fish 
and Wildlife Service.
    Mr. Saxton. And they were among the 12 that agreed with a 
plan that would have managed the river resources for a season 
or a year. Is that correct?
    Mr. Yost. Yes, sir, Mr. Chairman.
    Mr. Saxton. And there were local participants to that 
potential agreement as well?
    Mr. Yost. Mr. Chairman, there were the representatives of 
the--there were representatives of three States. Montana had 
withdrawn from the process, but there were representatives from 
three States. And the downstream tribes approved that as well. 
There was no objection from the tribal sovereigns.
    Mr. Saxton. So there were 12 parties to the agreement that 
had worked through a series of negotiations, along with the 
power company association which, obviously, made some 
concessions. The way I understand that agreement, and I don't 
mean to oversimplify it, and you can correct this if I am 
oversimplifying it, but it provided for something like a 6-week 
period of time when the river would be is the correct word 
open? Freeflowing more or less?
    Mr. Yost. Mr. Chairman, it was a combination of providing 
flows when the smolts were in the river, and it also included a 
scenario for the amount of fish that would be barged versus the 
number of smolts or percentage of smolts that would be allowed 
to go downstream in river.
    Mr. Saxton. And, obviously, there must have been some 
biological considerations and conservation considerations which 
the U.S. Fish and Wildlife Service is not an easy agency to 
deal with, and apparently they agreed as one of the 12 parties 
that this was a good conservation plan?
    Mr. Yost. Mr. Chairman, that is correct. Even Will Stelle 
of the National Marine Fisheries Service agreed with the 
percentages. He just reneged on that situation later. What is 
what I am saying--is that Idaho doesn't expect to get 
everything it wants. I am not here to complain that Idaho 
didn't get their proposal 100 percent.
    What I complain about and what I am concerned about is that 
Idaho can go into the region and get consensus of other Federal 
agencies, of tribes and States, and fish and game departments 
from the States. I can get consensus there except for NMFS, and 
they unilaterally make a decision when all of the other 
entities or participants have kind of agreed. No one was really 
happy with the agreement. There were those on both sides who 
wished it would have been something different, but at least we 
had reached a consensus except for NMFS.
    Mr. Saxton. Now, since NMFS is not here today, it would be 
appropriate to be kind to NMFS. They are actually here--
observers are here, but the spokesmen are not here today. So 
can you shed any light on or find a reason or explain to me why 
it is that NMFS was the outparty and couldn't agree?
    Mr. Yost. Mr. Chairman, the response from NMFS for the 
request was that they considered that they wanted more chinook 
salmon barged than were allowed to go downstream in river. What 
they did was take into account hatchery fish that are not 
listed stocks. And National Marine Fisheries Service does not 
have jurisdiction over hatchery stocks. They are not listed. 
They are not on the endangered species list.
    Only native wildfish are on the endangered species list and 
listed under ESA. Those are hatchery-produced fish out of Idaho 
for supplementation, and yet we can identify those fish and we 
do. All we ask was that there were more hatchery fish and 
steelhead smolts allowed to go inriver because of the excellent 
conditions for inriver migration for this particular year 
because of the runoff.
    Mr. Saxton. So I am not sure that I get into the--I don't 
mean to use the wrong word here but, you know, the biological 
minutia of one fish from another, but I don't understand that 
logic I guess is what I am saying. Maybe Mr. Crapo would like 
to help me understand.
    Mr. Yost. Mr. Chairman, we didn't understand it either.
    Mr. Crapo. Yes. I believe what it boils down to, and at our 
next hearing we will have NMFS present and can ask them these 
detailed questions, but without trying to speak on behalf of 
NMFS, I think what it boils down to is that they believe that 
the dams are one of the major causes of mortality of the smolt.
    And there is a disagreement by the NMFS officials as to the 
best way to get the smolt around the dams. They tend to believe 
in what is called transportation or the barging, whereas there 
are other advocates who wanted to have a larger percentage of 
the fish left inriver and spilled over the dams.
    And many of us don't know the answer but felt that this 
would be a good year to even out the percentages because we had 
the waterflow that could get the spills successfully 
accomplished, and then we could have better studies on which 
approach worked more effectively. Is that a good explanation of 
it, Mr. Yost?
    Mr. Yost. Mr. Chairman, Congressman Crapo, that is correct. 
There are certain years in Idaho when we have high flows. River 
conditions are excellent to carry the smolt downstream. When we 
have those types of conditions, it seemed to us to make more 
sense to leave the smolts in a natural setting inriver rather 
than collecting them at the facilities, putting them in barges, 
and transporting them downriver.
    Mr. Abercrombie. Would you yield, Mr. Chairman, a moment? 
Mr. Yost, we are going to have to vote soon. I want to make 
sure I get this. You mean to say this whole thing went up the 
chute because you were arguing over the detail of what by 
definition--I guess by definition is a scientific impossibility 
right now? You don't know these things. It has to be worked 
out.
    Isn't that something that if you had the overall agreement 
year by year you could try to decide which approach you were 
going to take depending on the riverflow and all the rest? Why 
on earth would you knock down the agreement of the whole over 
the detail of how it was going to be implemented when by 
definition that would change from year to year?
    Mr. Yost. Mr. Chairman----
    Mr. Abercrombie. Have I missed something?
    Mr. Yost. [continuing] Congressman Abercrombie, no, sir. 
You haven't missed it. NMFS agreed that we could have up to 50 
percent of the fish inriver and 50 percent in barges. The 
regional con-

sensus was a little bit higher than that but at least there was 
agreement that we wanted to have more fish in the river and 
less in the barges.
    Mr. Abercrombie. But my point is is that couldn't you get 
an overall agreement of something nailed down in writing then 
that this is the way you would do it every year? You have your 
vote; you come out; you get your consensus. You are able to 
achieve that.
    Now, we don't know whether you were going to be right or 
wrong, but that is not the point in this, right, because this 
is an inexact science--make the parallel to the case I 
mentioned on the Island of Oahu. I am not sure whether you got 
the exact number of millions of gallons per day of water that 
are going through. Maybe we will be off. Maybe it needs an 
adjustment, that you could make a mechanism for doing that. But 
once you have this in place, it seems to me that that should 
have been it and that should be the ongoing institutional way 
of dealing with this.
    Mr. Yost. Mr. Chairman, Congressman Abercrombie, we had an 
agreement in the region from everyone except NMFS.
    Mr. Abercrombie. OK.
    Mr. Yost. And even NMFS agreed at one time and then they 
changed their mind a few weeks later.
    Mr. Abercrombie. Thank you.
    Mr. Saxton. Now, let me just clarify a couple of other 
things. You have talked about NMFS at one point in the process 
being in agreement with the plan, and then they for some reason 
changed their mind and, in effect, vetoed the plan. Do 
representatives from the National Marine Fisheries Service work 
along with you through the process in trying to arrive at a 
conclusion with regard to some plan?
    Mr. Yost. Mr. Chairman, yes. NMFS agreed on several various 
components as we tried to negotiate what the specific numbers 
would be inriver and in the barges. We had NMFS agreeing with 
Idaho and other members on various components. But the plan 
that reached the most consensus NMFS objected to.
    Mr. Saxton. Were they a productive worker along the way?
    Mr. Yost. Mr. Chairman, I would say that they were able to 
agree with us on certain issues. Why they changed their mind at 
the last minute, I don't know.
    Mr. Saxton. Well, thank you. As you can see, we are going 
to have to go vote again. It disturbs me that one Federal 
agency in the context of what I gather, and correct me if I am 
wrong on this, but every player that I have heard referred to 
is trying to save or rebuild the salmon stock.
    Without exception, NMFS has as its mission the same thing, 
and I find it quite amazing and, in fact, disturbing that NMFS 
apparently was the showstopper in trying to arrive at a locally 
conceived plan to accomplish those goals.
    And, Mr. Crapo, I think, you know, the next hearing will be 
extremely interesting. In fact, let me suggest that you and I 
not wait until the next hearing. Why don't we see if we can get 
a private meeting with the folks from NMFS between now and the 
time we go home----
    Mr. Crapo. I would appreciate that, Mr. Chairman.
    Mr. Saxton. [continuing] to see if we can find some answers 
that may be helpful. You are not alone in your frustrations I 
must say to the four of you and others who are here from the 
Northwest. NMFS is not just less popular than the IRS in the 
Northwest, it also happens to occur to a large degree in the 
Northeast. And so we will try to work with NMFS here in the 
next week or so to try to get a quick meeting to try to see if 
we can't make some progress on this matter.
    We are going to have to go vote again, and so I want to 
thank all of you. I assume that we can say that you have been 
extremely helpful in that we don't have further questions for 
this panel. So we thank you, and, unfortunately, I have a 12 
o'clock appointment that I must keep so, Mr. Crapo, if you 
would chair the hearing when you return, and I will try to 
catch up with you in the next 45 minutes or so. Thank you very 
much.
    Mr. Boyer. Mr. Chairman, I do have some news articles that 
recently came out of the Boise Statesman. Congressman Crapo 
probably has access to it. It is a three-part series on the 
problem that we are discussing here today.
    Mr. Saxton. OK. Thank you very much. I would love to be 
able to have that, if I may.
    Mr. Boyer. I have two parts. I don't have a third part.
    Mr. Saxton. Thank you.
    [News articles follow:]
    [Recess.]
    Mr. Crapo. [presiding] The hearing will reconvene. We 
apologize. This is sort of standard operating procedure around 
here. We are having more votes than usual because there is a 
bunch of fighting going on on the floor so we apologize for 
that.
    Mr. Abercrombie and the Chairman both had luncheons to go 
to, and Mr. Abercrombie and I are both involved in an amendment 
on the sugar part of the Farm bill later on. So they are going 
to try to get back, and we will do our very best to move ahead 
expeditiously.
    Let me introduce the second panel now and welcome Mr. 
Joseph Rohleder of the Northwest Sportfishing Industry 
Association; Mr. Stan Grace, Council Member for the Northwest 
Power Planning Council; Mr. Bob Deurloo from the Meridian Gold 
Company; Mr. Justin Hayes of the Save Our Wild Salmon 
Coalition; and Mr. Norman Semanko of the Twin Falls Canal 
Company and the North Side Canal Company.
    We welcome you all, and I would just remind you to try to 
stay as close as you can to the 5-minute window there because 
of the timing problems we have in this hearing. But please feel 
free to make your points as well. And we will start out with 
you, Mr. Rohleder.

 STATEMENT OF JOSEPH ROHLEDER, NORTHWEST SPORTFISHING INDUSTRY 
                          ASSOCIATION

    Mr. Rohleder. Thank you, Congressman Crapo. My name is Joe 
Rohleder. I live in Waldport, Oregon. I am testifying today on 
behalf of the Northwest Sportfishing Industry Association and 
the Association of the Northwest Steelheaders.
    NSIA consists of hundreds of businesses and thousands of 
jobs in the Pacific Northwest dedicated to keeping our rivers, 
lakes, and streams healthy and full of fish. The Steelheaders 
are the largest angling group in Oregon. Sportfishing generates 
over $3 billion per year to the overall economic health of the 
Pacific Northwest States.
    My background--I am a trained geologist. Since 1986, I have 
operated ocean charter boats, fishing boats, and tour boats on 
the Oregon coast and in southeast Alaska. This last year I 
worked extensively with the Oregon legislature for adoption and 
funding of Governor Kitzhaber's Oregon Coastal Salmon 
Restoration Initiative. During that process, I worked regularly 
with National Marine Fisheries Service.
    Thank you for inviting fishing businesses and sportanglers 
to testify today. Our businesses literally live or die by how 
well National Marine Fisheries Service does its job. As we see 
it, that job is restoring fishable populations to Northwest 
salmon. Only fishable populations contribute to economies, 
communities, and cultures.
    In brief, here are some of the concerns of fishing business 
people and the Steelheaders. Salmon are not being restored. The 
measures taken by National Marine Fisheries Service to date 
would have to improve by 500 percent in order for adult returns 
to sustain recovery. The numbers of Wild Snake and Columbia 
River salmon and steelhead are lower now than when NMFS took 
over in 1992.
    In the Columbia basin, NMFS invests too much effort going 
after small sources of human mortality--harvest and 
hatcheries--and too little going after the large sources--
Federal dams and reservoirs. NMFS has drastically reduced 
sports, commercial, and tribal harvest to salmon in many cases 
to virtually zero. They have also focused substantial resources 
analyzing and regulating hatcheries.
    Meanwhile, the Federal hydrosystem, which is responsible 
for from 60 to 90 percent of the human caused mortality of 
Snake River salmon, has only slightly changed operations under 
National Marine Fisheries Service direction.
    NMFS communication and outreach to anglers, businesses, and 
communities is about the worst that we have seen. Now, the 
groups I represent work with several dozen agencies including 
other agencies that regulate us like National Marine Fisheries 
Service does. Our approach in all cases is to seek to be 
effective partners because that is good business, it is the 
right thing to do, and it is the only way that we are going to 
solve the Northwest salmon crisis.
    More than any other agencies, National Marine Fisheries 
Service has not effectively built partnerships with anglers and 
fishing businesses. The agency does not communicate well. They 
don't listen well. They don't share control well, nor do they 
build consensus well. This is true on the Columbia and on the 
Oregon coast.
    National Marine Fisheries Service's scientific credibility 
is very low. An example of the apparent misuse and premature 
information release occurred this year with the preliminary 
results of the 1995 PIT-tag study. A PIT-tag is a tag that is 
put into the fish that is an interactive transponder.
    The study is incomplete. The data has not been peer 
reviewed by State, Federal, tribal managers, and it is just one 
study amongst many that the National Marine Fisheries Service 
is doing right now. Yet, high NMFS officials are publicly 
releasing preliminary data to the media and to Congress 
claiming that it shows fish barging worked in 1995.
    The National Marine Fisheries Service is not exerting 
effective leadership with the other Federal agencies, with the 
Northwest States and Indian tribes, or with Northwesterners in 
general. There will not be recovery without regional unity. But 
instead of building institutions and attitudes to achieve it, 
National Marine Fisheries Service has alienated partners away 
from the table.
    We acknowledge that creation of the regional unity is not 
just NMFS's responsibility, but the Administration must lead 
the effort, and NMFS is the Administration's designated agency 
in charge of salmon.
    We appreciate this Committee's attention to Northwest 
salmon, and we look forward to working with you in the future. 
Our suggestions briefly are there must be upward accountability 
on the Columbia. NMFS has neither the will nor the full 
authority to make decisions and then enforce those decisions on 
other Federal agencies.
    The majority of Federal resources must focus on the primary 
causes of mortality, habitat degradation especially caused by 
Federal dams. NMFS and the Federal hydroagencies must recommit 
to a scientific partnership with Northwest States and tribes. 
And NMFS and the Administration should embrace now the 
scientific principle that fish need rivers.
    We just restore more natural watershed processes, recreate 
damaged habitats, and restore fishable populations of salmon 
and steelhead. The groups I represent stand ready to assist and 
partners in these efforts whenever and wherever appropriate. I 
thank you very much, Mr. Chairman.
    [Statement of Mr. Rohleder may be found at end of hearing.]
    [Disclosure requirement may be found at end of hearing.]
    Mr. Crapo. Thank you, Mr. Rohleder. We appreciate your 
testimony, and I understand that you may have to leave early. 
If we don't finish by the time you have to leave, please feel 
free to excuse yourself.
    Mr. Rohleder. Thank you very much, sir.
    Mr. Crapo. And next, Mr. Stan Grace for the Northwest Power 
Planning Council. Mr. Grace.

   STATEMENT OF STAN GRACE, COUNCIL MEMBER, NORTHWEST POWER 
                        PLANNING COUNCIL

    Mr. Grace. Thank you, Mr. Chairman. My name is Stan Grace. 
I am a Montana member and former chairman of the Northwest 
Power Planning Council. In the council's planning, we were 
required to balance the needs of fish and wildlife against the 
hydroelectric system. We treat the Columbia River and its 
tributaries as a system as we were required by law.
    I am also Montana's representative on the Executive 
Committee, an advisory forum of river interests created by the 
National Marine Fisheries Service to assist in decisionmaking 
about Columbia and Snake River operations.
    My message today is that in my experience, the NMFS 
decisionmaking process fails in two ways. First, the NMFS fails 
to take into account the impact of Columbia and Snake River 
recovery operations on Montana's fish and wildlife, 
particularly the impact of reservoir drawdowns to augment flows 
downstream for endangered Snake River salmon.
    Second, related to the first, there is a definite lack of 
cooperation between the NMFS and Montana. This stems from the 
lack of consideration by the Fisheries Service for Montana's 
fish and wildlife resources. Montana is unique in this respect. 
We have no salmon, but we do have bull trout, cutthroat trout, 
and sturgeon on our Columbia River tributaries.
    These fish are adversely affected when the Fisheries 
Service orders drawdowns at Libby and Hungry Horse reservoirs 
to augment Columbia River flows. These drawdowns also impact 
the ecology of two major reservoirs on these tributaries--Lake 
Koocanusa behind Libby dam and Hungry Horse reservoir behind 
Hungry Horse dam, as well as 125 miles of river below the dams.
    Because the Power Planning Council treats the Columbia and 
its tributaries as a system, the council adopted operating 
guidelines for Libby and Hungry Horse dams that protect fish 
and wildlife, provide flood control, and meet hydropower 
requirements, as well as contributes significant amounts of 
water to salmon recovery efforts.
    These protections developed in the public process are 
called integrated rule curves. They are operating rules for 
Libby and Hungry Horse dams that limit the depth of reservoir 
drawdowns and strive to avoid refill failures.
    This significant investment in time, manpower, and money 
has been ignored by the Fisheries Service in its Biological 
Opinion on hydropower operations. The Fisheries Service claims 
that drawdowns at Libby and Hungry Horse dams boost water 
velocity in the Columbia River and that the additional velocity 
helps juvenile Snake River salmon migrate to sea.
    In truth, the velocity increase is insignificant. There is 
no scientific proof that this marginal increase benefits salmon 
recovery efforts. However, the adverse impacts from 20-foot 
drawdowns on resident fish at Libby and Hungry Horse are real 
and they are documented.
    Montana attempted to participate in NMFS river operations 
forum, but the Fisheries Service repeatedly ignored our 
concerns about the drawdowns imposed by the Biological Opinion 
at Libby and Hungry Horse dams. Our frustration with the NMFS 
process led to our withdrawal from a forum that offered us no 
opportunity for relief.
    Montana is also concerned that the Fisheries Service 
intervened in recovery planning for Kootenai River white 
sturgeon in an attempt to discredit the integrated rule curves 
despite unanimous support for these operational curves by the 
scientists working on sturgeon recovery.
    In conclusion, Mr. Chairman, Montana believes that NMFS 
managing Montana's resources through the Biological Opinion is 
managing, and that this amounts to management by a damage 
standard. In other words, NMFS does not seek to protect the 
needs of native fish in Montana, but rather manages to what 
they have determined to be a level of the ``acceptable 
impact.''
    After repeated attempts to have our concerns heard in the 
NMFS process, Governor Racicot suspended Montana's 
participation. We now seek legal remedies as our alternative. 
The National Marine Fisheries Service charges with implementing 
the mandate of the Endangered Species Act in the Columbia River 
basin must take a broader view in choosing recovery actions.
    We will continue to work for the recovery of the three 
listed salmon stocks, but measures to recover them should not 
be detrimental to other native species. We hope this Committee, 
as well as the Administration, will urge the Fisheries Service 
to implement an ecosystem approach to Snake River salmon 
recovery. Thank you very much for your invitation to speak 
today.
    [Statement of Mr. Grace may be found at end of hearing.]
    Mr. Crapo. Thank you, Mr. Grace. We appreciate your 
traveling to get here, and we know that you had to make special 
arrangements in your schedule to do so. Next, Mr. Deurloo.

       STATEMENT OF ROBERT DEURLOO, MERIDIAN GOLD COMPANY

    Mr. Deurloo. Mr. Chairman, I am Bob Deurloo. I am General 
Manager of Meridian Gold Company's Beartrack Mine near Salmon, 
Idaho. Beartrack employs 160 people, and we contribute 
approximately 20 percent to the economy of Salmon. We are 
located on Napias Creek which flows into the Panther River 
which flows into the main stem of the Salmon River.
    We have spent literally millions of dollars to ensure clean 
water, and I join probably everyone in this room in desiring 
the return of the salmon. And I would say the Napias Creek is 
in better shape now than before the mine started construction 3 
years ago primarily because of wetlands rehabilitation which 
was damaged by past mining practices.
    We have dealt with National Marine Fisheries for over 4 
years, and I have some specific examples of our dealings. We 
are frustrated, number 1, by the timeliness of their decisions. 
By statute, they have 135 days for consultation.
    In our case, it took over twice as long, and we almost 
missed the short summer construction season at 7,000 feet up in 
the mountains and almost were delayed for another year till the 
next construction season. And we would have been delayed had 
not our elected Representatives intervened and pressed NMFS to 
make a timely decision. We didn't ask for any special 
considerations, just a timely decision.
    When we did finally get the Biological Opinion, National 
Marine Fisheries found that Beartrack was not likely to affect 
the salmon, but that we were in critical habitat, which leads 
me to our second major frustration. We feel the National Marine 
Fisheries don't follow their own rules and regulations, and I 
will elaborate.
    As you know because you have been there, Beartrack is 
located seven miles above a falls on the Napias Creek. No one 
has ever documented or seen a salmon above these falls. We have 
found three government studies from 1938 on that have examined 
these falls, and all have described the falls as impassable 
cascades.
    One of those in 1938 by the Bureau of Fisheries, which is a 
predecessor to NMFS, found that they were impassable. These 
falls are also natural which can be seen by the huge boulders, 
and the tree up on top the falls is over 200 years old.
    National Marine Fisheries regulations state that all areas 
above natural and passable falls are not critical habitat. And 
critical habitat is defined in their own regulations as areas 
currently occupied by the species at the time of listing. Areas 
outside that occupied at the time of listing shall be 
designated as critical habitat only if such areas are essential 
for the conservation of the species.
    I think we all know that habitat is not the limiting factor 
for salmon conservation. Nevertheless, when our Biological 
Opinion was issued, National Marine Fisheries found, ``These 
are cascades with resting areas within them and are not a 
vertical waterfall. The possibility of chinook salmon passage 
is increased. The site visited by National Marine Fisheries 
staff verified the possibility of chinook salmon once spawning 
upstream from the cascades.
    ``Therefore, until conclusive data are available to confirm 
that the cascades were historically impassable, National Marine 
Fisheries will assume for the purposes of defining critical 
habitat that the upstream habitat was accessible.'' So, the 
regulations say if it is not currently occupied, it is not 
critical habitat. But NMFS says it may have been possible once 
upon a time so it is critical habitat.
    According to NMFS, if we want to change the designation, we 
must prove that no salmon were above the falls prior to 1860, 
or we have to prove that the falls are not passable and none of 
man's activities have negatively influenced this passage.
    So we spent considerable time and money trying to comply 
with their dictates. We have performed geomorphology studies 
which we prove that the falls are natural, and I think NMFS has 
bought off on that. We have also performed extensive hydraulic 
and gradient studies which our fish biologists feel prove that 
the falls are impassable. But when presented to National Marine 
Fisheries, their response is, ``That is all well and good, but 
you would be amazed at what a fish can do.''
    Our only appeal is to petition the Secretary of Commerce 
for habitat redesignation, which we have done, but we don't 
know if we will get an impartial hearing, and this process 
could take years. So here we are, tightly regulated. We must 
seek NMFS's permission for all of our activities, and their 
decisions are slow in coming.
    Mining is a dynamic process. Prices change, conditions 
change, reserves are added. Even with minor changes, we are 
threatened, ``Well, this will reopen your Biological Opinion.'' 
And with this, we would be in a whole new ballgame. This 
happened to Hecla, and now they have to curtail their 
operations during periods of wet weather. A similar restriction 
on our operations would threaten our $80 million investment.
    So we feel National Marine Fisheries needs to be more 
timely, more reasonable. They shouldn't be solely focused on 
only salmon considerations, but also should consider other 
factors as well. We also feel there should be a better appeal 
procedure rather than just suing in the Courts.
    We feel the National Marine Fisheries should reevaluate 
their regulatory chokehold on small interior operators that 
have minor effect on salmon; instead, concentrate on fixing the 
dams and then the salmon won't be endangered. Thank you.
    [Statement of Mr. Deurloo may be found at end of hearing.]
    [Disclosure statement may be found at end of hearing.]
    Mr. Crapo. Thank you, Mr. Deurloo, and you are correct. I 
have been there at those falls, and, you know, in my questions 
I want to go into that a little further with you. Next, Mr. 
Hayes.

   STATEMENT OF JUSTIN HAYES, SAVE OUR WILD SALMON COALITION

    Mr. Hayes. Thank you. I am the conservation scientist and 
DC area representative for Save Our Wild Salmon. Save Our Wild 
Salmon is a coalition of 47 conservation, fishing, and fishing 
business organizations.
    As you know, the National Marine Fisheries Service is 
charged with overseeing efforts to restore the federally listed 
Columbia basin salmon. Since NMFS took on this task, salmon 
have continued to decline. In fact, several additional stocks 
of salmon, several stocks of steelhead, and the seagoing 
cutthroat trout have now been proposed for listing on the 
Endangered Species Act as well.
    Why with the attention by the Federal Government, years of 
effort, and the expenditure of hundreds of millions of dollars 
have these species continued to decline? Why? Because the 
National Marine Fisheries Service has failed to take the active 
leadership role required to recover these fish.
    Currently, there are three separate recovery plans--a 
Federal, a State, and a tribal plan. Over the last 3 years, 
NMFS has failed to exert the leadership required to reconcile 
the differences and merge these three documents into a single 
binding recovery plan.
    In the absence of a single agreed-upon plan, the Northwest 
salmon recovery effort has virtually self-destructed. In 
addition, NMFS has focused far too narrowly on fulfilling only 
the procedural requirements of the Endangered Species Act. As a 
result, the recovery plan the National Marine Fisheries Service 
has put forth focuses on procedure rather than substance.
    The National Marine Fisheries Service's plan, even if 
implemented, will not result in the recovery of the Snake River 
salmon to self-sustaining harvestable levels. Their own studies 
prove that under their plan not even juveniles are surviving to 
adulthood and returning.
    Another stumbling block has been NMFS's failure to 
incorporate other Federal agencies, the States, and the tribes 
into the decisionmaking process. Substantive issues raised by 
others are infinitely passed from one meeting to the next 
because the National Marine Fisheries Service or the Army Corps 
of Engineers objects. This process has become such an obvious 
waste of time that many of the tribes and the State of Montana 
have withdrawn.
    The National Marine Fisheries Service's failure to bring 
the region's Federal, State, and tribal agencies together has 
created a leadership vacuum. As a result, many agencies in the 
Northwest have staked out their very own salmon turf. There is 
no better example of this than the U.S. Army Corps of 
Engineers. The Corps has decided that it is the ultimate 
authority over the management of the dams that are killing the 
salmon.
    This is so even when the operations of their dams directly 
contradict the management plans of the National Marine 
Fisheries Service. As a result, the Corps has managed the river 
poorly for fish, spending hundreds of millions of dollars on 
controversial projects.
    NMFS is like a deer frozen in the headlights. Rather than 
make a decision, it chooses to stand right in the middle of the 
road in the path of the oncoming truck. This fear has resulted 
in the National Marine Fisheries Service's pursuance of process 
over substance. They refuse to work cooperatively with others 
on substantive issues. They do not seem to want to pursue these 
issues and reach a solution.
    Recently, the State of Idaho and many of the region's 
tribes brought forth their proposal for managing the 1997 
salmon migration. This plan called for leaving more young 
salmon in the river to benefit from the expected high water. As 
you know, this plan was widely supported and scientifically 
very credible.
    An extensive report by NMFS's own independent scientific 
advisory board cautioned NMFS against its continued use of 
widespread, large-scale barging of juvenile fish. This report 
stated that there has never been any evidence that the practice 
of barging fish will lead to the eventual recovery of the 
salmon.
    At the Executive Committee meeting level, only the National 
Marine Fisheries Service objected to the Idaho and tribal 
proposal. In spite of overwhelming support, NMFS made the 
unilateral decision to barge many more juvenile salmon than 
other members of the committee thought was acceptable. Thus, 
the National Marine Fisheries Service ignored its own best 
scientific evidence, and it overruled the wishes of the other 
sovereigns in the region.
    The National Marine Fisheries Service's very poor 
leadership and its process over substance approach is not 
recovering and is not leading toward the recovery of the 
basin's salmon. It does not satisfy the requirements of laws or 
treaties which commit this Nation to restoring Columbia basin 
fish.
    Likewise, it does not satisfy the needs of the thousands of 
families dependent on commercial and recreational salmon 
fishing for their livelihood, and it does not satisfy the needs 
of the hundreds of thousands of recreational anglers who pump 
money into the economies of the Northwest.
    For this issue to move forward, several things must occur. 
First, the Administration needs to make a higher level presence 
felt in the region. It needs to have a presence in the region 
that is capable of giving orders to the other Federal agencies.
    Second, the Federal, State, and tribal plans need to be 
pulled together into a single binding recovery plan, and the 
States and tribes must be given co-management authority. Third, 
until these previous two occur, recovery efforts, especially 
spending, need to focus on components found in the three plans. 
This needs to be done so as not to prejudice one plan over the 
other in future decisions.
    And, fourth, the authoritative, scientific views of the 
National Marine Fisheries Service's own independent scientific 
advisory board need to be given more credence by NMFS itself 
and by the Administration. This is the best science available, 
and they are ignoring it. Rather, NMFS relies far too much on 
the decidedly unindependent scientists that are in charge of 
its own fish barging program to create their future policy. I 
thank you very much for the opportunity to speak before you, 
and I will gladly answer any questions when this panel is done. 
Thank you.
    [Statement of Mr. Hayes may be found at end of hearing.]
    [Disclosure requirement may be found at end of hearing.]
    Mr. Crapo. Thank you, Mr. Hayes. We appreciate your 
testimony. And, finally, Mr. Semanko.

STATEMENT OF NORMAN SEMANKO, TWIN FALLS CANAL COMPANY AND NORTH 
                       SIDE CANAL COMPANY

    Mr. Semanko. Thank you, Congressman Crapo, Mr. Chairman, 
members of the Subcommittee, ladies and gentlemen. I am here 
today representing the Twin Falls Canal Company and the North 
Side Canal Company. I am an attorney with the law firm of 
Rosholt, Robertson & Tucker in Twin Falls. We appreciate the 
opportunity to be here today and testify regarding NMFS and 
their role in the recovery of salmon in the Northwest.
    I appreciate being here today. I have been in this room 
several times as a staff member, and things haven't changed 
here much, and, unfortunately, neither has the status of the 
salmon since Larry Craig was in this Committee room.
    Mr. Crapo. And the fact that they call votes in the middle 
of your testimony, right?
    Mr. Semanko. Would you like me to proceed, or do you want 
me to----
    Mr. Crapo. No. Please go ahead and proceed.
    Mr. Semanko. Our primary concern with NMFS is the role that 
Idaho water, including water from Federal reservoirs, is being 
asked to play in recovery of the salmon. The current Biological 
Opinion requires that 427,000 acre-feet be provided each year 
from the Upper Snake; that is, above Brownlee reservoir.
    The bulk of this water has been provided from reclamation 
reservoirs in Idaho. This is despite the fact that the listed 
salmon do not exist in this part of Idaho and, above Shoshone 
Falls, have never existed.
    While Idaho irrigators do not believe that there is any 
scientific or legal justification for this, they have, 
nonetheless, cooperated; in fact, going so far as to support 
legislation at the State level in 1996 that specifically allows 
this amount of water to go out of the State through the year 
1999.
    Nineteen ninety nine is the year that NMFS is scheduled to 
make some type of major decision with regard to the system. Are 
they going to go to a drawdown or a breaching of the dam-type 
of system, or are they going to go with an enhanced 
transportation system?
    The long-term solution, as stated in the 1995 Biological 
Opinion, is not to include flow augmentation. Flow augmentation 
has been framed as a temporary solution to the problem--a 
stopgap measure to get us by. And it is perhaps worth noting 
that if you read the Biological Opinion, and maybe this is 
where some of the frustration comes from today, the period 
between 1995 and 1999 is meant only as a period in which to 
avoid extinction of the salmon.
    It is not supposed to be that way, but they decided that 
they need to run an adaptive management program, an experiment 
to see which process, neither of which is really being 
implemented right now, is better to save the salmon sometime 
after 1999.
    Somehow, the fact that flow augmentation should be a 
temporary solution is being lost in the mix. Last year, several 
environmental groups, joined by the State of Oregon and some of 
the tribes, sued NMFS and other Federal agencies in a case 
entitled American Rivers v. NMFS.
    And the gist of the concern was that the flow targets at 
Lower Granite and other places on the Snake and Columbia Rivers 
are mandatory targets which must be met each and every day of 
the season. There was also a concern that NMFS had not and the 
Bureau had not consulted on Upper Snake River project 
operations; that is, those dams that are above the Lower Snake 
River.
    The Judge, in an April 3 opinion, rejected all claims and 
decided that, ``no,'' these flow targets are not something that 
need to be met every day. The way NMFS and the region are 
trying to manage the process is that when the fish are there 
and the water is available, then we will go ahead and use it. 
They aren't firm targets.
    Despite this resounding victory, and I think everyone at 
the time regarded it as a victory for NMFS, NMFS and the Bureau 
have nonetheless decided to give the environmentalists and the 
other parties involved exactly what they asked for. One of the 
things they asked for was consultation on the projects in the 
Upper Snake. We are, frankly, baffled at this prospect.
    Why? I think with regard to one of the issues that we we're 
talking about this morning, why did NMFS decide that they want 
to barge more fish and not have more fish in the river? The 
reason for that as I understood it, one of their arguments--an 
easy one to lean on--was, ``Well, the Biological Opinion says 
we are doing an experiment. We need to share the risk. It needs 
to be 50/50 so we can have an accurate experiment and decide 
which one to go with.'' Whether that is a good decision or not, 
they decided to rely on the Biological Opinion.
    In the Biological Opinion, it also says, ``Bureau of 
Reclamation, if you and in cooperation with the State of Idaho 
and irrigators can provide 427,000 acre-feet through the year 
1999, you are not going to have to consult on Upper Snake 
operations. If you can't do that, if you can't get significant 
progress on that, then you will have to consult.''
    So what has happened? We have had significant progress on 
securing that water. It has been provided every year of this 
Biological Opinion. And all of a sudden now NMFS and the Bureau 
decide we need to consult on those Upper Snake projects anyway. 
We don't know what the rationale for that is, frankly, other 
than perhaps politics.
    Our very clear message for NMFS and the Bureau today is 
that this consultation process cannot and should not be used as 
a vehicle to increase the 427,000 acre-foot requirement. We 
have been assured at certain levels that this will not happen, 
that what goes in the front door of the consultation will come 
out the back door, but we are still skeptical.
    Rather, the consultation should confirm that operation of 
the Upper Snake River basin reservoirs does not adversely 
impact the salmon. The problems exist, as has been noted here 
today, downstream and in the ocean and should be addressed at 
the source.
    In addition, the NMFS/Bureau consultations should not 
remove the requirements in the 1995 Biological Opinion that 
water be acquired only from willing sellers and only in 
accordance with State law. Flow augmentation is a temporary 
solution. We ask for congressional oversight on that issue.
    I have also detailed in the testimony, which I won't go 
over, some concerns about the downstream recovery concerns and 
also about the expanding role of NMFS. But the last comment I 
would like to make is with regard to this decisionmaking 
process. There has been a lot written and said about having a 
regional forum.
    And we would like to point the Subcommittee, certainly Mr. 
Crapo, to an example of what is going on in the Upper Colorado 
basin. There effectively what the agency--in that case, the 
U.S. Fish and Wildlife Service--has done is stepped back away 
from the process, allowed the other players--the States, et 
cetera--to go forward with the process and stay as much as 
possible out of the way. And, in our opinion, that is what 
needs to happen in the Northwest. The States need to be allowed 
to take the lead and decide on what the proper regional forum 
should be. Thank you.
    [Statement of Mr. Semanko may be found at end of hearing.]
    [Disclosure requirement may be found at end of hearing.]
    Mr. Crapo. Thank you, Mr. Semanko. And I believe that this 
is probably the time I am going to have to slip out and go 
vote. Perhaps Mr. Abercrombie and Chairman Saxton will be able 
to get back for the questioning period. And regardless of 
whether they do or do not, I think you could tell from their 
questions earlier they are very interested in this issue.
    And they and their staff are going to review the testimony 
very carefully. And I am confident that this Committee is going 
to pay very careful and close attention to what it can do to 
help find a solution here.
    I apologize for the disjointed manner in which we have had 
to run the Committee today. But if you will please excuse me to 
run and vote, I will get back as soon as I can. And I do have 
some very important questions to ask so I would encourage you 
to all stay here. I slipped out during the last vote and got a 
candy bar and a pop. Feel free to do that. You have got time.
    I know that we have held you now till well into or maybe 
past your lunch hour and will probably go a little longer. So 
why don't you take this break as an opportunity to get a little 
bit of something to eat if you can, but please try to be back 
in about 10 or 15 minutes at the most. Thank you.
    [Recess.]
    Mr. Crapo. I think we will go ahead and get started even 
though I got back faster than I thought I would, and Mr. 
Semanko has followed my advice and slipped out for a minute. 
And, Mr. Rohleder, I will start out with you just in case you 
do have to slip out to an airplane or anything. And the first 
question I have for you is what impact does the steelhead and 
salmon fishing contribute to the region's financial base?
    Mr. Rohleder. Mr. Chairman, our best guesstimate is that 
the sport salmon and steelhead fishing in Oregon, Washington, 
and Idaho contributes about $3 billion in economic impact every 
year. My testimony includes a fact sheet on economic impacts. 
It is near the end of the package.
    Mr. Crapo. OK. Is that the one with the charts in it?
    Mr. Rohleder. Yes, sir, that is correct.
    Mr. Crapo. Now, do these charts include any kind of 
assumptions, or is this based on the current circumstances, or 
does this include assumptions with regard to having a fully 
recovered stock of salmon and steelhead?
    Mr. Rohleder. These are based on fully recovered stocks. We 
figure that we have lost half of our economic input because of 
the lack of recovery in the Pacific Northwest.
    Mr. Crapo. So currently we are at about half of these 
figures in terms of what is happening today?
    Mr. Rohleder. Yes, Mr. Chairman, that is correct.
    Mr. Crapo. OK. And, Mr. Grace, what are your 
recommendations to improve the communication process between 
the Northwest Power Planning Council and the National Marine 
Fisheries Service? Do you have some recommendations on what 
could be done?
    Mr. Grace. Mr. Chairman, at this time, probably I don't 
have specific--as a member of the State of Montana and the 
Governor's Office, we are willing to go anyplace where we have 
assurance that there is a fair balanced sort of structured 
process that everybody can be heard in. And there need to be 
rules for participation and rules for dispute resolution.
    Our Governor also believes that the Northwest Power 
Planning Council with some adjustment may be a better body as a 
forum for the region. However, as far as the Power Planning 
Council dealing with National Marine Fisheries, we have had 
limited success there. We don't really have any current 
communications going on along that line.
    Mr. Crapo. And I realize that you probably don't have 
authority to answer this on behalf of the State of Montana, but 
just in your personal opinion, what do you think it would take 
for the State of Montana to get back involved in the process or 
a process?
    Mr. Grace. Oh, I think I can speak for the Governor there, 
and that would be the assurance that you had a fair opportunity 
to be heard. Frankly, I was the one that asked or told the 
Governor that I thought that the process the National Marine 
Fisheries had and the Executive Committee was flawed, that it 
was, in my words, akin to playing in the house poker game or 
the house cut to deal the cards and then make the rules after 
the deal. It just wasn't a fair process.
    Mr. Crapo. In terms of this concept of a regional 
decisionmaking process, you alluded to a dispute resolution 
process or something like that. Do you agree with me that the 
decisionmaking authority for this issue or this group of issues 
should be one in which the ultimate authority to make the 
decision is vested in a regional body or a regional group of 
some sort rather than in a Federal agency?
    Mr. Grace. I certainly do because I guess our bottom line 
is that the National Marine Fisheries under the ESA have a very 
narrow approach to the problems of the region--I mean, by 
mandate the ESA. And although those--and there need to be a 
broader look across the region. Again, we think that we should 
be looking at the total fish and wildlife community when we 
make the decisions to----
    Mr. Crapo. Even though the total fish and wildlife 
community may not include all endangered species----
    Mr. Grace. Right.
    Mr. Crapo. In other words, all the species involved in that 
look may not be endangered or----
    Mr. Grace. That is right.
    Mr. Crapo. [continuing] threatened. Do you believe that 
that would require an adjustment to the Endangered Species Act 
or at least some type of a special authorization for this 
regional decisionmaking body to operate under different rules 
or to adjust its evaluations in some way that it is not allowed 
now by the Endangered Species Act?
    Mr. Grace. I believe so, sir.
    Mr. Crapo. Do you believe that Federal agencies should be 
participants in such a project or such a body, or should they 
be the implementors of the decisions that are made by that 
body?
    Mr. Grace. In my own personal experience, sir, I think they 
should have some--they should be in that process, but they 
should be co-managers, not, as they were referred to earlier in 
the questioning, as czars of the region.
    Mr. Crapo. OK. And one last question. There seems to be a 
significant amount of concern--on this topic--there seems to be 
a significant amount of concern about whether if we move to a 
regional decisionmaking authority whether that authority should 
be made up solely of sovereigns--for example, the Federal 
Government entity or entities, State governments, tribal 
governments, and so forth--or whether it should be broader and 
should include interest groups such as salmon advocates, 
transportation concerns, irrigators, and so forth.
    Do you have an opinion on what the makeup--and I am not 
asking you for details necessarily, I am more talking concept 
here--but how should the makeup of this decisionmaking body be 
approached?
    Mr. Grace. In my mind, sir, I believe that we still have to 
deal with the three sovereigns that otherwise we would get too 
unwieldy. I know in the State of Montana we do our utmost to 
represent the other interests as far as the environmental 
commercial interests that otherwise I don't know how we could 
bring it to bear.
    Mr. Crapo. Mr. Rohleder and Mr. Hayes from the--I kind of 
put both of you in the camp of salmon advocates or steelhead 
advocates. Could you respond to the same question, the question 
being if we move to a decisionmaking body of some sort in the 
region, should that body include only sovereigns and then we 
expect the sovereigns will represent the various interests of 
the region? Or should that body be broader and include interest 
advocates such as your groups or transportation advocates or 
irrigators or miners and so forth?
    Mr. Rohleder. Mr. Chairman, it has been my experience 
working with these situations that you can't have every special 
interest group represented on the governing body. You are 
always going to have somebody who is not represented. So if you 
had this govern-

ing body be the sovereigns, then they would have the 
responsibility to represent and to interface with the special 
interest groups.
    In other words, we, the environmentalists, the 
sportfishermen, the irrigators, the farmers would work together 
with our elected representatives to shall you say lobby or 
input our States, and then our States would be expected to 
represent our views. And I agree with Mr. Grace. I think that 
anything else would be unwieldy.
    I personally feel pretty good about working with the 
farmers and the irrigators on several task forces that I have 
been appointed to by the Oregon Governor. And then we present 
our findings or our views to a State body, and then they 
legislate. Thank you.
    Mr. Crapo. Thank you. Mr. Hayes? And I am going to ask the 
same question to Mr. Deurloo and Mr. Semanko as well but, Mr. 
Hayes?
    Mr. Hayes. I think it is safe to say that I would agree 
with everything that Joe said but maybe highlight a little bit 
more the need for, you know, some below the decisionmaking 
level but, you know, some organized meetings or participatory 
bodies where interest groups can have a say.
    And then there needs to be some assurances that their say 
will be translated into something that moves up the chain, not 
that they will just, you know, stand up in a room and shout 
into open space that, you know, ``We think salmon need to be 
considered. Thank you very much,'' and then that message never 
gets conveyed up the chain.
    Mr. Crapo. So you are talking about something more than--I 
think our current system where you have a public hearing and 
you come in and each side says what they want to say and hopes 
the press reports it--you are looking for something more than 
that?
    Mr. Hayes. Yes. That is a nice forum to sort of air your 
views, but it has absolutely no impact on policy, in my 
opinion. You know, I can say whatever I want there, and I can 
write whatever comments I want to an impact statement, and they 
are virtually meaningless beyond, you know, taking up my time.
    Mr. Crapo. All right. Thank you. Mr. Semanko, do you have 
any thoughts on that?
    Mr. Semanko. In fact, I do. One of our concerns is that 
NMFS just simply doesn't get down to the citizen level, and 
States and the tribes are able to do that. We do believe that 
irrigators and environmental groups should be involved in the 
process. But in the decisionmaking, that has got to be done by 
the sovereigns.
    I mean, the goal of this thing I hope will be to reach 
consensus among all of the sovereigns. If you try to reach 
consensus among all the constituencies of those various 
sovereigns, you are never going to do that. But you may be able 
to appease most of those so that you as a sovereign feel 
comfortable in going and agreeing to something, and I think 
that that is the best that we can do. And each State or each 
sovereign should be left to figure out how to do that.
    An example, what is going on with TMT right now, as I 
understand it, they are trying to make some decision on the 
timing of the 427,000 acre-feet from Idaho. If I wouldn't go on 
the Internet and look and see the minutes from the last couple 
of meetings, I would have no idea about that. So I am confident 
that the State of Idaho would bring us into that process more 
fully--just that as an example.
    Mr. Crapo. Thank you. Mr. Deurloo, do you have anything to 
add to that?
    Mr. Deurloo. I would echo what these people said. I think a 
group of special interests would be pretty unwieldy, and we 
would trust someone like the Governor's Office to represent our 
interests in the council.
    Mr. Crapo. All right. Thank you. Mr. Deurloo, let me go to 
you next with regard to Napias Creek, and let me first by way 
of introduction and clarification to the other people who are 
here in the hearing room indicate that I have been to the 
location and have observed it and have contacted NMFS directly 
about the issue.
    But if I understand your testimony correctly, and if I 
understand what I observed there correctly, there is no 
evidence that salmon ever have been able to pass the falls at 
is it Napias Falls?
    Mr. Deurloo. Yes, it is Napias Falls and that is correct. 
We know of no evidence that there have ever been salmon or 
steelhead above those falls.
    Mr. Crapo. And you referred to a tree there. If it is the 
one I remember, I have actually stood right at the base of that 
tree, and there is a rock around--I guess it grew up through 
the rock. Is that correct?
    Mr. Deurloo. Yes. Its roots are wrapped around the rock, 
and, you know, National Marine Fisheries--one of their points 
was that these rocks could have been placed there by roadmaking 
activities in the 1860's, and, you know, this tree was there 
long before the road was in place.
    Mr. Crapo. So you can date the life of the tree?
    Mr. Deurloo. We have. We have corded the rings.
    Mr. Crapo. And by that you can tell that the rock was there 
at some time before the tree was there. Is that correct?
    Mr. Deurloo. Correct.
    Mr. Crapo. And the tree has been there how many years?
    Mr. Deurloo. Over 200 years.
    Mr. Crapo. OK. So if there was a road--if man did create 
this falls, which is I think quite a stretch from what I have 
seen at the location, he did it more than 200 years ago?
    Mr. Deurloo. Correct.
    Mr. Crapo. And yet you were being asked by NMFS to prove 
that some humans didn't create this falls after 1860?
    Mr. Deurloo. That is right. The falls were not negatively 
influenced by man's activities ever.
    Mr. Crapo. Again, I have already asked you this, but I want 
to be very clear about this. There is no evidence on which NMFS 
relies to require you to prove--in other words, to suggest that 
there were salmon above this falls at anytime. It is just that 
you are being asked to prove that they weren't?
    Mr. Deurloo. Yes. We are being asked to prove the negative. 
They say that there is the possibility it may have happened 
once, and now it is up to us to prove otherwise.
    Mr. Crapo. Now, wouldn't you believe that--I mean, first of 
all, if I was told that, I would think that an agency was being 
flippant with me because it would seem to me that they were 
asking me to prove the impossible?
    Mr. Deurloo. That is our feeling.
    Mr. Crapo. Except then you come up with a tree that is 200 
years old that proves that the rock that the tree is growing 
through was there at least 200 years ago, and that that is one 
of the rocks that supposedly through some theory man put there. 
And it seems to me that that is evidence--I wouldn't have 
thought you could have come up with any evidence, but it seems 
to me that that is pretty good evidence.
    Mr. Deurloo. But in defense of NMFS, I think they bought 
off that maybe the falls were natural, but then we are put in 
the position of, ``Well, now prove that the salmon can't get up 
there.'' And there is no evidence as to what exactly a salmon 
can do.
    I mean, will it jump 30 feet or jump 10 feet, or, you know, 
how fast the water--scientifically, salmon is not well-defined. 
So we do all the measurement of the water and the falls and the 
grading and everything else, but then we are told, ``Well, you 
would just be amazed at what these salmon can do.''
    Mr. Crapo. Well, I remember we discussed that when I was at 
the location, and I remember walking up the falls area and 
looking at areas where perhaps the salmon could make it. And I 
saw a few pools that you could by a stretch believe that a 
salmon could somehow get from one to the other.
    But it seems to me there were a couple of them, like two or 
three or four in different locations, where you would have had 
to assume the salmon could literally leap out of the air very 
significant distances in order to make it. Is that not correct?
    Mr. Deurloo. Right. There is at least an 11-foot jump at 
the head of the falls, but the thing is there is really no pool 
at the bottom of that to get a run to make the jump. I mean, a 
salmon probably can jump that kind of height where they can get 
a run at it, but here there is just not that opportunity.
    Mr. Crapo. So, in other words, you are being asked--and I 
assume that the impact of this decision is not minor or you 
wouldn't be worrying about it so much?
    Mr. Deurloo. That is right. I mean, everything we do is 
totally regulated. We have found some possible additional 
reserves that will extend the life of the mine 2 years, which 
will require additional permitting. But we don't know whether 
the hassles will be worth it.
    Mr. Crapo. And so you are being asked to incur significant 
economic as well as other practical burdens where there is no 
evidence that salmon ever existed above this falls and where it 
is only a stretch to assume that a salmon could make it up the 
falls?
    Mr. Deurloo. That is correct. But, you know, I don't know 
how we were put into this position to begin with. And the 
critical habitat is not supposed to be designated in areas that 
aren't currently occupied by the species. And there are clearly 
no salmon there.
    Mr. Crapo. So the next point is--probably the first point 
that should be made is that the very standard you are being 
asked to meet is one that is not authorized by the regulations?
    Mr. Deurloo. That is correct.
    Mr. Crapo. Now, on the timeliness, I recall that the 
request that you had of me was simply to encourage the agency 
to respond to you. Is that not correct?
    Mr. Deurloo. That is right. I mean, we were ready to start 
construction in 1994. We were ready to go, and you just have a 
narrow window of opportunity up there in the mountains of Idaho 
to do dirtwork in the middle of the summer. And this decision 
just kept dragging out and dragging out and dragging out, and 
finally we pulled all the strings we knew to pull just to get a 
decision.
    Mr. Crapo. If I remember correctly, one of the--I won't use 
the word threats, but one of the statements that was made to 
you was that if you wanted them to go back and look at this, 
they would have to reopen the entire Biological Opinion. Is 
that correct?
    Mr. Deurloo. We hear that statement quite a bit.
    Mr. Crapo. Does that dampen your interest in taking strong 
contentions with the agency?
    Mr. Deurloo. Well, we do have to deal with National Marine 
Fisheries for the life of the mine, and we would rather it be a 
harmonious relationship rather than a contentious one.
    Mr. Crapo. All right. Thank you. Let me go on, Mr. Hayes, 
to you for just a moment. As a representative of the 
environmental organization that you represent, were you 
supportive of the Idaho I guess I call it policy that was put 
together last year that we had discussed earlier in the 
hearing? Was your organization supportive of that policy?
    Mr. Hayes. Yes, sir. You know, the Governor's plan was not 
the end-all, be-all, and there were things that we would have 
liked to have seen incorporated into it and, frankly, some 
things that we would have liked to have seen not in it. But we 
took the document as a whole.
    You know, we agreed to the concept of moving forward on 
this issue. We have seen NMFS and the Corps of Engineers drag 
their feet for too long and make no progress and maybe even 
move backward on this issue. We are very appreciative of 
efforts by the Governor's Office and others in the State to, 
you know, take the bull by the horns and come to a conclusion, 
that we think that they did an excellent job of rounding up all 
the interest groups in the State and really many of them in the 
region and incorporating their input into the plan.
    And it would be nice to see this sort of cooperative 
working relationship that they have developed used as a model 
by the National Marine Fisheries Service or, frankly, some 
other, you know, administration or agency moving forward with 
this. We need to, you know, get moving.
    The thrust of my testimony was that there is absolutely no 
leadership at the National Marine Fisheries Service on this 
issue. And I think that while the members of the various panels 
may disagree as to exactly what needs to be done, we can all 
agree that the National Marine Fisheries Service is not doing 
any of it.
    And I did or our organization did support the Governor's 
plan in many components, and we were with him in spirit at the 
Executive Committee meeting arguing for it. And we were working 
with the other sovereigns in the region to try and get that 
passed.
    Mr. Crapo. And I take it that that is one of the reason why 
you would feel comfortable in your answer to my earlier 
question in saying that you feel that your interests could be 
adequately represented through the State sovereign in a 
decisionmaking body?
    Mr. Hayes. You know, we need to be careful that we feel 
that our interests are, in fact, being represented, but I think 
that, you know, the imperative is there that we need to move 
forward on this issue, and that if every interest group has a 
voting seat at the table, this issue will not move forward.
    Mr. Crapo. I see kind of a difficult but interesting issue 
to address here. If we determine that we need to move to a 
regional decisionmaking body, the question I asked earlier 
about whether that should be sovereigns only who make the final 
decision, certainly moving that direction solves the problem of 
complexity and of deciding how many interest groups get to be 
at the table and getting the table too large and all of those 
concerns.
    On the other hand, I think that there are interest groups 
who are currently raising strong concerns about that model 
because they are saying that there is no assurance that their 
point of view will be represented by the sovereign. An 
example--and I am not going to refer this example to any 
current politician, but some people would not trust one 
Governor to represent their interests as opposed to a different 
Governor depending on how the outcome of an election were.
    And so I am struggling in my own mind with the way to try 
to make sure that people are confident that their point of view 
will be represented at the table by an advocate or at least 
that their point of view will be worked into the process in a 
way that is much more than just an opportunity to go to a 
hearing and submit some testimony but not get the project too 
complex.
    Mr. Hayes. May I jump in here?
    Mr. Crapo. Yes, please.
    Mr. Hayes. That is a very valid concern and one that I 
share and that many of the organizations that I represent here 
today share. I think that as long as the process moves forward 
grounded in science with the ultimate goal of recovering these 
species to self-sustaining harvestable levels, you know, that 
is a pretty good road to be driving down. You may wobble back 
and forth on each side and get on the shoulder a little bit, 
but as long as we are moving forwards utilizing the best 
available science, you know, there are sidebars in place.
    Not everyone is going to get everything that they want. My 
organization wants to see sustainable harvestable populations 
of salmon that is mandated under Federal law, State law, and 
treaties with other nations and Indian tribes. And I think 
those are pretty good sideboards. I hope that the fish won't 
get lost in the forest on this one.
    Mr. Crapo. I understand that concern. Let me move to you, 
Mr. Semanko, and I want to talk water. That doesn't surprise 
you. As I said earlier, I am very concerned that the policy 
direction that the National Marine Fisheries Service is taking 
on salmon recovery issues represents an immediate and a long-
term threat to irrigation, commercial, and residential water 
users, and to the entire regional economy and does not 
represent much of a gain, if anything, and maybe even a 
negative gain for salmon and steelhead. And it is also an 
immediate and long-term threat to State water sovereignty. And 
I am not just referring to the State of Idaho in these 
comments. First of all, do you agree with me on that?
    Mr. Semanko. I do agree with you on that. There is an 
immediate threat through the current consultation that is going 
on, and there is an underlying threat with the fact that NMFS 
seems to suggest that they are giving us a concession by 
saying, ``We will acquire water under State law only because we 
say we want to do that. If we didn't say we wanted to do that, 
we could go ahead and just take it.'' There is that underlying 
long term and short-term concern.
    Mr. Crapo. Has NMFS ever put into writing any kind of a 
statement, to your knowledge, as to what authority it has or 
does not have with regard to taking water for purposes of 
salmon and steelhead recovery?
    Mr. Semanko. Yes. Mr. Chairman, during 1993 I believe it 
was, the Regional Director for the Bureau of Reclamation, John 
Keys, asked the Solicitor's Office for an opinion on what his 
authority would be to acquire water for salmon, whatever amount 
that would be.
    And of the several responses--several alternatives that 
went back to Mr. Keys in the response was the alternative to 
release water held under contract. In other words, water that 
is held in Federal reservoirs that irrigators have contracted 
and paid for could be released. It doesn't even go on to state 
whether compensation would need to be paid or not. So that has 
been put in writing. It is often referred to as the 1993 
Solicitor's Opinion.
    And I would be remiss if I didn't say after that opinion 
came out, there was an uproar, and some meetings between the 
congressional delegation and NMFS and others resulted in the 
appeasement in the current Biological Opinion that it would be 
acquired only under State law and from willing sellers.
    Mr. Crapo. That is correct. I was in those meetings between 
our congressional delegation and various Federal officials, and 
you are correct. They did make the verbal assurances that they 
would not exercise the authority that the Solicitor's Opinion 
declared that they had. And, therefore, supposedly there was no 
problem. The problem I see is that that is only a verbal 
assurance for this Biological Opinion, and even that could be 
changed. Am I correct about that?
    Mr. Semanko. I think you are right, although it is in 
writing in the Biological Opinion that the water will be 
acquired under State law from willing sellers and is one of the 
reasons why we are concerned about the current consultation.
    Mr. Crapo. Well, I can tell you from being in the meeting 
that my understanding of what was said in the meeting was that 
although assurances were made by the various Federal officials 
that they would seek to acquire water only on a willing buyer/
willing seller basis under this Biological Opinion. I don't 
believe that there was any relinquishment of authority to take 
water if that decision were to be changed.
    And given that context, I am referring now to a letter of 
May 19 from Will Stelle, the Regional Administrator of NMFS, to 
Elizabeth Ann Moler, the Chairman of the Federal Energy 
Regulatory Commission. Are you familiar with that letter?
    Mr. Semanko. Yes, I am.
    Mr. Crapo. Without objection, I would place this letter 
into the record.
    [Letter of Mr. Stelle may be found at end of hearing.]
    Mr. Crapo. I am going to refer to the second paragraph on 
the second page, and I am not going to read it all. But parts 
of it state that, ``The effectiveness of the efforts to protect 
operations seeking to achieve the Biological Opinion in 
riverflow objectives is dependent on water diversion activities 
in the Middle and Upper Snake River basin and upon the 
operation of the Hells Canyon Project situated in between.''
    And then a little further down, ``Specifically, the 
Biological Opinion adopted the council's requirement for 
immediate provision of 427,000 acre-feet and progress on 
securing additional water from the Middle and Upper Snake River 
and specific drafting levels for Brownlee reservoir of the 
Hells Canyon complex in May, July, August, and September.''
    What I am getting at here is it seems to me that this 
letter, which is a very recent letter, very specifically opens 
the door, if not openly states, that the National Marine 
Fisheries Service is evaluating seeking additional water from 
the Middle and Upper Snake River regions beyond the 427,000 
acre-feet that we have been dealing with in the past. Do you 
read the letter the same way?
    Mr. Semanko. I do, Mr. Chairman. An overall concern about 
this letter is that it is a letter from NMFS to FERC telling 
FERC that they strongly suggest that they, FERC, begin 
consultation with NMFS. The overall concern there is that FERC 
is the one that should make that decision.
    Second of all, the first sentence of the paragraph, you are 
talking about effectiveness is dependent upon water diversion 
activities in the Middle and Upper Snake River basin. To us, 
that is signal language. That is a signal to a recently 
completed study by the Bureau of Reclamation called the 
Cumulative Effects Study.
    And in the Cumulative Effects Study, basically what NMFS 
and the Bureau are saying is that but for irrigation 
diversions, we would meet the flow targets at Lower Granite 
almost every summer. The concern there is twofold; one, the 
validity or nonvalidity of flow targets; and then, second, how 
they are interpreting that ``but for irrigation diversions.''
    What they are saying is if you had no impoundments, you had 
no storage reservoirs in the Upper Snake at all and no 
irrigation at all, the effects--the flows would be about the 
same as they are now. But if you take those reservoirs that 
have been built and you change their function from irrigation 
and flood control to helping the salmon--in other words, send 
all the water down--then you can meet the flow targets in the 
summer. Now, if that is their interpretation of how we are 
impacting the Snake River salmon, then we become very 
concerned.
    Mr. Crapo. Assuming that you are correct, and that is the 
way I read it as well, have you heard estimates of how much 
additional water may be sought for those purposes?
    Mr. Semanko. We have heard none. There are numbers to look 
at for guidance, but we have heard none.
    Mr. Crapo. Have any groups made claim or suggestion in 
either litigation or in notices of intent to sue or in 
negotiations of the amounts of water that they would like to 
see from the Upper Snake River?
    Mr. Semanko. There are certainly a lot of numbers to look 
at. The Northwest Power Planning Council's plan that was 
adopted in December 1994 looks for 1.427 million acre-feet from 
the Upper Snake.
    Mr. Crapo. One point four two seven.
    Mr. Semanko. One point four--it would be a million acre-
feet more than what currently comes from the Upper Snake.
    Mr. Crapo. Essentially, a million and a half or close to a 
million and a half?
    Mr. Semanko. The tribal plan and also the tribes' position 
in the American Rivers would suggest that they are looking at a 
number even bigger than that. And I will caveat that with, of 
course, their position is that the dams would be breached, and 
perhaps that would reduce the reliance on water. But as long as 
those dams are there, then perhaps that water will be needed. 
So I don't want to say they are looking for that water under 
all conditions, but certainly that----
    Mr. Crapo. As an alternate position in the litigation?
    Mr. Semanko. That is correct. But with the way the system 
is configured right now, I think that is their position, which 
leads me to a side issue. I want to point out because of the 
attention that the Idaho Stateman's 3-day editorial is going to 
receive in our State, and that is that one of the 
justifications that the Idaho Statesman puts forth for 
supporting the breaching of the Lower Snake dams--and we don't 
have a position one way or the other on that--but the 
justification--one of them is that that will relieve the 
pressure for Upper Snake water, that no Upper Snake water will 
be required. And where they got that assurance we would like to 
know. We have never heard a decoupling of those two, that if 
you breach the dams, there would be no more requirement for 
Upper Snake water.
    Our concern is that if you do that and you begin to rely on 
velocity, what happens in the low-flow years? You are going to 
need water to augment that flow anyway. And I am not saying 
there would be water required or that there wouldn't be, but we 
have never seen that meaningfully addressed.
    So if we are going to go into looking at that option, we 
would like to know the answer to that question. This was also a 
question that we asked about the Andrus drawdown plan. Is that 
going to require water? And that was never really meaningfully 
addressed.
    Mr. Crapo. Mr. Hayes, I don't know how closely you were 
paying attention to that answer there but----
    Mr. Hayes. Very closely--taking notes actually.
    Mr. Crapo. Do you have an opinion on that?
    Mr. Hayes. I share those concerns and view them all as 
valid. I think that, you know, I represent a coalition, and, as 
such, it is very difficult to speak for all parties. It is a 
little bit like hurting snakes or cats or whatever the saying 
is.
    But I think that historically we can look at the flow of 
the Snake River, and perhaps we can base--you know, if those 
dams were removed--I am not saying in their current 
configuration, but if those dams were breached, I think it 
would be appropriate to look at the historical flow patterns of 
the Snake to see what types of water we need to be talking 
about.
    And historically late summer or early fall has been 
relatively low-flow periods in that river system. Somehow the 
fish manage to survive for thousands of years in that 
environment. Of course, the dams weren't there. But if those 
dams were removed, it seems appropriate to once again go to a 
lower-flow environment.
    Mr. Crapo. I think you answered the question I asked or 
what I was seeking to get at, but I want to be sure. And so 
both Mr. Hayes and Mr. Semanko, I would like to ask you to 
respond to this. Recognizing that you, Mr. Semanko, just said 
you want to have some assurances on where this approach came 
about, whether moving to a more natural river would reduce the 
need for flows, and what I heard you just say, Mr. Hayes, is 
that you would tend to think that that would be generally 
correct?
    Mr. Hayes. It sounds very reasonable to me. I am 
unfortunate in the position that I cannot give you a definitive 
answer and speak for all the members of our coalition.
    Mr. Crapo. I guess you just answered what I was going to 
say then, Mr. Hayes. I just wanted to know, in general, if that 
is what you expected to be the general relationship; namely, 
that there would probably not need to be much or as much water 
for flow augmentation needed if there were some type of a 
natural river option pursued?
    Mr. Hayes. If the natural river option was undertaken, I, 
for one, would work like crazy to make sure that this issue was 
resolved appropriately.
    Mr. Crapo. And, Mr. Semanko, what I understood you just to 
say is that you want some real strong assurances of that, and I 
recognize that. Are you aware of any reason why we would expect 
for more flows to be needed if we moved to a more natural river 
option?
    Mr. Semanko. I am not aware of any, but I am also not a 
scientist or a technical expert. And I would like to flip the 
Biological Opinion over for a minute and say also if the long-
term decision in 1999 is to go with the enhanced transportation 
alternative, we would also like to know what justification 
there is for providing water or additional water for that 
scenario.
    And the question we would hope could be asked of NMFS at 
the next hearing is: ``In 1999 you are looking at two different 
options. How does either one of those require water from Idaho, 
and if it does, what amounts are we talking about?'' Because 
right now we are providing the 427,000 as part of a band-aid 
stopgap approach that in theory isn't going to be around after 
1999. So those are the kinds of questions we are struggling 
with.
    Mr. Crapo. Thank you. And, Mr. Semanko, back to you again 
on the water issues--could you excuse me 1 second? Let us just 
take the Power Planning Council numbers you gave me a minute 
ago that would essentially if pursued from 1994's figures would 
require another million acre-feet, if another million acre-feet 
on top of the 427,000 acre-feet that is already being provided 
were called for, what kind of an impact would that have on 
irrigated agriculture?
    Mr. Semanko. Well, first of all, the 427,000 acre-feet that 
is being provided is being provided for the most part because 
we have had good water years since the Biological Opinion was 
enacted. If that weren't the case and we had two dry years in a 
row, we would be having real problems. And a large chunk of 
that water comes from rental water that irrigators don't need; 
because of the conditions they are able to put it into the 
water bank.
    Mr. Crapo. So you are saying that just at the 427,000 acre-
foot level there is no major impact assuming normal water 
years?
    Mr. Semanko. That is true.
    Mr. Crapo. OK. Let us assume that. Let us assume normal 
water years. Then what would be the impact of an additional one 
million acre-feet?
    Mr. Semanko. Well, the only reliable estimate I have to go 
on is one that was put together by the Bureau of Reclamation. 
It is contained in a November 22, 1994, report of the Actions 
Work Group to NMFS as part of the aftermath of the 1993 
decision where Judge Marsh struck down the old Biological 
Opinion.
    And what the Bureau said was that in acquiring 1.427 
million acre-feet with any reasonable assurance, you would have 
to dry up somewhere in the neighborhood of the same number of 
acres--that is, 1.4 million acres--in the Upper Snake River 
basin.
    Mr. Crapo. And I don't know if you have this kind of 
information, but can you give me kind of a percentage or a 
comparison as to what that is with regard to the entire acreage 
being farmed in the basin?
    Mr. Semanko. I don't have those exact figures. My round 
math that is in my head tells me that there is about a million 
acres in Idaho that is irrigated from groundwater and about 
800,000 to 900,000 that is irrigated by surface irrigation. 
Now, there is also irrigation, of course, in eastern Oregon 
which is part of the Upper Snake basin. But those are the 
numbers that come to mind for me. There are approximately I 
believe 8 million acre-feet in the Federal storage system above 
Brownlee and about 4.1 million acre-feet above Milner.
    Mr. Crapo. Which could be used if another million acre-feet 
were called for?
    Mr. Semanko. I am sorry?
    Mr. Crapo. Well, let me get to it this way. If I understood 
you correctly, there is the possibility of 1.4 million acres of 
irrigated agriculture going out of production if 1.4 million 
acres of water were used. Did I understand that correctly?
    Mr. Semanko. If I am correct, those are the Bureau's 
numbers from that report I referred to. Yes.
    Mr. Crapo. Let us assume that it is not even that much. I 
mean, what I am hearing you saying is that hundreds of 
thousands of acres of irrigated farmland would have to be taken 
out of production in southeastern Idaho. Is that accurate?
    Mr. Semanko. And what the Bureau looked at is all the 
available water data that there is for the last 60 or 80 years 
or whatever it is. And if you are going to have that as a long 
term recovery mechanism and provide that each and every year 
for the next 24 years or 48 years or whatever the recovery 
period is, and you want a 95 percent reliability probability of 
that, then those are the numbers they threw out.
    There are millions of dollars that would be spent directly 
by the Federal Government to acquire that water. There would be 
even more millions of dollars of indirect effects on the farm 
economies, and yes, there would have to be irrigated acres 
dried up. In effect, the purposes of those projects would be 
shifted, at least in part, from irrigation to salmon recovery. 
So you would see a loss in irrigation.
    Mr. Crapo. All right. And let me ask you this. Given the 
current political climate--and not the political climate so 
much as the current circumstances that we face with regard to 
the decisionmaking process as it is moving along, do you expect 
that there will be a claim for or a request for more water from 
NMFS than the 427,000 acre-feet?
    Mr. Semanko. I am afraid that we do. This letter that you 
have referred to is starting to play a little bit loose with 
the current Biological Opinion, in my opinion. It states 
specifically the Biological Opinion calls for the immediate 
provision of 427,000 acre-feet and progress on securing 
additional water. What the Biological Opinion actually says is 
``427,000 acre-feet to be secured by 1998 and then an 
additional amount as may be necessary for recovery to be 
acquired after that.''
    Now, they are not saying ``as may be necessary for 
recovery.'' They are assuming that there needs to be more water 
acquired, and nobody is explaining to us, and maybe we will get 
this in the consultation, why that additional water is needed, 
especially in light of the fact that the Biological Opinion 
said, ``If you can provide the 427,000 through 1998, we are not 
going to require consultation.'' So we see that. We don't have 
any firm numbers. We don't have any firm conclusions out of 
NMFS or the Bureau at this point, but we are highly suspect 
because of what is going on.
    Mr. Crapo. Thank you. Mr. Hayes, there has been some 
discussion about encouraging NMFS to move its decisionmaking 
date from 1999 up to 1998. Can you tell me if your organization 
supports that?
    Mr. Hayes. Many of the organizations in our coalition do 
support that. We feel that a significant amount of money is 
currently being spent on projects that will be wasted if a 
decision is made in 1999 that is not in line with their current 
spending priorities. We would like to save that money that 
amounts to hundreds of millions of dollars of taxpayers' money.
    We would like to, you know, keep that in the pot for salmon 
recovery later on and not just throw it down the pipes. We also 
would like to see those decisions be made utilizing the best 
available science which NMFS currently is not doing even though 
some of their own scientists are urging them to do so.
    Mr. Crapo. All right. Thank you very much. Please excuse me 
for just 1 second. All right. Nobody has any more questions 
that they want to be sure I get into here. So I will conclude 
my questions. And again as I said earlier, although Mr. 
Abercrombie and Chairman Saxton have not been able to get back, 
each time we went out to vote we had some very interesting 
discussions. And they are very interested in this issue. I am 
sure they are going to review the record, and we are going to 
have some more discussions of all of the issues that we have 
raised here today.
    I think it is important to quickly summarize. At this 
hearing today, I think we have addressed a number of issues 
that I hope get a lot more public attention, the first being 
the question of how NMFS is operating in the Pacific Northwest 
and whether we are seeing the kind of cooperation and proper 
implementation of process to effectively resolve the myriad of 
issues that we face as we move toward salmon and steelhead 
recovery.
    The second being what type of a decisionmaking process 
really should we have? And we didn't get into it a lot in this 
hearing because it is not an exact jurisdiction of this 
Committee, but I think it is very interrelated to issues that 
go beyond salmon and steelhead and reach out to issues such as 
power production and the entire electric energy restructuring 
debate that is going on in other committees in this Congress.
    The third issue that I hope we have brought some 
significant public attention to is the question of water, State 
sovereignty, and the implications on the management, 
allocation, and use of water in the States as we proceed 
forward in the path that is apparently being pursued by the 
National Marine Fisheries Service, a path which I think I have 
already strongly indicated and others have indicated they do 
not believe is the correct path for the recovery of the salmon.
    So I believe we may be seeing a path pursued that is not 
designed to support or effectively recover or is not going to 
effectively recover salmon and steelhead but is headed toward 
very significant, negative impacts in the short term and the 
long term on water and other uses and allocations of water, 
including but not limited to irrigation.
    And I believe it is very critical that the region focus on 
that issue, as well as the power issues and the salmon and 
steelhead issues which then get wound back into the 
decisionmaking question as to how we should approach the 
management of the river.
    I appreciate the time and the attention that you witnesses 
and the others who testified here today have given. I know that 
the interruption in schedules that it requires to travel to 
Washington, DC, and to put together testimony before a 
Committee like this.
    I want to assure you that it is not only appreciated, but 
that it will be carefully reviewed and evaluated as this 
Committee evaluates what options it might pursue to bring 
proper resolution to these issues. And with that, unless there 
are any other--no other questions from members of the 
Committee, if there are any other issues, then this Committee 
will stand adjourned. Thank you.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]


FIELD HEARING ON REVIEWING THE AUTHORITY AND DECISION-MAKING PROCESSES 
      OF THE NATIONAL MARINE FISHERIES SERVICE NORTHWEST DIVISION

                              ----------                              


                        FRIDAY, AUGUST 15, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife, and Oceans, Committee 
            on Resources, Garden City, Idaho.
    The Subcommittee met, pursuant to notice, at 9:08 a.m., in 
the Garden City Council Chambers, 201 E.50th Street, Garden 
City, Idaho, Hon. Michael Crapo presiding.
    Member present: Representative Crapo.
    Ladies and gentlemen, we welcome you here this morning.
    The Subcommittee on Fisheries Conservation, Wildlife, and 
Oceans will come to order. The Subcommittee is meeting today to 
hear testimony on one of the most important issues in the 
Pacific Northwest, particularly related to the role of the 
National Marine Fisheries Service and other Federal and State 
agencies, as well as interested parties, in reaching resolution 
of the--I guess I would describe it as the overall issue of 
salmon and steelhead recovery and the related issues to water 
management that are posed by that aspect of the issue that is 
facing us here in the Pacific Northwest.
    Under Rule 4(g) of the Committee rules, any oral opening 
statements are limited to the Chairman and the Ranking Minority 
Member, neither of whom are present today, and so I will, as 
the designate of the Chairman of the Committee, make an opening 
statement. And I should indicate to you on his behalf--he told 
me that he truly wanted to be here but because this is the 
August recess and members have jam-packed schedules in their 
own districts primarily during the August recess, he asked if I 
would carry this hearing forward. And frankly, it was one that 
we asked him if he would allow us to hold in Idaho, rather than 
holding it in Washington, because we wanted to let people who 
could not make it to Washington have a better opportunity to 
testify. And with that understanding he agreed, recognizing 
that he may or may not be able to make it here, and ultimately 
was not able to do so.
    I do want to indicate on behalf of both the Chairman and 
the Ranking Member, Mr. Abercrombie, that as a result of the 
first hearing that we held on this issue in Washington, DC, 
both are extremely interested in this matter and we have had a 
lot of discussions outside that hearing afterward to evaluate 
the issue and I am confident that both the Chairman and the 
Ranking Member are going to be very interested in the record 
today as well as in the submission of written testimony that 
the witnesses have brought with them.
    I would like to make just a brief opening statement and 
then move forward quickly to the testimony. But before I do so, 
I would like to lay out a few ground rules for those who are 
going to be witnesses today and to tell you how the hearing 
will proceed.
    If you have seen a copy of the witness list, you will 
realize that this is a very full hearing, and we are, because 
of that, going to be extremely pressed for time. And I am one 
of the members who likes to ask a lot of questions, which is 
going to make an even more full hearing, and because of that, I 
believe that it is going to be very important that we adhere to 
the time limits.
    Each of the witnesses who has been invited to speak has 
been advised in advance that there will be a 5-minute time 
limit on the presentation of your oral testimony. Each of the 
witnesses also has been requested to provide written testimony. 
I will tell you that those who have already submitted it, I 
have already read your testimony and those who will submit it 
today or subsequent to this hearing, I will read your written 
testimony in its entirety.
    I believe that the other members of the Committee, 
particularly the Chairman and the Ranking Member are also going 
to be dedicated to that and will review this record very 
carefully.
    What I am getting at is I would like to ask you--we are 
going to have this system of lights here, which will be green 
for 4 minutes, then it will turn yellow for the last minute and 
then red when the time is up. When the red light comes on, I 
would ask you to please summarize your remarks. And if you are 
like me, your 5 minutes is going to go a lot faster than you 
thought it would, and you may not be done at that point in 
time. I would encourage you to recognize that I have read your 
written testimony, and to use the 5 minutes to summarize the 
succinct points that you would like to be sure are made. And as 
I said, when the red light comes on, so that we can move ahead 
expeditiously and have time for question and answer and 
interaction, would you please try to summarize your remarks as 
quickly as possible after the red light comes on.

 STATEMENT OF HON. MICHAEL CRAPO, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Crapo. I would just like to indicate at this point in 
time that, as I started to say at the beginning, this is a very 
critical issue for the entire Pacific Northwest, and a number 
of issues with regard to the decisionmaking process about how 
we deal with the critical issues of water, salmon and steelhead 
recovery and the system of dams on the Columbia and Snake River 
and their role in whatever recovery plans are put together, and 
the entire set of issues that we address is perhaps one of the 
most important issues facing us in this community, the Pacific 
Northwest, today.
    I have often said, in talking about this issue of electric 
energy restructuring, that it is probably the biggest issue we 
face, but that is because I believe that it must necessarily 
include as one of its elements resolving the issues of river 
governance that will include much more than simply how we 
govern the river with regard to power production. It will 
include how we govern the river with re-

gard to all of the traditional uses of the river, including 
irrigation, power production, flood control, recreation, fish 
and wildlife, and in particular as the focus of this hearing, 
the tremendously important issue of restoring the salmon and 
the steelhead runs, and transportation. The list just goes on 
and on in terms of how we--what we expect in the Pacific 
Northwest from the water, the Snake and the Columbia River 
system in which we live.
    As a result of that, I think the issues we will discuss 
today are going to have an impact on the lives of people in the 
Pacific Northwest in multiple ways and that is one of the 
reasons why I have asked our Subcommittee to make this an issue 
of primary focus, and I was very glad to see the attention that 
our Chairman and our Ranking Member, Mr. Abercrombie, gave to 
this issue when we held our first hearing in Washington, DC. 
They are both very adept and well-informed on these issues in 
general, and were very quick on the uptake in terms of the 
issues that we presented specifically from the Pacific 
Northwest. I am pleased that they have agreed to give such an 
important focus on the issues that are so critical to us in the 
Pacific Northwest.
    With that, I will tell you that we have had a bit of a 
change in the schedule and we are going to add an additional 
panel at the very beginning. So everybody who thinks that they 
are on a certain panel, you are on the next one.
    So panel No. 1 will now be--and do I pronounce this Mr. 
Eluid Martinez? Did I get it right?
    Mr. Martinez. That is right.
    Mr. Crapo. The Commissioner of the Bureau of Reclamation 
from the Department of Interior and he is accompanied by Mr. 
Ken Pedde, his Assistant Regional Director.
    They will be panel No. 1. Everybody else will be one panel 
higher than you thought you were on, except that--I had better 
make a couple of other corrections to get this correct--Dr. 
Casavant from the Northwest Power Planning Council, you will be 
on panel three instead of what would have been panel four. And 
for those who are here, I should also advise you that Mr. Jay 
Nelson, the Special Assistant from the Commissioner's Office of 
the Alaska Department of Fish and Game will not be able to make 
it to today's hearing. He has submitted written testimony.
    And then one final announcement and then we will get on 
with the business of the hearing. Because we were successful in 
getting the Chairman to agree to hold this hearing in the 
Pacific Northwest, we have had a tremendous amount of interest 
and requests from people who would liked to have testified. You 
can see that we tried to accommodate that with the numerous 
panels and the extensive--and the size of the panels. We 
believe we accommodated most of the people in terms of at least 
allowing someone from their point of view an opportunity to 
testify, but there may be those here who still were not allowed 
to be on any of these panels and who would like to say 
something. In that regard, the rules of our Subcommittee and 
our Committee do not allow us to put your testimony into the 
written record of this hearing unless you submit it in written 
format. I will rely on my counsel support here, if those who 
are here who were not allowed to testify would like to submit 
written testimony, the record will be open for 30 days for you 
to do that.
    In addition, as an accommodation for those who still made 
it here, even though they were not given the opportunity to 
testify, after the hearing has concluded, we will allow for 1 
minute for anyone who would like to say something who was not 
allowed to testify. That 1 minute statement will not be a part 
of the permanent record. Because of the rules of the House, we 
can only put on the permanent record the formally invited 
witnesses. So if you would like to say something for 1 minute 
for the edification of those here, we will allow that and we 
will try to keep that to a strict time limit because we will 
have some pretty significant time constraints today.
    And again, if you would like to have your written statement 
a part of the formal record, you will be allowed to do that if 
you submit it within the next 30 days.
    So, with that, Mr. Martinez, would you like to proceed?

     STATEMENT OF ELUID MARTINEZ, COMMISSIONER, BUREAU OF 
  RECLAMATION, DEPARTMENT OF THE INTERIOR ACCOMPANIED BY KEN 
   PEDDE, ASSISTANT REGIONAL DIRECTOR, BUREAU OF RECLAMATION

    Mr. Martinez. Good morning. Thank you for accommodating my 
schedule this morning. I appreciate the opportunity to be here 
today for a couple of reasons, one is to present some 
testimony. I have got some written testimony for the record, so 
I will not go into that specifically. But the other reason is 
to provide me the opportunity to be here with you today and 
within the time I have available before I catch a flight, to 
listen to the issues and the concerns of the community and the 
folks involved in this important issue.
    As you might or might not know, I was a State engineer for 
the State of New Mexico before I went back to Washington as 
Commissioner of Reclamation. And in the American Southwest, we 
do not have salmon or steelhead, but we do have squawfish and 
blunt nose shiners and silvery minnows, endangered species, 
that are impacting the way rivers are managed and how people 
have exercised their rights to water resources in the past and 
how they will exercise those rights in the future.
    What I find surprising is, notwithstanding the fact that if 
you have a stream system that is lacking water or one that has 
what people perceive to have a lot of water, these issues are 
impacting the ability to divert water and utilize water the way 
it has been done in the traditional way in the past.
    So this stream system, the Columbia system, is not alone in 
trying to address these issues. These issues are playing out 
not only throughout the American Southwest, but also 
internationally.
    I think what I would sort of like to stress is that you are 
not in it alone and these are very, very important issues that 
need to be addressed.
    I would like to say that the Bureau of Reclamation has a 
good working relationship with the National Marine Fisheries 
Service and we expect that relationship to continue. What I 
would stress is that whatever solution takes place to address 
this issue needs to be based, in my opinion, on good science, 
should result from an inclusive process, in that whatever the 
solution will be, it will not meet the full expectations of any 
given party. I think those are givens.
    The best that we can hope is that we will hopefully come up 
with a solution, if that is the appropriate word, that will 
accommodate, as best it can, competing demands. Mr. Ken Pedde, 
the Deputy Regional Director from this area is available to 
answer specific issues and questions with respect to what 
Reclamation is doing and will be doing in the future. My 
understanding is that Reclamation's involvement to date has 
involved acquiring water from the upper Snake in the quantity 
of about 427,000 acre-feet for flow augmentation and we are 
doing that pursuant to State law and will continue to do that 
until the 1999 date, which I understand is a date that 
hopefully we will have an answer as to how we will move forward 
from there.
    It would appear to me that we would follow, in the future, 
the same approach, that if additional waters are necessary for 
flow augmentation, that we would acquire them pursuant to State 
law and pursuant to hopefully an initiative and a solution that 
will come from a consensus process involving the stakeholders 
in the stream system.
    With that being said, I stand ready to answer any questions 
you might have, Mr. Crapo.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mr. Crapo. Thank you very much, and you finished without 
using your entire 5 minutes. I appreciate that.
    First, I am very interested in the comments that you just 
made about the acquisition of the water for flow augmentation 
purposes. I assume you are aware that the Bureau and the 
National Marine Fisheries have commenced consultation on the 
operation of the Bureau's upper Snake River reservoir.
    Mr. Martinez. That is my understanding, yes.
    Mr. Crapo. The question I have is the 1995 biological 
opinion for the Snake River salmon provides that section 7 
consultation will be commenced on the Bureau's upper Snake 
River projects if the Bureau fails to achieve the 427,000 acre-
foot requirement. And as you just testified, and as you know, 
John Keys, with the cooperation of Idaho and the Idaho 
irrigators, was successful in obtaining that flow augmentation 
water. In addition, in recent litigation, Judge Marsh did not 
require upper Snake consultation in the American Rivers v. 
National Marine Fisheries Service in which he stated in his 
order that I reviewed this morning that the allegations in that 
regard were too speculative and unripe. I assume he was 
referring to the fact that the requirement of the biological 
opinion had been met and that any further decisions were not 
yet ripe for court review.
    The question I have then is why has the Bureau decided to 
initiate consultation on the upper Snake River projects? Is 
that not contrary to the biological opinion itself and to the 
Judge's statement in his order?
    Mr. Martinez. I will defer to Ken for the specifics on 
that, but let me try to answer it generally this way: It is my 
understanding that there was a notice of intent to sue the 
Bureau of Reclamation for the operation of those facilities. It 
is my understanding that after we reviewed that intent to file 
and the background, it appeared that we, the Bureau of 
Reclamation, might have been--might have some exposure as to 
our procedural aspects of how we moved forward with this 
initiative back in 1995, that might have put us at risk in 
litigation. So a decision was made that it would probably be 
best for the system and for the Bureau of Reclamation and the 
way it operates its reservoirs and projects, to move forward 
with this consultation.
    I believe that notwithstanding that consultation, we will 
probably wind up at the same point we are today, of a 
requirement not in excess of 427,000 acre-feet.
    So it was a decision that was made based on information 
available to me and our risk of not prevailing in a legal 
challenge, but I will--Mr. Pedde might want to elaborate on 
that.
    Mr. Crapo. Mr. Pedde.
    Mr. Pedde. Mr. Crapo, the Commissioner has essentially 
stated it correctly. There was--we reviewed the record, we 
found procedurally--with our attorneys, reviewed the record and 
found that there were some procedural holes. And I would cite 
for example that back in 1992 when this process was beginning, 
we requested a list of species from the National Marine 
Fisheries Service, which is the initial act in beginning 
consultation. We could find no record that we ever received a 
response. There were other gaps, if you will, in the record, 
and again, our attorneys, our legal advisors, felt that there 
was some considerable risk. Courts are not at all reluctant to 
send agencies back to jump through the procedural hoops, and as 
a result we have decided to enter into consultation to address 
those procedural issues.
    Mr. Crapo. In that regard, if I understand what you are 
saying correctly, the consultation is directed at assuring 
proper procedural implementation of the current biological 
opinion, is that correct?
    Mr. Pedde. Yes, sir, that would be a fair statement. We 
will describe an operation that includes provision of 427,000 
acre-feet through 1999. We have called it really an interim 
consultation until further decisions are made on configuration 
of lower Snake dams, things of that nature.
    Mr. Crapo. And it is not a consultation then on procedures 
or operations subsequent to or following 1999?
    Mr. Pedde. I believe there are some major decisions out 
there, sir, that may affect water out of the upper Snake, a 
number of issues that may change. So at this point, we do not 
know what those decisions will be or where we might head from 
there, so we will just have to wait and see.
    Mr. Crapo. You are not consulting on that in this 
consultation?
    Mr. Pedde. No, sir. I guess we all would expect that even 
in 1999, there may be some unanswered questions and hopefully 
our biological opinion, our consultation, will be sufficient to 
extend beyond 1999, if we need it, but that is not the intent 
at this point.
    Mr. Crapo. Well, as you know, there are requests and 
certain proposals or different approaches, and in fact I think 
National Marine Fisheries Service is current evaluating 
different approaches that could result in much higher levels of 
flow augmentation, up into the one to two million acre-feet 
levels.
    So I guess the question I am getting at is, is your 
consultation that you are currently undertaking addressing 
those decision--that aspect of the decision?
    Mr. Pedde. As I mentioned earlier, our operation that we 
will describe will talk about 427,000 acre-feet.
    Mr. Crapo. Okay. And Mr. Martinez, in your answer to my 
question, you indicated that you did not expect that the 
427,000 acre-foot requirement would be changed as a result of 
the consultation. Is that because you are consulting only on 
the current biological opinion requirement?
    Mr. Martinez. You know, you cannot second-guess the answer, 
but I am advised by knowledgeable staff that they do not 
believe that that will change.
    Mr. Crapo. All right. Are you aware of what the Snake River 
Resources Review is?
    Mr. Martinez. No, I am not.
    Mr. Crapo. Could I ask Mr. Pedde, are you aware of the 
Snake River Resources Review?
    Mr. Pedde. Yes, sir.
    Mr. Crapo. What is its purpose?
    Mr. Pedde. The purpose of that review was to develop tools 
and a data base by which we could address changes as they may 
be requested in the future. I would say, for example, Mr. 
Crapo, that the Boise Valley here is rapidly urbanizing, we 
have no tools that fairly address concerns, issues that will 
arise from that. We have issues related to groundwater 
recharge, conjunctive use, and so forth. The hydrologic models 
we use now were developed a number of years ago and there are 
better tools available. The purpose of this is to develop 
modeling tools, data bases that could be used in addressing 
questions in the future.
    Mr. Crapo. And where does its funding source come from?
    Mr. Pedde. The funding source is derived under our 
construction program and was originally related to ESA issues.
    Mr. Crapo. Does this review provide technical advice to the 
Bureau in the consultation process we just discussed?
    Mr. Pedde. Technical advice--sir, we will use what tools 
are available, and we may not have everything done. The Snake 
River Resources Review was not intended to be completed until 
about 2000, so we may not have all of the tools ultimately we 
would like to have. But such tools as are available, for 
example, if we have an improved groundwater model or some 
better relationships between surface and ground water, we would 
certainly use those tools in making any kind of evaluations.
    Mr. Crapo. All right. And back with regard to the funding 
sources, do you have the ability in your budget to provide the 
Committee with a clear review of the sources and expenditures 
for the review since it was begun?
    Mr. Pedde. We do have that information. I do not have it 
with me, sir, we could provide that.
    Mr. Crapo. Could you provide it, please?
    Mr. Pedde. Yes, sir.
    Mr. Crapo. Thank you.
    Mr. Martinez, in your statement, you indicated that it was 
your understanding that in 1999, there will be further 
decisions and at that point you may or may not be required to 
take further action with regard to obtaining additional water, 
is that correct?
    Mr. Martinez. That is my understanding, yes.
    Mr. Crapo. I was listening very carefully. You indicated 
that if that occurred, you would seek to do so pursuant to 
State law?
    Mr. Martinez. That is correct.
    Mr. Crapo. Did you also mean--or let me ask you very 
specifically, in that context, would any such water obtained be 
obtained under a willing buyer-willing seller arrangement, as 
is imposed by the current biological opinion?
    Mr. Martinez. That would be my recommendation.
    Mr. Crapo. And is there any way that you could assure us of 
that at this point?
    Mr. Martinez. I do not know if I could bind the Federal 
Government, but that would be my recommendation and that is my 
understanding of how we would proceed.
    Mr. Crapo. It is correct, is it not, that there is a 
Solicitor's Opinion from the Bureau that if it has to obtain 
water, that it could essentially take water?
    Mr. Martinez. That is the John Leshe opinion.
    Mr. Crapo. Yes.
    Mr. Martinez. The official policy of the administration has 
been and will continue to be that we would do it under willing 
buyer-willing seller, under State law.
    Mr. Crapo. So that is current policy, but that policy is 
not required by law.
    Mr. Martinez. As I understand, the Leshe memorandum says by 
law--pursuant to law, you have certain options. The policy 
decision, the administrative decision, was that we would move 
under the willing seller under State law. That is still our 
policy, notwithstanding the legal opinion.
    Mr. Crapo. And your recommendation, regardless of the 
outcome--of what any 1999 decision is, is going to be that the 
Bureau will continue that policy with regard to any water 
acquisition required in the future?
    Mr. Martinez. That would be my recommendation.
    Mr. Crapo. Thank you very much. I have no further questions 
of this panel, and Mr. Martinez and Mr. Pedde, you are excused 
and we appreciate your attendance.
    While the panelists are coming forward, let me apologize to 
you. The table is a little small for the size of the panel but 
I think if you are able to squeeze in there, we will be able to 
fit everybody in.
    This panel includes Mr. Scott Campbell--and we will have 
you testify in this order--Mr. Scott Campbell representing the 
Idaho Farm Bureau; Mr. Bruce Smith from Rosholt, Robertson & 
Tucker; Mr. Peter Wilson from the Port of Lewiston. It appears 
that Mr. Herb Curtis is not present. Is Mr. Curtis present?
    [No response.]
    Mr. Crapo. Mr. Curtis is the Project Supervising Engineer 
from the Wells Project. Okay, and Mr. James Grunke, Executive 
Director of the Orofino Chamber of Commerce.
    We will proceed in that order, and Mr. Campbell, you may 
proceed.

         STATEMENT OF SCOTT CAMPBELL, IDAHO FARM BUREAU

    Mr. Campbell. Thank you very much, Congressman Crapo. My 
name is Scott Campbell, I am a shareholder with the Boise, 
Idaho law firm of Elam & Burke. I am Chairman of the 
Environmental and Natural Resources Section of the firm and I 
am here representing the Idaho Farm Bureau Federation and its 
over 47,000 member farm families.
    I am a native of Idaho. My ancestors have made Idaho their 
home since the 1860's. I am very fond of this State, its people 
and its history and because of this fondness, it is with great 
sadness that I address you today.
    Idaho and some of its hardest working citizens are 
basically under siege by the Federal Government. They are under 
attack by what I consider to be insensitive, insulated Federal 
bureaucrats who have two primary agendas--self-preservation and 
central control and regulation of any economic activities 
involving land, water or air. I would like to give you two 
concrete examples of what I am referring to.
    The first involves the Columbia River, Snake River salmon 
and steelhead recovery process. I will not focus upon the 
history of the ESA problems with the salmon. Instead, I will 
focus upon the current operations of the Federal facilities in 
Idaho under the NMFS biological opinion.
    Because of the requirement for 427,000 acre-feet of flow 
augmentation water to avoid a jeopardy finding for operation of 
the Columbia River power projects, the Bureau of Reclamation 
has embarked upon a very aggressive and in my judgment, 
unreasonable approach to acquiring that water. While they have 
followed the State law requirement of acquiring the water 
through willing seller-willing buyer arrangements, they have 
begged, borrowed, cajoled, cursed and threatened Idaho water 
users to obtain that water. One particular example that I would 
like to refer to is pertaining to existing storage contracts 
which two of my clients possess for water in Lucky Creek 
Reservoir. We have commenced the process for renewing those 
storage contracts, the Bureau has indicated very clearly that 
it is unlikely that those storage contracts will be renewed. 
They currently run until the year 2004 and we have been told 
that that water will not be available because of the need for 
the salmon. Those storage contracts in Lucky Creek Reservoir 
are critical to the operation of the facilities which my 
clients operate.
    That is just one example, there are many others. That 
water, which is acquired for salmon flow augmentation purposes 
in drought cycles is critical to the production of agricultural 
products which my clients and other rely upon for their income. 
Frankly, because of the actions of the Federal Government in 
this respect, I and my clients feel that they are under siege 
by the government.
    The other concrete example which is somewhat related 
because it also involves the operation of the Endangered 
Species Act is the Bruneau-Hot Springs snail. While that does 
not involve NMFS, it does involve its sister agency, the U.S. 
Fish and Wildlife Service.
    Because of the basically predetermined decision of the Fish 
and Wildlife Service to list the so-called Bruneau-Hot Springs 
snail, the impacted area farmers in the Bruneau Valley banded 
together with the assistance of the Idaho Farm Bureau 
Federation, the Idaho Cattle Association and the Owyhee County 
Commissioners to sue the Federal Government in U.S. District 
Court based upon procedural violations as well as substantive 
violations of the listing process. I was asked to represent 
that coalition of affected farmers.
    The U.S. District Judge invalidated the listing because of 
procedural problems, procedural flaws, finding that the Fish 
and Wildlife Service had violated the procedural due process 
rights of those clients. Unfortunately, two environmental 
litigation groups appealed that decision to the Ninth Circuit 
Court of Appeals, which reversed, mainly on the basis of its 
need, its perceived need to protect the endangered species even 
though the procedural due process rights of the affected 
farmers had been violated. We are currently in a re-
examination, a relisting process, subject to the corrected 
procedural requirements.
    The reason I point that out, Congressman Crapo, in the 
context of your hearings, is that it illustrates again the 
basic philosophy, the basic mindset of the Federal agencies 
that the impacts to people, the impacts to the economy, the 
impacts to the real lives of the citizens of this country in 
the administration of the Endangered Species Act is not the 
focus, the focus is upon the species. And the consequences to 
real live people is irrelevant.
    And with that, I see my red light. Thank you very much.
    Mr. Crapo. Thank you, Mr. Campbell. Mr. Smith.
    [The prepared statement of Mr. Campbell may be found at end 
of hearing.]

     STATEMENT OF BRUCE SMITH, ROSHOLT, ROBERTSON & TUCKER

    Mr. Smith. Good morning, Representative Crapo. My name is 
Bruce Smith, I am a private attorney here in Boise. My clients 
include businesses in the timber, mining and agricultural 
industries. I am not here speaking on behalf of any individual 
client this morning, but I would like to point out that they 
share one common theme. Because they are businesses, their 
approach to salmon recovery is similar to their approach to 
business. They are interested in problem solving.
    My comments today come from my perspective, having worked 
on the salmon issue since prior to the time the petitions to 
list were filed. I was one of the participants in Senator 
Hatfield's salmon summit process which, for those who are new 
to the issue, was an attempt to develop a regionally based 
approach to the recovery effort. Based on this experience, my 
comments today are focused on NMFS' problem solving efforts.
    I would like to leave you with two main messages today. 
NMFS cannot solve the salmon recovery problem unless it focuses 
its efforts on solving the problems at the dams. Two, through 
the use of some new tools, NMFS has an opportunity to 
recharacterize its relationship with State and private entities 
from that of a regulator to that of a partner and in the course 
benefit the recovery effort.
    Now, we learned two important lessons from the salmon 
summit. One, the problems at the dams are the main obstacles to 
salmon recovery. Two, those problems cannot be compensated for 
by using Idaho water or by over-compensating with regard to 
other factors. The reasons are simple. There is simply not 
enough water in the State of Idaho to overcome the problems 
that arise because of the present configuration of the dams. 
Furthermore, it is unquestionable that there is already a 
significant amount of good quality, unoccupied habitat in the 
State if the fish return.
    Personally, I believe NMFS has gone off track somewhat with 
regard to where it focuses its recovery efforts. It has done 
this by under-emphasizing the solutions to the dam problems and 
trying to over-compensate with regard to habitat factors. Let 
me give you two specific examples.
    In its present biological opinion on flows, NMFS has 
accepted mortality of 21 percent for spring/summer adults, 39 
percent for fall adults, 24 to 86 percent for juvenile sockeye 
and for juvenile fall chinook, a mortality of 62 to 99 percent. 
Now this is the biological opinion on the major factor 
affecting salmon decline and recovery. So how does NMFS handle 
their management activities affecting habitat? NMFS has 
concluded in another biological opinion that grazing on one 
allotment on the Boise National Forest would jeopardize the 
continued existence of spring/summer chinook. In its Incidental 
Take Statement which goes along with the biological opinion, 
NMFS imposed a zero level of take associated with cows stepping 
on redds. When constructing fences to protect the salmon or to 
protect the salmon redds, NMFS required that no more than 20 
minutes of temporary displacement occur. Now when I sit down 
and compare these two biological opinions, something seems out 
of balance to me.
    Another example showing a shift to habitat measures is 
NMFS' presently proposed rule on what is called Essential Fish 
Habitat. What this rule does is set up an elaborate 
consultation scheme that largely mirrors ESA consultation 
efforts and again focuses on habitat. Now I do not think, from 
my investigation, that NMFS has any additional money to 
implement the EFH measure, which raises for me the question of 
whether NMFS is going to have to shift recovery resources to 
the Essential Fish Habitat effort. Quite frankly, I think the 
Essential Fish Habitat rule is so complex and far-reaching--it 
is a nationwide application--that the Subcommittee should 
consider some additional oversight hearings on that issue 
alone.
    As I have investigated it, there are substantial impacts 
associated with other Federal agencies. I have yet to talk to a 
Federal agency that understands or realizes the implications of 
the Essential Fish Habitat rule. They do not know what it is.
    I have attached to my testimony some excerpts of 1950 
Congressional Records that show that the success of efforts 
focused on trying to compensate for the cumulative impacts of 
dams was suspect even before the dams were constructed. This 
goes to show that trying to over-compensate for the problems of 
the dams cannot be done by focusing on these other factors 
affecting the salmon.
    Let me quickly turn to my second point, which I see as a 
real opportunity for NMFS. Although I think NMFS is over-
compensating with regard to habitat issues, that does not mean 
that habitat management should be ignored. To the contrary, 
there are several policies in place, primarily on Federal 
lands, that deal with habitat. These are the PACFISH and INFISH 
protocols. However, there are new policies being proposed 
called Conservation Agreements with Assurances and Safe Harbor 
Agreements that offer new opportunities for NMFS to 
recharacterize its relationship with private and State 
landowners. This is a real opportunity for NMFS to seize on 
these new policies and change its approach to doing business. I 
think that NMFS should be encouraged to embrace those policies 
and try to implement them in a way that will effect recovery.
    Thank you.
    Mr. Crapo. Thank you, Mr. Smith. Mr. Wilson.
    [The prepared statement of Mr. Smith may be found at end of 
hearing.]

 STATEMENT OF PETER K. WILSON, VICE PRESIDENT, PORT OF LEWISTON

    Mr. Wilson. Congressman Crapo, my name is Peter Wilson and 
I am Vice President of the Port of Lewiston Commission, 
Lewiston, Idaho. I have been a member of the Port Commission 
for 9 years. Although it is not supposed to be a full time job, 
I spend as much of my time on port business as I do trying to 
make a living raising a few cows.
    As this testimony has been submitted, the written, I think 
I will deviate a little bit from that and bring up a few 
points.
    Transportation is a very important part of Idaho and river 
transportation is an integral part of that. I think we need to 
reiterate that the balance of trade without ag exports would be 
much larger than it is.
    Another thing is on the flow augmentation. As a youth in 
the 1930's, I used to swim in the Clearwater River. The 
Clearwater River, they had the log drives in there, the log 
drives come with the high water and the high water was 
generally considered a week plus or minus Memorial Day. Now we 
have got to take water out of the Dworshak to keep the 
Clearwater River, the lower 30 miles of it, at a much higher 
level than it ever was before. To me, it is not natural. When I 
was swimming in the Clearwater River, there was no dams up 
there. We used to swim at Spalding and it was a major 
accomplishment of the youth to swim the river. It was not 
really that far, but it was an accomplishment. Now the water is 
cold as they draw the winter water out of Dworshak, and as I 
say, it is higher. It does not make sense to me--does not make 
sense to me.
    Food--the ag production, I need to push that a little bit. 
I remember in the 1970's, Khrushchev was over here and they had 
him visit a cornfield in Iowa, and he was aghast at the ag 
production, he thought if he could do that back in his country, 
he would be more of a world power than he already was.
    I think that is about all I have to say.
    Mr. Crapo. All right, thank you very much, Mr. Wilson. Were 
you finished?
    Mr. Wilson. I was just going to say the light is green, you 
know, so I will quit while I am ahead.
    [Laughter.]
    Mr. Crapo. All right. Thank you, Mr. Wilson. Mr. Grunke.
    [The prepared statement of Mr. Wilson may be found at end 
of hearing.]

   STATEMENT OF JAMES W. GRUNKE, EXECUTIVE DIRECTOR, OROFINO 
                      CHAMBER OF COMMERCE

    Mr. Grunke. Thank you, Congressman Crapo. I would like to 
thank you for the opportunity to speak here. I am the Executive 
Director of the Orofino Chamber of Commerce and my name is 
James Grunke.
    We in Orofino think we have a fairly compelling story to 
tell and really welcome this opportunity. We are one of the few 
communities in the entire northwest, and the only one in Idaho, 
that feels the direct impacts of salmon recovery every year.
    When Dworshak Dam was constructed, it was authorized for 
five purposes--flood control, power production, fish and 
wildlife, recreation and transportation. Transportation being 
log transportation down the reservoir. In exchange for this, 
the damming of probably the most productive steelhead river in 
Idaho, the North Fork, certain promises were made, such as 
continued log transportation and to be able to maximize the 
recreational opportunities to offset this.
    Also as part of that in the mitigation, they constructed 
Dworshak National Fish Hatchery, which is the world's largest 
steelhead fish hatchery. So there were tradeoffs that were made 
and the community I think grudgingly accepted this and it did 
become a very prime recreation source. It is the only pristine, 
undeveloped, forested lake in the State of Idaho to this 
extent, it is 53 miles long, no commercial development is 
allowed, it is a beautiful facility.
    Things were going good for Orofino and then they decided to 
list salmon. Our experience with the listing of salmon and the 
control of NMFS has been an absolute failure. I would say we 
would view the flow augmentation strategy as completely ill-
conceived and it has resulted in every summer draining the 
reservoir down, this year they will go down 100 feet, it has 
been down as low as 115 feet, for salmon recovery. This has 
resulted in an unusable mud bog that nobody would want to use 
to recreate. But this has had more impacts than just to the 
recreation. Resident fish have been dramatically impacted, not 
only in the reservoir but in the Clearwater River. It is not 
natural when the main stem of the Clearwater River right now in 
August is running nearly 70 degrees, that the fish swim along 
and they are running into 48 degree water. It is impacting the 
fish hatchery because the water is too cold. So it is retarding 
the growth of steelhead in the fish hatchery.
    So to compensate that, rather than using the selector gates 
that were designed to provide the constant cool water for the 
fish needs, they have decided in their wisdom to spend over a 
million dollars to build boilers to warm the water, when we 
already know what we could do. I think we have absolutely seen 
steelhead impacts. We drain the water in the summer, we no 
longer have any water left in the fall months to use not only 
to cool the river in the month of September, but also to 
attract the fish up from lower Granite pool. There is evidence 
from the National Marine Fisheries Service, their own study, 
that the cool water has impacted or retarded the growth of fall 
chinook in the main stem of the Clearwater River. And it has 
had devastating impacts to the community of Orofino. We were 
fortunate enough to have the Corps of Engineers conduct an 
economic impact study for us in 1995 that demonstrated losses 
in excess of $7 million a year in the summer economy. That is 
also a tradeoff because these efforts have declined the number 
of steelhead and that resulted in a closure of the fall 
steelhead season in 1996. So we are losing on every side.
    So then we need to look at the benefits and I have asked 
this question it seems like now for years to NMFS, but does--
the question seems fairly straight-forward--does draining the 
reservoir produce more salmon, and if it does, how many? The 
answer is we do not know, we think that it does. I do not think 
that we are unwilling to participate, but we are unwilling to 
share the sole burden for these salmon recovery efforts. NMFS 
actually has no idea if they are helping or hindering, they 
think this is going to work, but have we seen any results?
    I would like to conclude by saying the current operation--
the current system of who is in charge is an absolute 
rudderless ship, there is so many agencies, nobody is in 
charge. We need some clear direction and this is, I think, the 
real role for Congress, is to give the Northwest some clear 
leadership and get the process moving.
    Thank you.
    [The prepared statement of Mr. Grunke may be found at end 
of hearing.]
    Mr. Crapo. Thank you, Mr. Grunke.
    What I would like to do is go through some specific 
questions I have for each witness and then I am going to go 
back and talk in general about an issue I would like to get 
into a discussion with the panel in its entirety on.
    But first of all, Mr. Campbell, I was interested in your 
testimony where you indicated in your written testimony, I 
cannot remember if you covered it in your statement, in your 
oral statement, but you indicated that the project 
authorization statutes for a number of the dams require the 
Bureau to comply with State water law. I assume you are aware 
of the Solicitor's Opinion which the Bureau has which indicates 
that under the Endangered Species Act, it can essentially take 
water if necessary. Are you aware of that Solicitor's Opinion?
    Mr. Campbell. Yes, Congressman Crapo, I am aware of that 
opinion.
    Mr. Crapo. I am not going to ask you for a legal evaluation 
here, but do you believe that there is any conflict between the 
authorization statutes and that Solicitor's Opinion on the 
operation of the Endangered Species Act?
    Mr. Campbell. Congressman Crapo, I believe that there is a 
clear conflict between that so-called opinion, the memorandum 
that I think you are referring to is basically a two-page or 
one and a half page brief letter to the Commissioner of 
Reclamation at that time, Daniel Beard I believe, and John 
Leshe basically informed the Commissioner that there would be 
consequences of any action to release water, notwithstanding 
the approval of the contract space holders or the affected 
irrigators or municipal users, but he felt, under the 
Endangered Species Act, that those consequences were something 
that the administration would just have to put up with.
    The analysis was questionable, there was no analysis, it 
just said there will be consequences. I view the Reclamation 
Act of 1902--and I think all water lawyers who have examined 
this issue agree--that State law is absolutely required, 
mandated by the Bureau as it relates to the water which is 
stored in those facilities. Moreover, the specific 
Congressional actions which had to be taken for the 
construction of those Reclamation facilities in the State of 
Idaho, specifically provided for the project uses, the types of 
uses of the water which could be stored in those facilities. In 
virtually none of the project authorizations by Congress does 
it provide for releases of water for flow augmentation 
purposes.
    So from my view--and the U.S. Supreme Court has held that 
the water rights which actually are being exercised by the use 
of those facilities are really held, the true beneficial owners 
are the irrigators, the municipal users, whatever. So if NMFS 
or the administration determines that it can release water from 
Bureau facilities notwithstanding no approval, no consent by 
willing sellers, willing buyers, I think they will violate 
vested property rights, they will violate specific 
Congressional actions by those project authorizations, and they 
will be subject to condemnation proceedings, inverse 
condemnation proceedings or injunctive relief by Federal 
courts. That is my view.
    Mr. Crapo. And would you--your opinion that you have just 
expressed here is with reference to Bureau projects, is that 
correct?
    Mr. Campbell. No, it is with regard to any Federal 
facility.
    Mr. Crapo. So it would include----
    Mr. Campbell. Primarily--excuse me, Congressman Crapo.
    Mr. Crapo. Sure, go ahead.
    Mr. Campbell. Primarily Bureau facilities as they relate to 
the clients I represent; however, Lucky Peak reservoir was 
constructed as a Corps of Engineers facility with coincidental 
irrigation uses as well. The Dworshak Reservoir was a Corps 
facility.
    Mr. Crapo. That is what I was getting at.
    Mr. Campbell. That has a specific project authorization and 
because of that, any--in my view, any action by the Bureau--by 
the Corps of Engineers, which is contrary to that specific 
Congressional authorization is arguably invalid.
    Mr. Crapo. Let me for just a minute shift over to Mr. 
Grunke. Are you aware of whether a legal challenge has been 
made to the Corps' operations, which appear to be in conflict 
with its authorization statute?
    Mr. Grunke. Yes, sir. In fact, in 1995, the Orofino Chamber 
of Commerce as well as the City and Clearwater County sued in 
Federal court, the Corps of Engineers over this issue that they 
had exceeded their Congressional authorization.
    Mr. Crapo. And has that litigation been resolved yet?
    Mr. Grunke. It is on appeal now to the Ninth Circuit Court. 
It was ruled that they were within their parameters.
    Mr. Crapo. So in that case, the Court ruled in favor of 
the--basically that the Endangered Species Act requirements 
superseded the statutory authorization?
    Mr. Grunke. The ruling was that as one of the project 
purposes was fish and wildlife, they were still adhering to 
that and yes, you could still recreate and could produce power 
and flood control. It is just they were not all equal.
    Mr. Crapo. So I guess what I am getting at is that in this 
case, the Court did not address the specific issue of whether 
the Endan-

gered Species Act will allow essentially the violation of the 
requirements of the authorizing statute.
    Mr. Grunke. That is correct.
    Mr. Crapo. Would you pass the microphone back to Mr. 
Campbell?
    Mr. Campbell, are you aware of any judicial decisions that 
would--that have focused on this issue more specifically than 
the Dworshak case?
    Mr. Campbell. Congressman Crapo, I am not aware of any 
pertinent judicial authority which has addressed this issue.
    Mr. Crapo. And you indicated that the Solicitor's 
memorandum that we have been discussing did not contain a legal 
analysis or have attached to it a legal analysis, is that 
correct?
    Mr. Campbell. That is entirely correct. It was basically a 
letter addressing the options available to the Commissioner of 
Reclamation with no citation to any statutes, any case 
decisions of the Federal courts, merely saying that these are 
your options and including release of water, notwithstanding 
the objections of impacted water users who have valid storage 
contracts in these facilities, and there will be consequences. 
But under the Endangered Species Act you have that authority, 
without any legal analysis, in my judgment other than the 
conclusion.
    Mr. Crapo. Are you aware of any legal memoranda or briefs 
or analyses made by the Bureau or any other Federal agencies in 
this regard?
    Mr. Campbell. Congressman Crapo, I am aware of various 
memos which discuss the issue. I am not aware of any 
dispositive internal ruling or binding legal opinion from the 
Solicitor's Office that directly addresses the issue, no.
    Mr. Crapo. All right, thank you very much. How about 
handing the microphone to Mr. Smith.
    First of all, Mr. Smith, you are a water lawyer as well. Do 
you have anything to add to the discussion we have just had?
    Mr. Smith. I do not believe so.
    Mr. Crapo. Then I would like to focus with you on a few 
items in your testimony. One of the key points that you made in 
your testimony was--and I will read it to you, you made this in 
your oral testimony as well--``Despite the fact that problems 
with the dams on the Columbia and lower Snake Rivers remain the 
foremost obstacle to the salmon recovery efforts, NMFS appears 
to be searching for a solution based on using Idaho water and 
habitat management measures to overcome these problems.''
    Would you elaborate for just a moment on your comment there 
about the fact that despite the fact that the problems with the 
dams on the Columbia and the Snake River remain the foremost 
obstacles, NMFS appears to be searching for a solution based on 
Idaho water?
    Mr. Smith. The debate during the salmon summit, which was 
quite extensive in terms of looking at the problems and trying 
to figure out what the major problems were, as well as NMFS' 
analysis of what the problems are, there was very little 
disagreement about the fact that the hydro impacts--the 4 H's--
hydro, habitat, harvest and hatcheries--that hydro was the 
major factor responsible for the decline and was a major factor 
or the major factor in terms of recovery. When you look at the 
configuration of the dams in trying to use flow augmentation to 
overcome those problems, when the focus gets to be on Idaho 
water, one of the things that is often overlooked is that 
despite the storage capacity in the upper Snake, that in 
drought years when that water is used, you cannot just look at 
it on an annual basis. You have to look at the ability of the 
system to recover. So when NMFS turns and starts looking at the 
use of Idaho water to try and overcome the problems at the 
dams, to look at it on an annual basis is very risky. What I 
was specifically referring to were the attempts to gain more 
water, it was through the section 7 consultation that you 
referred to earlier in which NMFS and the Bureau have entered 
into consultation in which it, quite frankly, appears to me 
that they are attempting to use the consultation process to 
either ratchet up or try to secure more water through means of 
either a jeopardy opinion and reasonable and prudent 
alternatives or some other measures that would require 
additional water above and beyond the 427,000 acre-feet.
    Mr. Crapo. And you were here during the testimony of Mr. 
Martinez and Mr. Pedde about the consultation, were you not?
    Mr. Smith. Yes.
    Mr. Crapo. Do I understand you to be saying that 
notwithstanding their assurances that that consultation is not 
aimed at securing additional water, that you still have 
concerns about what direction that consultation is heading in?
    Mr. Smith. Yes, I do, because once the Federal agency, 
pursuant to section 7 of the Endangered Species Act, enters 
into consultation with the National Marine Fisheries Service, 
there is quite a bit of discussion, or let me put it this way, 
a concern over the ability of private parties to participate in 
the consultation process. That process under section 7 largely 
involves the Federal agencies. So when you are sitting out 
there representing clients, contract holders who use that 
water, there are serious questions about whether they will be 
able to participate in the consultation process. When NMFS then 
does its analysis, renders it opinion, they will come up with--
if it is a jeopardy opinion, they will come up with a 
reasonable and prudent alternative. Their obligation at that 
point is to--or excuse me, if they have a jeopardy opinion and 
they try to come up with a reasonable and prudent alternative 
to avoid the jeopardy, they will attach conditions, if you 
will, that seek to make it a non-jeopardy opinion. And that is 
the risk that I see that once that biological consultation 
starts forward, that you will get terms and conditions imposed 
on the Bureau of Reclamation that might seek to increase the 
427,000 acre-feet, which has been voluntarily, under the 
willing buyer-willing seller provisions, been made available to 
this point.
    Mr. Crapo. I want to do a quick little sidetrack here on 
something you said and then get back to this, but you indicated 
that one of the problems with the consultation is that it is 
essentially consultation among Federal agencies.
    Mr. Smith. Correct.
    Mr. Crapo. And that private parties or other interested 
concerns, whether they be those who are concerned with salmon 
recovery or steelhead recovery or those who are concerned about 
irrigation or transportation, are not in the consultation, is 
that correct?
    Mr. Smith. Correct.
    Mr. Crapo. Do you perceive that to be a significant problem 
in the decisionmaking process that we are operating under?
    Mr. Smith. Absolutely. Because as you are going through the 
consultation process--and let me point out, there are 
provisions in the regulations that deal with consultation that 
allow participation by applicants for a Federal license to 
participate in consultation. But quite frankly, I have 
represented the timber industry on a number of matters in which 
we have had to assert ourselves aggressively to try to 
participate in the consultation process and it is one of those 
areas that is, quite frankly, a little unclear. But in order to 
get the best information that is available and in order to make 
sure that all the interests that could be affected are heard, I 
think it is almost mandatory, it is critically important, that 
all those interests be heard.
    Mr. Crapo. That is an issue that I want to talk about with 
the whole panel, but before I do that, I want to get back to 
the line of questioning I had with you. It seems to me that, 
focusing on this consultation process, that the failure of the 
Federal family or the Federal agencies in essence, to seriously 
deal with the mainstem dams will be paid for if the current 
direction that we see developing continues--will be paid for by 
heavy volumes of upper Snake River water. And that that failure 
will likely result, in addition to taking a significant amount 
of water from the upper Snake River and the economic impacts 
that that would cause, will likely also result in the 
extinction of the fish, or at least in a failure of recovery 
efforts for the salmon and the steelhead.
    I would just like to ask you your observation or to add 
your comments on that. Do you agree with the concern that I 
raise in both contexts, in the sense that if we do not 
seriously address the issue at the main stem dams, that we will 
then see--if what we now see from the current direction, that 
we see from the National Marine Fisheries Service, that we will 
see a look instead to significant volumes of Idaho water? Let 
us start with that. Do you agree with that?
    Mr. Smith. Yes, I think that is a real possibility, because 
as NMFS is trying to find a solution--if you have a problem at 
the dams, as they are presently configured, and you want to 
solve it, you go to the dams and try to figure out what we can 
do to make those things--to reduce mortality. Are you going to 
go away from the dams to try and come up with a bandaid 
approach to try and fix that problem or do you go to the dams 
where the problem is and try to fix it at that site?
    If you are going to approach it from the water standpoint 
by basically securing more and more water from the State of 
Idaho, eventually you are going to run out of bandaids and you 
are not going to be able to solve the problem.
    Mr. Crapo. Let us go to the second part of my comment. I 
indicated that I also believe that the failure to focus where 
the problem is will--and to focus on basically an increased 
flow augmentation approach, will ultimately not help the 
salmon. Do you agree with that?
    Mr. Smith. I have not seen any evidence to suggest it will.
    Mr. Crapo. Now currently NMFS has rejected the Idaho policy 
that was worked out as an effort to try to look at something 
other than an increased emphasis on flow augmentation. And NMFS 
will be able to testify for themselves later today, but I 
believe that their position is that the current status of the 
scientific record or the science, is that we must continue with 
a flow augmentation approach at this time until we figure out 
how to deal with the dams. I know that is not exactly how they 
would say it, but do you have any comment on that response or 
on that issue?
    Mr. Smith. I do not know if that is the way they would say 
it or not, but I think that is what their approach has 
indicated, that we are going to continue to do these interim 
steps without focusing on a final solution. And I recognize 
that the solution--it is a difficult question. NMFS has had to 
struggle with trying to resolve the question, but I think that 
what we are seeing are interim approaches without starting to 
focus on trying to solve the problem.
    Mr. Crapo. I am shifting gears here. You indicated in your 
testimony that you felt that a significant part of the solution 
might be more reliance by our Federal managers on conservation 
agreements and safe harbors and that you thought those were 
pretty significant. What do you think it will take to 
successfully implement those types of agreements?
    Mr. Smith. It is going to require NMFS to take a look at 
itself and think about the way it approaches doing business 
with private parties and non-Federal entities. A lot of their 
effort to date has been focused on their relationship with 
other Federal agencies such as the Bureau of Reclamation, the 
Forest Service and the BLM. Private parties and States have a 
different role to play under the ESA, as far as I am concerned. 
I think it is going to take clear direction from the higher 
levels of the NMFS administration to tell the people at the 
field level that look, these are new tools, these give us new 
opportunities and we are embracing the use of these, so that 
when the field people or the people in the field offices get 
ready to come out and try to work with private parties, that 
they are encouraged to do that, they know they have support 
from higher up that they can use these new tools in different 
innovative fashions. It is critical.
    Mr. Crapo. All right, thank you. I see from the 1950 
historical report excerpts that you attached to your testimony 
that the problem that we are talking about today was identified 
clear back in 1950.
    Mr. Smith. Correct.
    Mr. Crapo. And at that time only the Bonneville Dam, of 
those we are discussing, was in place, is the correct?
    Mr. Smith. That is correct.
    Mr. Crapo. Did you want to amplify on that at all?
    Mr. Smith. That document that I attached to my testimony 
was a report to Congress back in 1950 and what it did was raise 
the specter that these programs to try and augment salmon 
populations by focusing on non-dam-related matters was suspect. 
It raised the concern that the program to try and compensate 
for the infrastructure that was going into place on the 
Columbia and lower Snake Rivers might not work. That was a 
document that came out during the salmon summit and it 
generated quite a bit of comment, mostly along the lines of 
what you indicated, that we are sitting here discussing things 
that are not new.
    Mr. Crapo. All right, thank you. Could you hand the 
microphone to Mr. Wilson?
    Mr. Smith. Thank you.
    Mr. Crapo. Mr. Wilson, I was interested to note your 
testimony about the need for a regional consensus-building 
process and that is the general issue that I want to get into a 
bit of a panel discussion with you here in a minute.
    But could you tell me a little more what you might have in 
mind in terms of a regional decisionmaking process? How could 
we accomplish that?
    Mr. Wilson. I think that the tools are already in place 
with the Power Planning Council, that group. I do not see any 
need to put another layer above or below.
    Mr. Crapo. Do you believe that--in my discussion with Mr. 
Smith, we just talked about the fact that a process that 
involves only Federal managers excludes not only other 
governmental entities but also excludes other interests. Would 
you agree with that?
    Mr. Wilson. I think I would have to say yes.
    Mr. Crapo. Now I know that one response to that might be 
that the Federal managers are trying to bring together in a 
decisionmaking process all of the affected--at least affected 
governmental entities. Would it be satisfactory to have a 
decisionmaking process in place that only--that involves all 
governmental entities--let us say it would involve Federal 
agencies, State governments and their agencies and tribal 
governments, and I guess that would be it. Would that approach 
be acceptable to you?
    Mr. Wilson. Well, yeah, I think that we feel that the 
tribal--that has to be recognized.
    Mr. Crapo. Do you--well, let me move to another question 
here. I was also interested in your oral testimony about your 
experiences with the Clearwater from your youth. And if I 
understood you correctly, under the current flow augmentation 
regime by which we are now managing the flow in the rivers, you 
are telling us that the rivers are not running as they used to 
run when they were natural.
    Mr. Wilson. Absolutely.
    Mr. Crapo. Could you give me some time lines there? You 
said this, but I did not pick it up, what times of the year are 
they higher than they used to be?
    Mr. Wilson. The high water, generally the people along the 
Clearwater or the mid Snake I guess we would call it in the 
Lewis and Clark Valley, those people always said Memorial Day 
plus or minus a week. And this was very difficult to predict 
because when Potlatch had their log drives, the success of that 
depended upon hitting the high water. And when the river is on 
a rise, the center is high and when it is on a decline, the 
center is low. So as they would bring those logs down the 
river, if the river is on the rise, they are in the center and 
they are in the mill pond pronto. If they hit a slack time and 
it goes down, the logs all go to the outside and they pile up 
and have their jams.
    So it is not anything that anybody can really predict, when 
that high water is going to be, but generally Memorial Day plus 
or minus a week, then your flows diminish, as the snow melts, 
you know, and depending on what the snow pack is.
    Mr. Crapo. All right. I remember the question that I forgot 
a minute ago. With regard to the decisionmaking process--back 
to the question of how we make decisions. It seems to me that 
one of the big questions we are going to need to ask is whether 
the decisionmaking authority should continue to be centralized 
in the Federal agencies or whether some other decisionmaking 
entity should be created. Do you have an opinion on that?
    Mr. Wilson. I think the decision should be made in the 
Northwest with Northwest people.
    Mr. Crapo. I agree with you.
    Why do you not pass the microphone--oh, by the way--yes, 
did you want to add something?
    Mr. Wilson. And on the lighter side, we made up a little 
quiz. Lots of chinook showed up in the rivers this year, so the 
question is--multiple choice--how did they get there? Did they 
get there by barge, were they railed in, were they trucked in 
or freight, or did they just slam and swim over the dam?
    Mr. Crapo. Good point. And by the way, I know that both you 
and Mr. Grunke--this is a comment to both of you--I know that 
both the Port of Lewiston and the Orofino Chamber of Commerce 
supported Governor Batt's initiative and his effort to find 
some consensus on salmon and steelhead recovery in the 1997 
Idaho Policy, and I just want to thank you for that because we 
have all been working very closely with Governor Batt and we 
realize--we all realize that with the multitude of interests at 
stake here, that it is very difficult for people to come, in a 
collaborative decisionmaking process, to an agreement, but it 
was done and you were both--you and your groups that you 
represent were both integral players in that and I appreciate 
that. I just wanted to let you know that.
    Mr. Wilson. Thank you.
    Mr. Crapo. Mr. Grunke, you indicated that--let me turn to 
your testimony--in your testimony under recommendations, your 
very first sentence says ``Put someone in charge.'' Would you 
like to elaborate on that a little bit?
    Mr. Grunke. I think the biggest problem that is facing our 
region is that there are too many overlapping areas of 
authority and jurisdiction and that the system, as it is 
designed now, cannot function to develop a solid, cohesive 
salmon recovery plan. We have Corps authority and NMFS 
authority and Reclamation and then the States and the tribes 
and the Power Planning Council and everybody with their 
different plans, and there is not one driving force and so we 
should expect to have the result that we have because of the 
way the current system is.
    Mr. Crapo. And do you have a--well, if I could hold that 
question back until we get into it with the panel a little 
bit--but I assume that Orofino benefited from this year's 
salmon season, is that correct?
    Mr. Grunke. Yes, sir.
    Mr. Crapo. In the debate that we have over what approach to 
salmon recovery, often economics comes up and, you know, one 
group will say well, there are jobs in this area that we cannot 
ignore, irrigation for agriculture and agriculture jobs, or 
transpor-

tation jobs or in this case--and another group will say there 
are jobs related to a healthy recreation in the salmon and 
steelhead industry. I guess the question I have to you is does 
this year's experience with the salmon and steelhead runs--or 
the salmon runs--give you--cause you to have an opinion on 
whether if that were able to be sustained over a period of time 
that it could be a significant economic boost to your 
particular community?
    Mr. Grunke. I would say this gave our community a taste of 
what the potential would be for a strong, vibrant steelhead and 
salmon season, but I would not say that that is going to be our 
sole answer or that it is going to be the new strength of our 
economy. It is too unpredictable and what type of jobs is that 
providing for us. Is it service or is it jobs that are stable 
for our community, or high paying. It currently is an important 
part of our economy, the steelhead season, and the salmon would 
benefit it, but I am curious--whenever I see how great the 
benefits would be, I see numbers thrown out all the time, but 
never any documentation how they got there. The Idaho Statesman 
said it would be worth $248 million to the State of Idaho, 
according to somebody, but no citation.
    So I do not know. I know what we lose during the summer 
because of the Corps study, and I do not believe that the 
steelhead and salmon season would result in comparable economic 
gain, that would be a wash. So if we are losing $7 million in 
the summer, we would need to be gaining $7 million in the 
winter, just to stay even, and that is not occurring. And I do 
not think it will.
    Mr. Crapo. I am aware of all the points you just made, in 
this debate that we constantly have about jobs and what the 
impact will be, so I thought I would just ask somebody from one 
of the communities that got to experience it a little bit this 
year, what your opinion was. Are you aware of any type of 
studies that your community has done or that have been done 
with regard to your community that would give a handle on what 
you, in your community, the people who live there, believe 
would be the economic impact?
    Mr. Grunke. No, sir. The only study that I am really aware 
of is a number of years ago there was a study by the Idaho Fish 
and Game when they had a limited season on salmon in the Rapid 
River Hatchery and the economic impact to the community of 
Riggins, and this very small window was in excess of $200,000. 
And I think if you extrapolate that out, I think you could get 
some gains, and I think we will see some interesting studies 
done this year on both Orofino and--or the Clearwater River and 
the Riggins area, to be more concrete, but at this point, there 
is not a study that has been done that I am aware of.
    Mr. Crapo. I would just like to conclude with this panel by 
asking a general question that any of you can jump in on if you 
would like to.
    One of the concerns that I have is literally, as Mr. Grunke 
said, that there is no one in charge--no one in charge. The 
buck does not stop somewhere in this whole process of 
decisionmaking that we have. And I am convinced that we need to 
have a system of decisionmaking in place that allows for 
decisions to be made, for accountability to be enforced and I 
guess another aspect of it would be for meaningful 
participation by the people in the Pacific Northwest in the 
decisionmaking. I assume that no one on the panel is going to 
disagree with those broad statements. If anybody does, let me 
know and we will explore that.
    But the question I would like to ask you to jump in on, if 
you have an opinion, is how do we do that. Do we take the 
current system and tweak it or do we move to a new 
decisionmaking model? I am looking for ideas here as to how we 
can get to a system that has accountability, the ability to 
make decisions and to involve the people of the Pacific 
Northwest in those decisions. If anybody has any thoughts or 
comments, I would welcome them.
    Mr. Smith. Representative Crapo, having gone through the 
salmon summit process, I have to say it was a real education. I 
think if we look at a broad-based coalition, a group if you 
will, that does represent the people in the Northwest, that 
that is our best chance of coming up with a plan, and of having 
some accountability. Right now, things are so spread out that 
there is very little accountability. My concern is that the 
process that we have now has basically generated huge amounts 
of litigation and a huge amount of decisions, but it is so 
spread out that it is difficult for me, working on it on a day-
to-day basis, to even keep track of all of it.
    In order to come up with the kind of plan that will allow 
us to move forward, it is going to require a lot of 
cooperation. I think that mandates that we have participation, 
and heavy participation, from the State level.
    Mr. Crapo. Any others?
    Mr. Smith. Could I make one other comment?
    Mr. Crapo. Sure.
    Mr. Smith. Awhile ago when you were asking about the 
consultation process----
    Mr. Crapo. Yes.
    Mr. Smith. [continuing] and I approached it pretty much 
from the point that if the consultation on the upper Snake 
projects goes forward, and we had a jeopardy opinion. Let me 
add to that, regardless of whether it is a jeopardy opinion or 
a non-jeopardy opinion, whatever NMFS includes in that is going 
to put tremendous pressure on the Bureau. I am not going to 
predict how that would come out, but I think it is important 
that we recognize that when the Federal agencies are dealing 
with one another under section 7 of the Endangered Species Act, 
the pressures that are generated on the action agency, which 
would be the Bureau in this case, are tremendous.
    Mr. Crapo. Does that mean that NMFS--I am looking for 
somewhere the buck stops. Does the buck stop at NMFS or can 
NMFS then say well we are just consulting?
    Mr. Smith. No, NMFS could say we are just consulting. 
Biological opinions are advisory, they are not mandatory. So 
NMFS' response, and I agree with this, is that under the ESA 
the biological opinion is advisory. The action agency has a 
choice of whether it is going to or not going to follow that 
opinion. But I will tell you from my experience that I have yet 
to see a Federal agency that did not comply with a biological 
opinion. The pressure is too great.
    Mr. Crapo. Is that sort of a safe harbor for the Federal 
agency?
    Mr. Smith. That is a good way of describing it.
    Mr. Crapo. Or at least safer than other harbors?
    Mr. Smith. It is a response that you are going to get.
    Mr. Crapo. But you do not get out of litigation by 
supporting the biological opinion either, by following it 
either.
    Mr. Smith. No. I mean biological opinions will generate 
litigation, the terms and conditions that are imposed will 
generate litigation. And that is the problem, that we are 
focusing on things that are not solving the problem.
    Mr. Crapo. Thank you. Did anybody else want to comment on 
the question I had?
    Mr. Campbell. Congressman Crapo, I concur totally with Mr. 
Smith's comments concerning the involvement of the States in 
any kind of resolution process. I think one of the primary 
concerns that I have had throughout the last 6 or 7 years that 
the salmon issue has been really on the forefront of Idaho and 
the Northwest Natural Resource law issues is that the Federal 
agencies, despite the fact that they are numerous and diverse 
in their interests and their duties, have primarily ignored the 
States, and as a consequence, ignored the actual citizens of 
the States. So unless the States have a more participatory role 
and have direct authority in any decisionmaking process, not 
just through the Northwest Power Planning Council, but in 
resolution of the problem, I think we are a train heading for a 
wreck. And that is regrettable because when you get right down 
to it, the only winners in the current situation are the 
consultants hired by NMFS and the other agencies, and the 
attorneys that are hired by the people who are ultimately 
impacted by these decisions. And that is not a very positive 
product for our society. It helps me and it helps Bruce and 
other attorneys involved in it because it generates more income 
for us, but from a societal standpoint, it is very negative. 
And I think if we can avoid those kinds of conflicts, we are 
going to be better off.
    One other comment I would like to add from a factual 
standpoint in the context of the consultation issue with the 
Bureau of Reclamation, approximately 6 months ago, NMFS 
requested, actually initially they were going to have it 
outsourced by a consulting company, but the Bureau of 
Reclamation volunteered to provide NMFS with a very bare bones 
study addressing the issue of what water from Idaho would be 
made available from conservation issues or from the elimination 
of irrigation diversions. That study was not, according to John 
Keys of the Bureau of Reclamation, was not designed to tell the 
NMFS that this would not have any negative impacts, yet because 
of that study, which was very bare bones and merely a 
hydrologic evaluation, NMFS has now, from what I have been 
told, focused upon the end result that yes, if you stop all 
diversions in Idaho, you will meet--99 percent of the time, you 
will meet all of the flow targets, the flow goals, that NMFS is 
looking at in the biological opinion, which would require 
termination of two million--excuse me, two million acre-feet of 
storage, as far as use in Idaho. So we are talking about the 
use of two million acre-feet of water presently used in the 
Idaho economy to accomplish that purpose. That study, according 
to John Keys, was not intended for that result, yet NMFS is 
relying upon that study to accomplish that end goal. That is 
very disconcerting to Idaho water users, it is very 
disconcerting to the people who would be directly impacted.
    Mr. Crapo. Thank you. Did either Mr. Grunke or Mr. Wilson 
want to add anything?
    [No response.]
    Mr. Crapo. Let me go back then to Mr. Smith and Mr. 
Campbell and ask you, do either of you see a legislative 
solution? I am back on the how do we get a decisionmaking 
authority in place that involves people effectively. Do you see 
a legislative solution, even the broad outline of anything that 
we ought to be looking at?
    Mr. Smith. Do you mean a legislative solution to the 
decisionmaking process?
    Mr. Crapo. Yeah. What I am thinking is, is there some 
decisionmaking process that we can legislatively create. I do 
not believe that Congress ought to start making these 
decisions, it ought to at least--if it does anything, it ought 
to start trying to figure out what the right process for 
decisionmaking should be.
    Mr. Smith. I remember Senator Hatfield's original address 
to the salmon summit, he said do not look to DC for the 
solution, that it is going to be dependent upon the region and 
the people in the region to come up with the solution. I have 
been at this long enough to recognize that we will have 
direction, participation, cooperation, whatever, from DC. I 
think legislative direction that focuses on solving the problem 
in the Northwest, by people in the Northwest, is probably where 
we are headed or where we should head.
    Mr. Crapo. Both of you have said that you believe the 
States should be involved. I assume you would agree that the 
tribes should also be involved?
    Mr. Smith. Absolutely.
    Mr. Crapo. There is a debate, as I understand it, as to 
whether that is enough. I mean there are groups I believe that 
feel that there should be, in addition, representation on 
whatever decisionmaking body is created, of the specific 
interest groups who have something at stake in the issue. 
Others say well, their interests should be represented by 
whatever government they are a part of and that it would be 
very complicated to try to identify a decisionmaking process 
that had legal decisionmaking authority that identified non-
governmental entities as part of that process.
    Could you comment on that issue?
    Mr. Campbell. Congressman Crapo, from my standpoint, I 
think it will be impossible to ever reach any kind of consensus 
decision to resolve the salmon-steelhead issues if the process 
mandates the involvement of other groups outside of the State 
government level. And I would like to expand upon that just a 
moment.
    If the process allows participation--including the tribes, 
I did not mean to exclude the tribes--if the process allows 
private entities, private interest groups to have a seat at the 
table, then how do you make the decision as to which private 
interest groups are going to have that seat or how many seats 
do you have. And if you have 15 environmental groups and 15 
water user groups and 15 municipal groups and 15 industrial 
groups, as soon as you turn around, it does not take very much 
legal work to form a new organization, a new private, non-
profit corporation that is focused on one little aspect of this 
or has a new name. And then that group has to be involved.
    So I think unless you restrict it to the State governmental 
entities, you know, I have--just reacting here to your 
comment,I am certain it is too simplistic, but my concept is 
get a statute passed in Congress that directs the State 
Governors of the four States impacted--Idaho, Washington, 
Oregon, Montana--to concur on the appointment of one individual 
who would drive the process and not involve the Federal 
agencies except from the standpoint of information to that 
process, so that you have the four State Governors who 
represent all of the citizens.
    Mr. Crapo. And the tribes.
    Mr. Campbell. And the tribes, excuse me, yes and the 
tribes, who represent the citizens in the impacted sovereign 
entities in this region. Reach a consensus as to that one 
person and then that one person drives the process forward and 
that one person is vested with the authority to come up with a 
solution which has the input from the Governors and the tribes.
    Mr. Crapo. And in your scenario there, would that one 
person--I assume it could be a person or a board or would you 
say just one person?
    Mr. Campbell. Well, I think you could have a board, but if 
you have more than three members on the board, you are asking 
for trouble. And I think if you have one person, then all the 
participants, all the Governors and the tribal entities, would 
have to agree upon one who would represent all. So you would 
have less likelihood of having one who represents this group, 
one who represents that group--a three member panel, you would 
have the splintering.
    Mr. Crapo. I see what you mean. And then that person or 
group, whatever it may end up being, would have decisionmaking 
authority.
    Mr. Campbell. With regard to overall solution, keeping in 
context that that solution would have to incorporate and 
consider all of the property rights of the various interests 
throughout the Northwest and evaluate those in the context of 
the States who are represented in the process.
    Mr. Crapo. And if I hear you right, that decisionmaker 
would not be given the ability or the authority to ignore 
current law.
    Mr. Campbell. No.
    Mr. Crapo. The decisionmaker would have to make his or her 
or its decisions consistent with applicable Federal and State 
law.
    Mr. Campbell. Correct.
    Mr. Crapo. So the legal parameters would not change, but 
the decisionmaking process would be changed.
    Mr. Campbell. Correct.
    Mr. Crapo. All right. Mr. Smith.
    Mr. Smith. I had not honestly thought of this until you 
asked the question. I am used to dealing with corporations, 
with businesses. Maybe an arrangement setup like a board of 
directors with a CEO is the kind of approach that might be 
feasible. I absolutely guarantee you there is accountability in 
that setup, and if you have a board that is made up of the 
respective interests, and a CEO or something like that, that 
may be the type of approach that you are looking at.
    And I will tell you, I firmly believe that the tribes have 
a tremendous role to play in this, they cannot be left out of 
it, they have too many interests, they have legitimate rights 
to be there, and they are key to coming up with a solution to 
the recovery effort. So maybe a board of directors and a CEO.
    Mr. Crapo. Well, I appreciate your willingness to speculate 
with me here and to kind of brainstorm, because one of the 
things that we want to do with this hearing is to generate 
ideas and maybe on further reflection those ideas will turn out 
to be good ones or bad ones or have to be modified or adjusted, 
but we are trying to figure out a path forward and what the 
proper role of Congress is in trying to help that path develop 
and become real. And I appreciate your observations.
    Mr. Smith. And of course the CEO stock options are going to 
be something to be seen, so----
    Mr. Crapo. That is right.
    One last question and this is to Mr. Campbell. I wanted to 
followup on your statement about the study with the two million 
acre-feet of storage water that was identified. Do you have 
any--let us assume that that two million acre feet were--that 
the diversions for those two million acre feet for irrigation 
were stopped. Do you have any information that would indicate 
to you what type of an impact on irrigated land that would 
cause? Would it cause some irrigated land to go out of 
production?
    Mr. Campbell. Congressman Crapo, I have not seen anything 
that analyzes the impact upon the State of Idaho, but I do know 
that Idaho has, if I am correct, approximately 5.6 to 6 million 
acre-feet of storage capacity in its various facilities, 
Federal facilities primarily. So if you remove two million 
acre-feet out of a total of six million acre-feet, you are 
cutting out a third of the productive capacity of the State's 
agricultural economy, recognizing that some of that water is 
not just for agriculture, it is for municipal use, industrial 
use, et cetera.
    Mr. Crapo. So there will be impacts beyond agricultural 
impacts.
    Mr. Campbell. Oh, certainly, no question about that. The 
primary impact that I think most people fail to realize is that 
with the priority system that currently is in place in the 
State of Idaho for regulation of water rights, if you take out 
the storage water from the existing systems, then the older 
priority water rights come into play and those older priority 
water rights can force termination of more junior, newer 
groundwater rights including the rights of the cities like 
Treasure Valley. The United Water of Idaho supplies virtually 
all of the municipal water for the city of Boise and all of 
their water rights are much newer, much more junior than the 
old river rights on the Boise River. And if there is 
elimination of some of the storage contracts or attempts by 
NMFS to force the Bureau to release water from the storage 
reservoirs, I have no doubt that I would advise my clients to 
exercise those prior rights to force termination of groundwater 
withdrawals for cities that have potential impacts on those 
supplies.
    Mr. Crapo. And this impact would not just be in 
southeastern Idaho, this would be all along the Snake River.
    Mr. Campbell. Oh, the entire southern portion of the State, 
no question about it.
    Mr. Crapo. Mr. Smith, you wanted to comment?
    Mr. Smith. Yes. In looking at another issue recently on 
this question of taking lands out of production in order to 
increase flows, I will get you the specifics later if you would 
like, but my recollection is that to increase stream flows or 
provide a million acre-feet, required taking 400,000 acres out 
of production.
    Mr. Crapo. And that is a million on top of the 427?
    Mr. Smith. Yes.
    Mr. Crapo. So you would be taking 1.427 million acre-feet 
of water would reduce irrigation by 400,000 acres?
    Mr. Smith. Well, I have to go back, I am not positive about 
that. I remember the million acre-feet of additional water, 
whether it was on top of the 427 or not, I do not know. Now 
that I am thinking about it, I suspect it was not, because I 
think the study was done prior to the 427 figure coming up.
    Mr. Crapo. Okay, if you could get us that information.
    Mr. Smith. I think for a million acre-feet, 400,000 acres.
    Mr. Crapo. And you could get us that study?
    Mr. Smith. Yes.
    Mr. Crapo. Would you please do that?
    Mr. Smith. Yes.
    Mr. Crapo. All right, thank you very much. I have no 
further questions and this panel is excused.
    Okay, our next panel is panel No. 3. All right, panel No. 3 
is Mr. Ken Casavant--excuse me, Doctor----
    Mr. Casavant. I answer to anything.
    Mr. Crapo. I answer to Mike, so--of the Northwest Power 
Planning Council; Mr. Charles Ray, Idaho Rivers United; Dr. 
Steve Bruce, President of the Idaho Steelhead and Salmon 
Unlimited and Mr. Jim Little, who is a grazing permittee. Jim, 
are you representing the Idaho Cattle Association today?
    Mr. Little. Yes.
    Mr. Crapo. And Dr. Rick Williams, Chairman of the 
Independent Scientific Advisory Board.
    Gentlemen, we welcome you here and we will proceed in that 
order.

STATEMENT OF DR. KEN CASAVANT, COUNCIL MEMBER, NORTHWEST POWER 
                        PLANNING COUNCIL

    Mr. Casavant. Chairman Crapo, members of the Committee, my 
name is Ken Casavant. I am one of Washington's two members on 
the Northwest Power Planning Council. I also serve as the Chair 
of the Council's Fish and Wildlife Committee. I am here today 
speaking not for the Council, but for the State of Washington.
    By trade, I am an agricultural economist and have taught ag 
econ at Washington State University for the past 25 years.
    When I was asked to come before you to provide my thoughts 
on how we might better govern the Columbia River, the economist 
in me immediately saw an opportunity to theorize and give you, 
on one hand or the other--as you know, we economists love to 
theorize. However, the novice politician in me took over and 
suggested I lay out for you some of the strengths, of which 
there are few, and weaknesses, of which there are many, of the 
current amalgamation of governing entities and venues. The 
first part of my presentation will cover this ground. I will 
then try and give you my thoughts on what the best single 
Columbia River governing body would look like. I then will 
conclude, depending on time, with a description of what the 
Council and its partners are doing in the meantime to ensure 
that the region gets what it is paying for.
    As you know, Mr. Chairman, there are three separate 
sovereign governments with jurisdiction over some part of the 
Columbia River system--the States, primarily through the 
Northwest Power Act; the Indian tribes through their treaties 
and trust relationships with the U.S. government; and the 
Federal Government via the ESA. The jurisdictional and 
philosophical conflicts between the Power Act, the ESA and 
treaties are indeed the crux of our regional controversies.
    Historically, the Federal Government's presence on the 
river was limited to the Army Corps of Engineers, the Bureau of 
Reclamation and BPA, all of which either ran dams or sold the 
power from those dams. In 1991, NMFS listed the Snake River 
sockeye as endangered and the political atmosphere in the 
Columbia Basin probably was forever changed. As new species 
continue to be listed, as in the recent steelhead listing, 
NMFS' authority only expands and solidifies. For all intents 
and purposes, NMFS, through the ESA, runs the Columbia River.
    This is not a very positive outcome for many in our part of 
the country. Some believe the ESA does too much for listed fish 
at the expense of people, jobs and resident and unlisted fish. 
Others believe that NMFS is not doing enough to restore healthy 
fish populations to the basin. The nature of this debate over 
river management eventually caused NMFS to create what is 
called the Executive Committee, a group of high level 
representatives of the Federal, State, tribal governments with 
a stake in the implementation of the biological opinion. This 
is supported by the implementation team, comprised of high 
level staffers which have been quite successful in resolving 
most disputes and disagreements. While not a cure-all by any 
means, the Executive Committee process has been a relatively 
effective creation in that it has provided a more open forum 
for discussion and disagreement among the sovereigns than had 
previously existed.
    Make no mistake, the ESA and NMFS are firmly in control of 
river operations and decisionmaking. As my friend and colleague 
from Montana, Stan Grace, told you a couple of weeks ago, NMFS' 
decisions this year on hydro operations left Montana asking for 
relief from summer releases from water from two of its large 
storage reservoirs. After consultation with the Executive 
Committee, NMFS did not grant that relief and Montana saw fit 
to exit the Executive Committee for other options, including 
Federal legislation. The four lower Columbia River treaty 
tribes soon followed suit, but for entirely different reasons. 
Such is the state of Federal management of the river.
    The States' role over the past decade and a half has been 
represented primarily by our Power Planning Council, which was 
directed by the Power Act to prepare a program to protect, 
mitigate and enhance fish and wildlife and related spawning 
grounds and habitat that have been affected by the construction 
and operation of hydroelectric dams in the Columbia River 
Basin.
    Our fish and wildlife program does not address solely the 
recovery of listed species, rather it focuses more broadly on 
the health and diversity of fish and wildlife populations. This 
generates clear conflicts between the ESA and our 
responsibilities under the Power Act. Our program is often 
trumped by the implementation of operations consistent with 
NMFS' biological opinion. We need more authority to implement 
the fish and wildlife program of the Council.
    The Indian tribes' roles are more difficult to describe. 
They are co-managers of fish and wildlife on the State level. 
They have reserved the treaty rights to fish at usual and 
accustomed places, they expected fish to catch. As the runs 
declined and fewer fish were caught, the Federal courts have 
been the most familiar venues for tribal involvement. While I 
cannot speak for them, I have heard tribal leaders express an 
increased willingness to exercise the rights they reserved in 
the Treaty of 1855.
    To hasten resolution of the governance crisis, the region's 
four Governors recently requested representatives of the three 
sovereigns to come together to try and develop a prototype for 
regional government. I represent the State of Washington on 
that and interestingly enough, one of the five options is a 
broadened non-ESA focused process, including alternative 
dispute resolution that we are looking at.
    My personal opinion is that we need a focus, we need an 
inclusive process, one that puts the State and tribes on equal 
footing with the Federal Government. We are attempting to do 
that now.
    I can see I have gone over my time limits, so I will 
conclude my oral testimony here. I have submitted copies to the 
staff. Thank you.
    Mr. Crapo. We have those copies and we will have time 
during questions to get into this concept a little more fully, 
so thank you.
    Mr. Ray.
    [The prepared statement of Dr. Casavant may be found at end 
of hearing.]

         STATEMENT OF CHARLES RAY, IDAHO RIVERS UNITED

    Mr. Ray. Thank you. My name is Charles Ray, I represent the 
members and the Board of Directors of Idaho Rivers United, a 
private, non-profit conservation organization. We are working 
to restore salmon and steelhead populations, the ecosystems on 
which they depend and with that we are also working to restore 
the economies, cultures and traditions that depend on healthy, 
self-sustaining fishable runs. I thank you for this opportunity 
to be here today.
    The National Marine Fisheries Service has been in charge, 
in one way or the other, for salmon and steelhead management on 
the Columbia River for over 20 years. It has been nearly 6 
years since salmon were listed for ESA protection and it is 
probably going on 6 days since Idaho steelhead were listed. 
After all that time, the fish are nearly gone. If the early 
predictors prove true, the 1998 return of salmon will be the 
new lowest in history. It is clear to us that NMFS has failed 
in its primary mission to protect and restore the species and 
the habitat on which it depends.
    The continued decline of these fish runs has caused an 
immense disruption of entire riverine ecosystems, it has nearly 
bankrupted the Pacific Northwest sport and commercial fishing 
industry, loss of harvestable runs abrogates treaties with 
tribes going back to 1855 and it threatens resolution of the 
current U.S./Canada treaty dispute.
    The Federal Government's inability or unwillingness to keep 
the promises that it made dating back to 1855 of protecting and 
restoring the fish has further eroded public confidence in the 
government and its elected officials. I think there is a big 
role for Congress to play. I do not think NMFS has demonstrated 
the ability, the willingness or the institutional courage to 
begin climbing out of this mess we are in right now.
    We certainly appreciate this Subcommittee's interest in the 
performance of NMFS. We invite continuing oversight, we think 
there is a lot of opportunities for Congress to step in. We 
recommend six measures that need to take place right now to put 
us on the road to restoring these fish, the habitat and the 
economies that depend on them. Four of those are detailed in my 
written comments, I will go over those briefly, and I will add 
two more.
    NMFS must prioritize the focus of the recovery actions, No. 
1. As we have heard, NMFS looks equally with one cow stepping 
on a redd as compared to 99 percent mortality inflicted by the 
dams. That cannot go on.
    I think it is time for Congress to step in and help NMFS 
eliminate its juvenile fish barging program. The agency--the 
fish barging program is an invention of NMFS, they cling 
desperately to it and they will not put it down unless they are 
forced to, despite overwhelming scientific evidence that it 
will not bring the fish runs back, despite the total lack of 
evidence indicating that barging could achieve 2 to 6 percent 
smolt adult ratio that is necessary to restore the runs.
    NMFS must preserve the integrity of the 1999 decision that 
we are approaching, particularly NMFS must state clearly, if it 
is able to, exactly what it means by the improved 
transportation alternative. What is it, what will it yield, 
what promise does it have of success.
    No. 4, Congress must clarify the authorization of Federal 
dams to allow modification of structure and operation needed to 
improve salmon and steelhead survival. The Corps continually 
hides behind this wall that they have created of lack of 
authorization to do anything other than the status quo. I do 
not believe that, it has not been tested in court, but I think 
Congress could remove this obstacle real easily just by 
clarifying the Corps' authorization. I think that might also, 
as a byproduct, instill a little more institutional courage in 
NMFS to buck the Corps.
    No. 5, I think it is time right now for the salmon 
managers, the fishery managers, of the NMFS, the Power Planning 
Council and the tribes, to reconcile the three recovery plans 
that we have on the table right now. After those three plans 
are reconciled into one scientifically credible plan that 
promises restoration of these fish, then I think it is time to 
overhaul the governance system that we have right now. The TMT-
ITEC process is clearly a failure, it is clearly unworkable and 
on the basis of a reconciled recovery plan, I think we can put 
together the three sovereigns, the States, the tribes and the 
Federal Government, in equal co-management roles to implement, 
as soon as possible and as expeditiously as possible, the 
single recovery plan that will restore these fish.
    Thank you.
    Mr. Crapo. Thank you. That was your No. 6, right, the three 
sovereigns in equal roles?
    Mr. Ray. Yes, that is No. 6.
    Mr. Crapo. All right.
    Mr. Ray. No. 5 is to reconcile the plans.
    Mr. Crapo. Right, thank you. Mr. Bruce.
    [The prepared statement of Mr. Ray may be found at end of 
hearing.]

 STATEMENT DR. STEVEN M. BRUCE, PRESIDENT, IDAHO STEELHEAD AND 
                        SALMON UNLIMITED

    Dr. Bruce. Representative Crapo, I would first like to 
thank you for holding this Subcommittee meeting here in Boise 
and allowing me to testify on this important issue.
    My name is Steve Bruce, I am a practicing dentist in Boise 
and I am currently representing Idaho Salmon and Steelhead 
Unlimited. I am currently serving as President of this 
organization.
    ISSU is a non-profit educational, scientific and charitable 
organization formed in 1985 in an effort to unite all concerned 
citizens in the State of Idaho into one cohesive group for the 
purpose of restoring, protecting and preserving Idaho raised 
salmon and steelhead.
    This past Tuesday, the National Marine Fisheries Service 
announced that Snake River steelhead, as well as several other 
west coast steelhead stocks, were being listed as threatened 
under the Endangered Species Act. This has occurred in spite of 
the fact that NMFS listed Snake River salmon 6 years ago and 
has been ultimately responsible for their recovery since that 
time. The frustrating part of this whole scenario is that Snake 
River salmon and steelhead migrate, spawn and rear in the same 
rivers and streams and anything that is done to benefit Idaho 
salmon will almost always benefit Idaho steelhead as well.
    While it is true that Idaho enjoyed a good return of 
hatchery salmon this year, it is still a fact that our wild 
runs are in very bad shape. The predictions for the runs the 
next several years are dismal, to say the least. The wild runs 
of steelhead are also in very critical condition. All of this 
is occurring while we have a NMFS administered recovery plan in 
place which is supposedly going to recover our salmon runs.
    If a management team working for a major corporation had a 
track record similar to this, I have no doubt they would be 
replaced. We feel that it is time that NMFS be replaced.
    We feel that under the current system, the best 
recommendations from State and tribal scientists are often 
ignored. A good example of this was a regional plan developed 
this spring by the States of Idaho, Oregon and Washington as 
well as the tribes. This plan called for leaving more smolts in 
the river to migrate to the ocean rather than be collected and 
trucked or barged down the river. With the abundant water we 
had this spring, it was felt by the scientists that leaving 
more fish in the river to migrate naturally would result in 
better returns as adults. Unfortunately, NMFS paid little 
attention to this plan and went about business as usual--that 
is, collecting and barging the majority of juvenile fish.
    We certainly need to get away from the current system where 
it seems that many different entities are making decisions 
which sometimes are contrary to each other. With NMFS, BPA, the 
Army Corps of Engineers, the Northwest Power Planning Council, 
the States, the U.S. Forest Service and others, all coming up 
with different plans, it is no wonder we have generated 
literally thousands of studies, reports, et cetera while our 
fish continue to slide closer to extinction.
    We feel that it is time that the regional experts be given 
the responsibility of recovering Columbia River salmon and 
steelhead. These experts that work for the fisheries 
departments of the States of Idaho, Oregon and Washington and 
the tribes are the best qualified for the job. These salmon 
managers should be responsible for all recovery efforts once 
the salmon enter fresh water.
    It would seem logical that NMFS would retain responsibility 
for recovery efforts in management of salmon stocks while in 
the ocean. It would also seem logical that a representative 
from the U.S. Fish and Wildlife Service would be part of this 
freshwater team. They would be able to coordinate Federal and 
State efforts and since they are responsible for other listed 
species such as bull trout, white sturgeon, grizzly bears, et 
cetera, it would seem that they would be the obvious choice.
    The issue of the salmon cost cap is another topic that we 
feel needs to be discussed. We appreciate the fact that only so 
much money is available for salmon recovery, but we feel that 
the public should get an honest explanation of this cost cap. 
Much of the reported $450 million cost for salmon and steelhead 
recovery is in foregone revenue. That is, dollars that were not 
received because water was allowed to pass over spillways 
rather than through turbines.
    Obviously the past 2 years of higher than normal flows have 
resulted in this figure for this foregone revenue being much 
lower than in drought years. Why has the public not heard about 
this? Are these dollars that were not used toward the cost cap 
available in low water years? When is the government also going 
to let the public know what the value of foregone revenue is 
for irrigation withdrawals, navigation locks operation, et 
cetera? Why is it that foregone revenue is charged only to fish 
and not to other water users?
    In recent years, many millions of dollars have been spent 
and are proposed to be spent on the fish barging system. We 
feel this is a mistake and will continue the gold plating of 
this system, thus giving prejudice to the transportation 
scenario versus in-river migration when the scheduled decision 
is ultimately made in 1999.
    Barging proponents have recently been stating that the 
barging is more successful than in-river migration based on 
early PIT-tag studies. Unfortunately, the smolt to adult return 
ratio of one-half of 1 percent for barged fish is far below the 
2 percent ratio that the independent scientific group says is 
necessary to halt their decline and is not even close to the 4 
to 6 percent ratio needed to restore them.
    Unfortunately the National Marine Fisheries Service's claim 
that fish barging works is based on asking the wrong question. 
NMFS asked if barging and trucking worked better than leaving 
fish in a river made lethal by dams and slack water reservoirs. 
The right question is will barging and trucking salmon and 
steelhead ever restore fish populations as required by law and 
treaty and as demanded by the citizens of the Northwest. Our 
choice cannot be between a failed barging strategy and a lethal 
river, neither of which will restore the fish. The 
decisionmakers should be asking what fish need, under what 
conditions do they thrive and how can we expand those 
conditions.
    In conclusion, I would like to thank you once again for 
this opportunity to speak with you today and I trust that you 
will make the right decisions to protect this unique resource, 
which has been such a special part of our Idaho heritage for 
many generations.
    Thank you.
    Mr. Crapo. Thank you, Mr. Bruce. Mr. Little.
    [The prepared statement of Dr. Bruce may be found at end of 
hearing.]

   STATEMENT OF JIM LITTLE, GRAZING PERMITTEE, IDAHO CATTLE 
                          ASSOCIATION

    Mr. Little. Thank you. Good morning, Congressman Crapo, my 
name is Jim Little and I am a third-generation rancher from 
Emmett, Idaho. I am a grazing permittee that has a forest 
permit to graze livestock during the summer months on Bear 
Valley Creek on the upper end of the middle fork of the Salmon 
River in the Boise National Forest. This area is prime spawning 
ground for the spring chinook salmon that is currently listed 
as endangered by the National Marine Fisheries Service. I also 
serve as Idaho's obligatory member on the Pacific Fisheries 
Management Council and I am a past chairman of the Private 
Property Rights and Environmental Management Committee of the 
National Cattlemen's Beef Association.
    I am here today to comment on the process of dealing with 
the Endangered Species Act as it pertains to salmon and the 
National Marine Fisheries Service.
    The middle fork of the Salmon River has long been noted as 
prime spawning and rearing habitat for the wild spring chinook. 
It takes on additional significance because there have been no 
hatchery fish put into that gene pool that would dilute their 
significance. In the 1980's, the Forest Service put a lot of 
significance on the importance of enhancing and restoring 
stream and stream bank health and through that heightening of 
our awareness, we jointly developed a grazing system that would 
allow us to maintain an economically viable cattle operation. 
The spring chinook was officially listed in the early 1990's 
and from that time forward, our grazing in that allotment has 
become much less certain.
    The Boise National Forest, through a commitment by then 
Supervisor Steve Mealey, set up an elaborate and extremely 
expensive monitoring system that was supposed to let them as 
well as us know if we were on the right track toward improving 
the habitat necessary for the fish to have a better hatching 
and rearing survival than current documentation showed. NMFS, 
as the agency in charge of anadromous species, became a serious 
impediment to the certainty that we need when making management 
decisions. They would delay until the very last minute giving 
the Forest Service an answer as to whether their planned 
grazing strategy had the blessing of the regulators in charge.
    In 1996, the Elk Creek Grazing Association was denied the 
right to graze because Boise National Forest and NMFS could not 
agree on an acceptable grazing strategy. This was done through 
a lawsuit filed by several environmental groups on behalf of 
NMFS. This would be our worst nightmare, at the last minute 
being denied a place to graze our breeding herd during a severe 
down market and virtually no other options available.
    In our cattle operation, as in nearly all in the west, we 
have a year-around plan. This plan includes summer grass that 
rests the winter range so that it regains vigor and has the 
necessary rest to sustain itself during the months of livestock 
use. Without that rest, the winter range becomes stressed and 
the pasture quality declines, as well as the wildlife habitat 
that goes with that land mass.
    Currently, the grazing permittees in the Bear Valley Basin, 
the National Marine Fisheries Service, the Boise Forest and the 
National Riparian Review Team are involved in a process to 
determine whether we can continue to graze in Bear Valley. On a 
3-day tour this past week, the above representatives as well as 
a staff member from the Pacific Rivers Council and a staff 
person from U.S. Senator Dirk Kempthorne's office attended and 
we learned that nearly all of the stream banks in question were 
on an improving trend, which tells me that the grazing strategy 
that we and the Boise Forest put together and we as grazing 
permittees agreed to is proper. The descriptive term that is 
used, however, is functioning at risk, and that is not enough 
to satisfy the NMFS people. So the national team will be back 
next month to see if there is a way to give us a certainty that 
we either can or cannot return to Bear Valley in the future.
    One suggestion by the NMFS representative was to put in 16-
miles of fence in an allotment that is mainly used in the Frank 
Church Wilderness. This would preclude use of any mechanical 
equipment in that fence construction, which would make the 
proposed project totally cost-prohibitive and it is doubtful 
that this type of outlay would satisfy the regulators enough 
that they would give the grazer any longer term assurances and 
that he would be left alone.
    One other wildcard is the reintroduction of wolves by the 
U.S. Fish and Wildlife Service that could potentially harass 
the livestock and run them through any fence that might stand 
in their way.
    Congressman, we have purchased these grazing permits to 
allow us to graze our livestock. While the U.S. Forest Service 
does not recognize permit value, let me assure you that the 
Internal Revenue Service does, and so we are left in a very 
uncomfortable position wondering if we will lose these assets. 
We have always spent money every year doing maintenance and 
improvements to continue to enhance the value of our 
allotments, but in this period of uncertainty, we are not 
interested in spending a dime over the bare bones minimum to 
get by. As an example, our log cabin needs maintenance, but if 
we are not given any more assurance than we currently have, I 
do not want to put money down a rat hole. If the agencies 
involved do not come to terms, I can only envision walking away 
from all the improvements and investment that we have put in 
and maintained and even though the cabin is on Valley County 
tax rolls, it is on U.S. Forest Service property and will have 
no value.
    I seriously believe that the involvement of Senator 
Kempthorne's office has done more to get this process moving 
than anything else that has happened. In the past year, NMFS 
has given the impression that they were arrogant and would give 
the Forest Service an answer whenever they were good and ready 
and not before. This kind of lack of caring by the managing 
agency is one of the reasons that Senator Kempthorne is working 
on the reauthorizing of the Endangered Species Act to make the 
process function better.
    In conclusion, we as permittees on the Boise Forest feel 
that progress is finally happening toward clarifying where we 
stand in regards to our future as grazers in critical habitat. 
Our problems are in some fashion repeated all over the 
northwest and we deserve reasonable certainty that we will be 
able to continue making a living off the land while doing our 
part to restore the anadromous fish runs in the northwest.
    Thank you.
    Mr. Crapo. Thank you, Mr. Little. Mr. Williams.
    [The prepared statement of Mr. Little may be found at end 
of hearing.]

  STATEMENT OF DR. RICHARD N. WILLIAMS, CHAIRMAN, INDEPENDENT 
                   SCIENTIFIC ADVISORY BOARD

    Dr. Williams. Congressman Crapo, members of the 
Subcommittee, it is a pleasure to see you this morning and to 
be able to speak with you.
    My name is Dr. Rick Williams, my academic and research 
background lies in ecology and genetics of salmon and trout 
species native to western North America. I serve as Chair of 
the ISAB, the Independent Scientific Advisory Board, and the 
ISRP, the Independent Scientific Review Panel, and speak to you 
today in that capacity.
    I am going to talk today briefly about the role of science 
in salmon recovery, an existing scientific consensus about how 
to move forward on salmon recovery and finally on the need for 
a single regional recovery plan.
    The Northwest Power Planning Council and the National 
Marine Fisheries Service created the ISAB in 1996 to provide 
scientific advice on salmon recovery issues to the Pacific 
Northwest. The ISRP was formed in early 1997 as a result of a 
Congressional amendment to the Northwest Power Act. The ISRP 
assists the Power Council in peer review of its fish and 
wildlife program and of specific projects.
    The 14 members of the two science groups are all senior 
scientists from the United States and Canada with wide 
expertise in fisheries, ecology, statistics and economics. We 
differ from other groups of scientists in the basin due to our 
independent nature, our non-representational status and a 
consensus mode of operation.
    The Northwest Power Planning Council and the National 
Marine Fisheries Service are committed to using the best 
available scientific information to guide program development 
for salmon recovery. Both groups have worked closely with us 
toward that end. Recent reviews of the Council's fish and 
wildlife program, be they ISAB and ISRP, which are attached to 
this testimony, appear to be influencing the program's future 
direction. Interactions between NMFS and the ISAB have also 
been positive to this point and indicate that our reviews are 
influencing their program emphasis and direction as well.
    The positive interactions are in contrast to reactions from 
some agency and tribal constituents who have offered sharp 
criticisms of our reports, even to the point of calling for a 
complete rejection of the reports and dismissal of the ISAB or 
ISRP. Although the region has uniformly advocated using peer 
review and the best available science to guide program 
development and implementation, to do so is clearly a difficult 
task with hard choices that may affect many traditional 
fisheries management actions and programs.
    To a great degree, salmon recovery actions within the 
region have been forestalled by a continuing intractable debate 
that centers unnecessarily on scientific uncertainty or a 
perception of disagreement among scientists. The focus of the 
debate needs to shift to implementation of recovery actions in 
areas where scientific consensus exists and to the design of 
specific research projects that resolve issues where 
disagreement or uncertainty exist.
    Recent reviews of the salmon problem by the ISAB, a 
National Research Council panel and others identify substantial 
areas of scientific consensus where the region could move 
forward on effective restoration actions.
    The Northwest Power Act of 1981 and the Endangered Species 
Act form the basis for regional salmon recovery efforts. The 
Northwest Power Act suggests a broad perspective calling for 
the river to be treated as a system and addresses broad-scale 
problems resulting from hydro-electric development. In 
contrast, the ESA focuses more narrowly on restoration of 
specific populations listed under the Act, although it includes 
all factors affecting these populations, not just hydropower 
development. Consequently, the restoration programs of the 
Council and NMFS are not well-coordinated. Additionally, the 
emergency nature of actions under the ESA has resulted in near 
abandonment of the broader regional restoration objectives of 
the Council's program. However, the perspective of the two laws 
and goals of the two administering organizations are not 
incompatible and indeed, should be complementary.
    Measurable progress toward regional salmon recovery is 
unlikely with the existence of several recovery plans which 
compete for limited funds. The region needs a single salmon 
recovery plan that encompasses the differing needs of the Power 
Act, the ESA, as well as treaty obligations to the tribes. A 
single plan must additionally have the support of all 
constituents in the basin in order to have the political 
support necessary for it to persist and to provide a likelihood 
of success. The plan must also be based on the best available 
science. Too often political pressure and compromise has led to 
implementation of less viable alternatives that not 
surprisingly fail to achieve the desired objectives.
    A recovery plan based on the best available science, backed 
by the support of all regional constituents, and implemented 
with rigorous monitoring and evaluation, would be a powerful 
force for salmon recovery. The architecture for such a recovery 
program is in place. Scientific and technical groups such as 
the ISAB, the ISRP and PATH have already identified and can 
continue to identify the best scientific information and 
analyses to aid and guide salmon recovery efforts.
    The role of the Northwest Power Planning Council in guiding 
implementation of salmon recovery measures has recently been 
expanded through the Congressional amendment to the Power Act. 
Ongoing ESA listings argue that NMFS' role in implementing 
actions to recover weak stocks will continue to increase. 
Therefore, it seems paramount that a forum be identified 
whereby the recovery goals of the Council's fish and wildlife 
program, NMFS' ESA driven actions and tribal obligations can 
become complementary parts of a single unified salmon recovery 
program.
    The biggest challenge facing the region is not the 
biological uncertainties associated with salmon recovery 
efforts, but is whether the region is willing to face the fact 
that we can no longer have our cake and eat it too. Restoration 
of fish and wildlife in the Columbia River Basin will require 
difficult decisions and will test whether the region's 
policymakers, elected officials and management institutions can 
find the political will and strength necessary to endorse and 
implement a scientifically sound salmon recovery program.
    Thank you for the opportunity to speak today.
    [The prepared statement of Dr. Williams may be found at end 
of hearing.]
    Mr. Crapo. Thank you, Mr. Williams, and I thank all of the 
members of the panel for their testimony.
    As I did before, I want to go through with each of you just 
a couple of specific questions and then have a discussion with 
the panel on some of the issues that have been presented.
    Dr. Casavant, you indicated, as have some of the others, 
that for all practical purposes, NMFS runs the Columbia River. 
Am I correct about that?
    Mr. Casavant. The direct components and the hydro 
operations, that is correct.
    Mr. Crapo. And is that essentially because NMFS basically 
has the ability to control the biological opinion and the other 
operating agencies, for one reason or another, comply?
    Mr. Casavant. That is correct, under the existing statutes.
    Mr. Crapo. Mr. Williams just indicated that there is not 
necessarily a conflict between the Northwest Power Planning Act 
and the Endangered Species Act, but that we need to move--and I 
do not want to put words in Mr. Williams' mouth, but we need to 
move toward a system in which those acts are more effectively 
operated together.
    I take your testimony to say that you do not believe that 
the Northwest Power Planning Council has sufficient authority 
in terms of the management decisions that need to be made with 
re-

gard to fish and wildlife and hydropower management, is that 
correct?
    Mr. Casavant. That is correct, and in two ways, 
Congressman.
    Mr. Crapo. Would you please elaborate?
    Mr. Casavant. The first is that the relationship of the 
Power Council to the operating agencies has always been one of 
almost advisory capacity where the operating agencies, the BPA, 
are to take into account our program. But we have always had 
the responsibility but not specific authority to call forth the 
full implementation of our fish and wildlife program.
    Secondly, relative to NMFS, we are looking at the entire 
Columbia and Snake River basin, we want to restore, rebuild, 
protect, mitigate, enhance throughout that region. At times, 
the activities concerned with saving the listed stocks may 
create conflicts with resident fish up river or in other areas, 
or non-listed anadromous fish.
    Mr. Crapo. You just said at times that conflict occurs. 
Does that happen regularly?
    Mr. Casavant. The potential always exists. Periodically, 
whether it is impacts of hydro operations on Lake Roosevelt 
Reservoir in my State or in the two storage dams in Montana, we 
think we do see impacts on resident fish, whether through 
entrainment or nutrient retention times.
    Mr. Crapo. Okay, and Mr. Ray, if you could take the 
microphone for a minute.
    Mr. Ray. Yes.
    Mr. Crapo. You also indicated--and I just wanted to make 
sure I understood this correctly--you also indicated that you 
believed essentially for 20 years or so in one way or another, 
but especially since the Endangered Species listing that 
National Marine Fisheries Service has effectively controlled 
the management of the river; is that correct?
    Mr. Ray. I do not believe they have been very effective in 
managing the river at all. If so, we would not be here today.
    Mr. Crapo. But that they have, for all practical purposes, 
controlled the management of the river.
    Mr. Ray. I believe in reality, the river is still 
controlled by the Bonneville Power Administration and the Corps 
of Engineers.
    Mr. Crapo. And how do you square that with your comments as 
well as those of Dr. Casavant with regard to the influence that 
NMFS has over the management and control of the river?
    Mr. Ray. I believe NMFS has some influence. NMFS makes 
suggestions. I think the bottom line, when it comes right down 
to it, the Corps does what it wants to and NMFS is seldom able 
to buck what the Corps wants to do. That is why I believe that 
Congress could exert a great deal of influence by clarifying 
the authorization of these dams on the lower Snake and Columbia 
Rivers to make the Corps a little more amenable to changes that 
are necessary to restore these fish. And it needs to be done 
quickly too.
    Mr. Crapo. All right. And you gave six recommendations in 
your testimony.
    Mr. Ray. Yes.
    Mr. Crapo. In your recommendation No. 2, you indicated that 
NMFS must eliminate its juvenile fish barging program and 
return the fish to a significantly less lethal river and you 
stated that there was very little evidence in support of NMFS' 
current emphasis on barging. It is my understanding--and again, 
NMFS is going to be able to testify later today about this--but 
it is my understanding that NMFS' contention is that given the 
current status of information we have, that the barged salmon 
return more effectively than the salmon which were not barged, 
do you have a comment on that?
    Mr. Ray. I believe NMFS can probably trot out some numbers 
to that effect and whether or not they are scientifically 
valid--probably Dr. Williams would be a better judge of that.
    Mr. Crapo. I am going to ask him too.
    Mr. Ray. But I have never seen NMFS or anybody else come 
forth with any kind of--not a single shred of evidence that 
indicates that barging can achieve a 2 to 6 percent smolt to 
adult ratio that the Idaho Department of Fish and Game and I 
believe the PATH members concur is necessary to restore these 
fish runs.
    Mr. Crapo. Do we have data--were you finished?
    Mr. Ray. Pardon me?
    Mr. Crapo. Were you finished?
    Mr. Ray. Yes, I am.
    Mr. Crapo. Do we have data on--or significant data--and by 
the way, I am going to come back to you with these questions, 
Mr. Williams, so remind me to ask them to you if I forget. But 
do we have data on the effective returns of fish who are 
allowed to go through basically the spill program that the 
State of Idaho was proposing to be studied more effectively in 
the last proposal? Here is the question I am getting at. The 
National Marine Fisheries Service indicates that the current 
data they have show that the barged fish return more 
effectively. What I understood you to just say and what I 
understand Dr. Bruce to be saying also is that we do not have 
data on a river that is more normative and I understand that, 
but do we have--there has been a debate over whether to spill 
fish or whether to barge fish. Do we have data on the spill 
issue? Do you see what I am asking?
    Mr. Ray. Yes, I do see what you are asking. If my 
recollection is correct, Harza Engineering put forth some 
preliminary work on that and it had to do with fish that--
juvenile fish, PIT-tag juvenile fish that were not detected 
anywhere down the system, which presumably means they were 
spilled going down the river, compared to those same fish 
coming back as adults. If my recollection is correct, Harza 
concluded that those fish come back fairly successfully. The 
numbers I do not remember.
    Mr. Crapo. All right. Before I forget these questions, Dr. 
Williams, let me move to you for just a moment, and we will 
come back to you, Mr. Ray.
    Dr. Williams. I could just follow up on what Charlie is 
talking about.
    Mr. Crapo. Why do you not just follow up on that line of 
questioning.
    Dr. Williams. I think several things are being confused 
here. The first item is that yes, NMFS does have data that 
appear to be scientifically valid that now show, based on this 
year's returning class of fish, using the current PIT-tag 
technology, about a two-to-one benefit ratio of transported to 
in-river passage. So the simple answer is yes, it looks like 
the transported fish have a higher survival. But that is not to 
say--and I think that is the point that Charlie was trying to 
get at--that that level is sufficient to lead to restoration. 
It still does not get us to the 2 to 6 percent return, adult 
return rate that is necessary for restoration. And many people 
in the region tend to confuse those two points.
    The second thing is the discussion about spill and the 
Harza data do indicate, and our own analysis that the ISG did 
in Return to the River, was that spill is in fact the most 
benign method of passage for juveniles around a hydro project--
over it, I guess it would actually be. But a fish left to move 
down the river in-river will not necessarily go around each dam 
by spill. They can also possibly go through the turbines, 
through the bypass systems and there are, in many instances, 
dam-specific higher mortalities associated with those alternate 
routes of passage.
    So to simplistically talk about fish that are better off 
in-river versus the dams confounds the different routes of 
passage that in-river fish can have through the projects, some 
of which are benign and many of which are not. We have had a 
very hard time as a region gathering data on those routes of 
passage until the advent of the PIT-tag technology, which you 
and I had a chance to see at Lower Granite, and that 
information, particularly as we move forward in installing 
additional PIT-tag detectors throughout the system, we should 
gain considerably more insight into mortalities associated with 
various routes of passage.
    Mr. Crapo. Well, here is the question that I am trying to 
get straight in my mind, because I have these conversations 
with different points--people with different points of view on 
what is the best route of passage. And as you know, in the 
Idaho plan or Idaho policy, there was significant consensus 
that we should do more spilling. NMFS did not agree with that, 
and if I understand their position correctly, it is because of 
this two to one ratio that they have showing that barging--
barged fish return better. The question I have is is the two-
to-one ratio, barging versus spilled fish? You are saying no. 
Could you explain that?
    Dr. Williams. No. Again, it gets back to, it is the 
comparison of those transported versus those that have gone in-
river. And as I just commented, in-river could be spill, 
turbine passage, bypass system passage, and both turbine and 
bypass passage in many instances are particularly tough on 
smolts.
    Mr. Crapo. Did I hear you say that it is your opinion that 
the most benign form of passage of a facility is spill?
    Dr. Williams. Yes. However----
    Mr. Crapo. However, you cannot make sure that all fish are 
spilled at all dams?
    Dr. Williams. Yes, that is part of it and then the other 
thing is that in high to higher water years, as several of the 
last years have been, gas saturation starts to buildup as spill 
builds up. So there is clearly a fine point, probably in the 
mid-range of flows, where spill is the optimum route of 
passage. At low water years, bypass around the facilities is 
difficult for the smolts, period. There is not enough water to 
spill and so the fish are faced with either turbine bypass, 
going through the bypass systems or the barge transpor-

tation system. At very high water, we get gas saturation levels 
at some facilities that will reach 140 to 145 percent. There is 
great argument in the region right now about what level smolts 
can withstand but there is general agreement that anything over 
125 and certainly levels up toward 140 are lethal.
    Mr. Crapo. So tell me if I can correctly restate what I am 
learning here. In your opinion, if we could assure that all 
fish were spilled at all dams, that would be preferable to 
barging the fish.
    Dr. Williams. Assuming it was within the----
    Mr. Crapo. And assuming the gas levels--were within the 
right saturated gas levels.
    Dr. Williams. Right. And indeed the new work on surface 
collectors is built on that premise, that we need to find a 
mechanical means of increasing the ability of smolts to find 
the spill bypass route.
    Mr. Crapo. Do you believe we should continue the effort on 
the surface collector research?
    Dr. Williams. At this point, yes, but neither I or any of 
our group have seen any of this year's data. Reading the 
summary statements from Mr. Stelle's testimony, it appears that 
the results from the first 2 years were not very promising, but 
it is based on a sound biological premise and at least the 
preliminary data that I saw this spring during a site visit, 
were very encouraging. So that needs to be followed with very 
rigorous monitoring and evaluation of whether those systems are 
worth what they are costing us in terms of time and money.
    Mr. Crapo. All right. Now I do not know whether you are in 
a position where it is proper for you to take a position or 
whether you have already done this, but I will ask you and you 
can tell me whether you feel that it is beyond your prerogative 
at this point, but have you taken a position on the Idaho 
policy that the State of Idaho worked out with Governor Batt?
    Dr. Williams. No, we have not.
    Mr. Crapo. Are there any studies that try to resolve this 
flow survival relationship that are currently underway?
    Dr. Williams. No, although there has been a great deal of 
discussion, of course, about the need for that and we have had 
discussions with both Council members, Council staff and NMFS 
staff about the need for it. It has been intimated that the 
ISAB would be asked to try and help reach resolution on the 
flow issues. We have some new analyses we have been doing 
ourselves while we are trying to finalize publication of Return 
to the River. But we have not had a formal request to try and 
resolve that issue and no one else, to my mind--PATH probably 
has done a great deal of work on that issue as well, but it has 
not been definitively looked at.
    Mr. Crapo. And is there any effort to develop data 
regarding managing hatchery stocks versus the wild fish?
    Dr. Williams. Actually there have been a number of efforts, 
including some of our own work, to try and address those, but 
there has yet to be a good comprehensive review and evaluation 
of hatcheries and their impacts on wild stocks. Such a review 
would help define how--what we might expect to gain from 
hatcheries, how viable supplementation is, whether it is viable 
at a large scale, as envisioned by some people, and should 
provide considerable guidance for future use of hatcheries. It 
is my understanding that language calling for that kind of a 
review is in Congressional appropriations language at this 
moment.
    Mr. Crapo. Well, that gets to one of my questions. With 
regard to both the question of the flow survival relationship 
and then the hatchery versus wild fish studies, why are we not 
doing those studies?
    Dr. Williams. Well, from a very literal point of view 
representing the groups that I chair, we have not been asked 
to. But that probably begs the larger question. I think we are 
on the verge of doing both of those. I think the hatchery one, 
actually there is enough interest in the region, particularly 
with the really profound failure of the draft programmatic EIS 
earlier this year to address those issues, I suspect that the 
region will call for a comprehensive review of artificial 
production, whether Congress mandates it or not.
    Mr. Crapo. Well, who needs to ask for those studies to be 
undertaken?
    Dr. Williams. Again, it depends on what level. Certainly 
the language, the Congressional appropriations language I have 
seen so far, if passed, would be more than adequate to get that 
hatchery review, the artificial production review rolling. As 
far as the way our independent science groups work, formal 
requests for reviews or participation come to us from either 
the Council or NMFS, and either one of those authorities could 
ask us to undertake or supervise or broker a review of those 
subject areas.
    Mr. Crapo. And then would they provide the funding for it 
if they requested the study?
    Dr. Williams. Yes, it comes out of the larger salmon cap 
and some of the money that funds our group anyway.
    Mr. Crapo. All right. You want to hand the microphone back 
to Mr. Ray? I interrupted, did you want to add anything further 
to what we were discussing, Mr. Ray?
    Mr. Ray. Just a bit, still on that subject. I do not think 
NMFS is willing to put down barging on its own. And I think as 
long as barging is the treatment of choice down there on the 
river, needed change is not going to happen. So in order to 
facilitate change and to get us away from the status quo, I 
think it is quite appropriate and quite timely for Congress to 
put an end to barging, either through legislation or through 
the budget process, because I do not think any of the Federal 
agencies are going to do it on their own.
    Mr. Crapo. And I wanted to go to your No. 3 request, which 
was--one of the subparts of that, if I read it correctly, was 
that you do not believe there has been adequate disclosure of 
the specific details of the improved transportation 
alternatives.
    Mr. Ray. Not at all--not at all. Nobody has ever told me 
what comprises improved transportation, what smolt to adult 
ratios can be expected with improved transportation and what 
evidence exists today to indicate that improved transportation 
might achieve those SARs. It is a big unknown. We know a lot 
about breaching dams, we know all the horror stories that can 
be generated. We do not know anything about improved 
transportation.
    Mr. Crapo. And I understand your statement here to be that 
there are several alternatives that NMFS is looking at, and 
that alternative, you do not have the information to know what 
it is they are evaluating.
    Mr. Ray. No, and I have not been able to get that 
information, even at the hearing that occurred a couple of 
months ago in Lewiston, COL Griffin went into great details 
about the breach option and then he made a very cursory mention 
of the improved transportation option and I guess the third 
option is the status quo, just to continue to let these fish 
dwindle to extinction. That is the only three options I have 
seen on the table. And nobody has ever been able to tell me or 
show me specifically exactly what they mean by improved 
transportation. How much more Idaho water does it take, what 
results will it achieve and what evidence indicates that those 
results are achievable.
    Mr. Crapo. Is it your opinion that the transportation 
approach, the barging approach, will require more Idaho water 
than other alternatives--than the other alternatives?
    Mr. Ray. Oh, absolutely. And I think that has been 
demonstrated quite well in the past few years. You know, if it 
is truly better to take the fish out of the lethal river and to 
remove them from this environment that is definitely killing 
them, then why do we need the 427,000 acre-feet in the first 
place? Is it simply to get them through lower Granite 
Reservoir? I do not think so. Why do we have flow targets that 
NMFS makes a minimal effort to achieve on some days in some 
seasons? Why do we even have flow targets if NMFS' policy, 
which they demonstrated quite readily, their policy is to barge 
every single fish they can catch. If we are taking them out of 
the river, why do we need to put more water in the river?
    Mr. Crapo. I want to go into your No. 5 and No. 6 issues, 
but I want to do that in terms of the broad discussion we have.
    Mr. Ray. Okay.
    Mr. Crapo. So I would like to go to Mr. Bruce right now.
    Mr. Bruce, you and your organization supported the Idaho 
policy, is that correct?
    Dr. Bruce. Yes, we did.
    Mr. Crapo. In your testimony, you indicated that you 
thought a more accurate explanation of the cost cap should be 
made available to the public in terms of what foregone revenue 
it really is and I understand you to be also saying that you 
felt that that concept is applicable to more than simply fish. 
Correct?
    Dr. Bruce. What I am saying is I have had, over the years, 
I have had a lot of people comment to me and say gosh, $450 
million is a lot of money to spend on salmon and we are not 
getting very good results. And I agree it is a lot of money. 
But I think people need to understand that it is not $450 
million in hard dollars actually and they need to know what the 
foregone revenue is. In the last couple of years there has been 
very little discussion about it, but I do not think that that 
foregone revenue amounted to nearly $450 million or whatever 
the amount was before. I think the public needs to know that. 
That is my concern.
    Mr. Crapo. Do you believe that the concept of foregone 
revenue as applied to power is a proper concept in terms of 
evaluating or making management decisions on the river? And I 
want to give you a little more explanation of what I am saying. 
You could use foregone revenue in terms of--you said yourself, 
you could use foregone revenue in terms of fish, which is being 
done, or you could use it in terms of irrigation or 
transportation or I suppose you could use it in terms of power, 
if that water were being taken away from some other use that 
could generate revenue. Is the decision to utilize it for power 
purposes a proper utilization of that concept?
    Dr. Bruce. Well I guess I think that if we are going to 
talk about foregone revenue, we should apply it to--we are 
using it for fish and power purposes, but we also should talk 
about water that goes out for irrigation, for drinking water, 
that goes through the navigation locks, et cetera. It seems 
that right now, the only user in the river that is charged is 
the fish, yet there is a lot of other water that goes out for 
other purposes that does not get charged.
    Mr. Crapo. Have you seen any studies or are you aware of 
any group that has done a study to evaluate those other uses of 
that concept?
    Dr. Bruce. I cannot say that I have, no.
    Mr. Crapo. Are you aware of any efforts to try to make 
barging salmon more successful? This gets back a little bit to 
the discussion Mr. Ray and I were having about not knowing the 
details of what is the improved barging alternative.
    Dr. Bruce. I also do not know what their improved barging 
alternative is. I have heard about it, I have heard it talked 
about. I assume that the surface collectors, newer, better 
barges, but I am of the same opinion, that after 20 years of 
barging these fish, we have not been successful and I do not 
think we are going to restore this fish by barging these fish, 
no matter how improved it is at this point in time.
    Mr. Crapo. Now I have been a big supporter of the surface 
collector. Do you support the surface collector research?
    Dr. Bruce. I guess I could perhaps support the research, 
but at this point in time, from what I understand, as Dr. 
Williams said, it does not seem like they have been terribly 
successful and I have a concern that no matter what you do with 
surface collectors or whatever, once you collect and handle 
these fish, particularly the salmon smolts, I do not know that 
we fully understand what this handling does as far as stress 
and so forth. Just that handling alone and collecting them, 
running through tubes and so forth, how does that affect their 
chances for survival? I do not know that we understand.
    Mr. Crapo. The reason I have supported surface collection 
is because it seems to me that--and I just want you to comment 
on this with me--it seems to me that it is a technology which, 
if successful would enable us to move in any direction in terms 
of where the fish would need to be guided in the river. That 
could include using it for spill, could be--I assume it could 
be used for barging, which it is now being used for or some 
other alternatives if something else came up. The question I 
have is, it is my understanding that Idaho Steelhead and Salmon 
Unlimited--and I do not want to speak for the group, so you 
need to clarify this for me if it is not the organization's 
position, but it is their concern that the surface collection 
devices have been being researched and developed only for the 
pur-

poses of facilitating barging, and that that is a strong 
concern about the continued research and utilization of those 
facilities.
    Dr. Bruce. That is a concern, we are concerned that if they 
continue to put millions of dollars into surface collectors and 
new barges and so forth that that will prejudice that 1999 
decision. But I guess that I am concerned that even if we have 
effective surface collectors and we are able to decide if we 
want to put those fish in a barge or if we want to spill them, 
in low water years, I am still concerned that we are not going 
to have enough flow through those slack water reservoirs, even 
though we have spilled those fish, for them to have good 
survival rates, without having to try to take so much Idaho 
water, which we do not agree with, and I do not think there is 
enough Idaho water to achieve that flow and that velocity that 
is necessary.
    Mr. Crapo. So you are saying the surface collector would 
not really work anyway in those circumstances?
    Dr. Bruce. I do not personally think that in those low 
water years, it would be very effective in that circumstance.
    Mr. Crapo. Dr. Williams, could you respond to that as well? 
On the surface collector; first of all, is the surface 
collector a good idea for facilitating effective spill?
    Dr. Williams. It could be and it has looked promising. I 
would not, I guess, be overly concerned about the lack of 
really positive results the first couple of years. I am 
concerned about it, I do not want to make light of it, but it 
seems that with every new technology we step into, there is a 
much steeper learning curve than we typically anticipate and it 
takes a lot more fine-tuning, a lot more time, a lot more 
dollars to fine tune it, and our visit to Wells Dam really 
highlighted that for me. It is now the icon that the rest of 
the basin holds up for benignly spilling smolts and achieving, 
what is it, 90 percent passage of smolts with 3 percent of the 
water coming in? But it took them 20 years to fine tune it to 
get it to that point. And I would agree with Charlie that we do 
not have 20 years right now to do that. So I guess it is a 
cautious endorsement but it is an endorsement that needs to be 
followed up by rigorous evaluation and if a year or two from 
now no promise is being observed, we will be right at that 1999 
decision point.
    Mr. Crapo. Dr. Casavant, do you have an opinion on the 
surface collector issue? Do you want to add anything?
    Mr. Casavant. I would just like to add that Wells is the 
prototype, Wells project, works very well there. It has been 
tried at the Rocky Reach Dam and the Wanapan Dam for the last 2 
years with varying results. Both of those projects had enough 
positive results that the PODs decided to continue on with the 
effort. Along with Rick, I am a little concerned with not very 
positive response first couple of years, but I also believe 
that it took us a longer time to learn about other 
technologies, it will take us time to test and reshape this.
    Mr. Crapo. All right, thank you. Why do you not hand it 
down to Mr. Little. I do not mean to leave you totally out of 
this discussion, Jim.
    Mr. Little. I have been busy passing this microphone back 
and forth.
    [Laughter.]
    Mr. Crapo. I just want to clarify and make very obvious, 
there is no question in your mind that the Idaho Cattle 
Association strongly supports salmon and steelhead recovery.
    Mr. Little. Oh, yes, that is correct.
    Mr. Crapo. And can your livestock operations coexist with a 
properly implemented anadromous fish restoration project?
    Mr. Little. I hope so. This team that is reviewing what we 
are doing now, I think will probably come up with something, 
and at least three of the people that are participating in it 
are in the room now and it is a pretty in-depth process and I 
think it can be. I think with the improving trend, I think the 
Forest Service has done a lot of work and we have--and the 
monitoring costs, you know, they are really exorbitant it 
seems, but it is the only way we are going to know. And I think 
that they are showing that we are coexisting. I am real 
concerned about the take provisions, that we got zero take 
tolerance. As I said in my testimony, the feds have decided to 
have an experimental population of wolves and we have got three 
of them hanging around our cow camp and we have not had any 
documented losses, but we are sure exasperated by it and if 
they get to pursuing this cattle, about any structures we put 
up to try to keep the cattle away to have a zero take, will not 
mean much.
    Mr. Crapo. It sounded to me from your written as well as 
your oral testimony that a significant part of the concern that 
you raised dealt with process as much as substance of whatever 
the recovery plan might be. Am I correct about that?
    Mr. Little. Yes, and again, it seemed like for so many 
years that we needed an answer, because as I said in the 
testimony, we have a year-round operation and if we find out we 
cannot go at the last minute, we are in a desperate situation 
because in a State that is 70 percent owned by either the 
Federal or the State government, there is not a lot of 
alternative economic ways of managing livestock other than 
through summer grazing. And so we have been hung out lots of 
times until the middle of June and while we get assurances from 
the District ranger, he is a small part of this thing. There is 
an awful lot going on that he does not have a clue about. So we 
just have to wait until the Fisheries Service makes a decision 
and that is what we thought was the process it turned out, it 
was not. The USFS would submit the next year's plan in December 
and we would not get answers, and we thought there was some 
sort of response time, but we found out that under existing law 
that was not the case, and it sure left us hung out and we are 
still terribly uncertain as to whether we can go from one year 
to the next. And fence maintenance, we just do the minimum. We 
just do not want to put money into this thing and then be just 
starved out of it, and that is our concern.
    Mr. Crapo. Well the concerns you raise are very consistent 
and similar to concerns that I get from a number of those in 
the cattle and wool growing industries who talk with me through 
the Second Congressional District, and the concerns generally 
are--I want you to tell me if I am right about this and to 
comment on it further--the concerns are that in working with 
the managing agency, whether it be the Forest Service or the 
Bureau of Land Management, that they generally have been able 
to work things out with whatever the requirements were, but 
that then they were not able to get finality until approval 
from the National Marine Fisheries Service, and that that 
approval in some cases never came or came after very long 
delays and no time lines that anyone was bound by or made aware 
of or required to follow. And it just seemed as though when the 
answer came, the answer came and that was what you were going 
to get.
    Is that what you are trying to--did I correctly restate the 
experience you have had?
    Mr. Little. Yes, you did. And that has been our frustration 
because in my brief tenure on the Pacific Fisheries Council, I 
realized that NMFS has a full plate of issues to deal with on 
the ocean side of the issue, and this is a new area for them 
moving this far in-river, to suddenly be the managing agency 
and I think in their defense, that has been part of the 
problem. But how they have handled it has been, as far as I am 
concerned, less than exemplary. And that has been my great 
frustration with the way this process has gone.
    Mr. Crapo. So when we talk about the process for making 
decisions on the broader scale of how you decide how to govern 
the river, a specific part of that is that we need to, right 
down on the ground, so to speak, where we are making decisions 
about permit operations and so forth, we need to have some time 
line requirements, we need to have some finality and some 
fairness to the process.
    Mr. Little. That is what I feel. You know, from a 
historical standpoint, the country that I graze in was used and 
abused for a lot of years and way before the advent of the 
Forest Service, and then as we got to looking at the process, 
we were concerned about the uplands, and so we put our emphasis 
on trying to design a grazing system to make the watershed 
healthier and not realizing the importance of the riparian 
areas. And that has been the learning curve for everybody in 
the agency, the society of range management and everybody else. 
And so, there is times we feel like we are being put upon for 
maybe the unknown sins of our forefathers and we are trying to 
do the right thing and, you know, this is something that we 
really work toward, but we sometimes get a bum rap.
    Mr. Crapo. All right, thank you. I have a couple more 
questions for Dr. Williams and then I want to get to the 
general discussion.
    Dr. Williams, there are some questions I want to ask you, I 
think you have already answered it to some extent in our 
previous discussion, but is there sufficient scientific 
consensus for us to move ahead and do as Mr. Ray and many 
others have suggested, and that is consolidate all the 
different competing recovery plans and move ahead?
    Dr. Williams. I believe so. There are two clear recovery 
plans. One is the Fish and Wildlife Program of the Council, the 
other is the Biological Opinion, the suite of documents that 
NMFS oversees, which is the forthcoming Snake River recovery 
plan, the Biological Opinion, so forth. And then there is also 
the tribal plan and then a number of other more specialized, 
smaller scale plans. They have strong themes in common and 
these emerge from some of the other reviews and other 
symposiums on the salmon problem. Everyone recognizes the 
problems with habitat and the hydropower system. There are 
areas of strong contention and disagreement and uncertainty and 
certainly our discussion this morning highlights one of them 
and that is transportation. Another one is the need for flow 
augmentation and flow survival relationships. Another critical 
uncertainty is the role of artificial production, and indeed 
that is probably the area that the tribal plan differs the most 
from the other plans.
    So we can move forward on areas that we know there is 
agreement on problems, and what--a lot of what Mr. Little just 
talked about reflects our increasing understanding of habitat 
problems, riparian problems, the needs for fish, those areas. 
We can design research to tackle the other issues.
    It is not going to be a simple task at all to create a 
single unified plan that all the constituents buy into, but it 
is my strong belief along with all of my group that the region 
cannot move forward on salmon recovery without a single plan 
that everyone can get behind.
    Mr. Crapo. You indicate in your testimony that--well you 
talked about both the ISAB and the ISRP. I understand the 
genesis of both of those science groups. Is their membership 
significantly the same?
    Dr. Williams. Eight of the ISAB members currently serve on 
the ISRP.
    Mr. Crapo. And how many members are there on the ISRP?
    Dr. Williams. There are actually 11 members in each group, 
so there is a total of 14 people involved, 8 shared members.
    Mr. Crapo. So there is significant overlap.
    Dr. Williams. Yes.
    Mr. Crapo. Do they have essentially different functions?
    Dr. Williams. The charges of the groups differ. The ISAB is 
largely a review and technical body that provides assistance 
usually on requests from topics by either NMFS or the Power 
Council. The ISRP actually does not interact with NMFS at all, 
it is a creature of the Council--not a creature of the Council, 
but an advisory body to the Council formed by the recent 
amendment to the Power Act, with a much more specific charge 
than the ISAB, and its charge is to review the fish and 
wildlife program and its related projects.
    Mr. Crapo. Okay, and getting to the areas of consensus that 
you identified in your testimony, your first point was that 
salmon decline comes from many causes and there is no silver 
bullet. Many people say that given the fact that there are many 
possible causes, there is one source of the decline that is 
much larger than any other source, namely the dams. Is that 
correct?
    Dr. Williams. I believe so, particularly for Snake Basin 
stocks. However, there is an emerging opinion and a heated 
debate about the role of ocean productivity in that as well, 
and that is a legitimate debate. But to ascribe the salmon's 
problem completely to the dams or completely to ocean 
productivity is an over simplification of it.
    Mr. Crapo. And you have probably heard of the 4 H's--
harvest, habitat, hydropower, and what am I forgetting?
    Dr. Williams. Of course. Hatcheries.
    Mr. Crapo. Are those 4 H's still a pretty good general 
approach to what the issues are in salmon recovery?
    Dr. Williams. They actually are. I know our group--they 
have become such icons in the way we view the river that they 
have almost become trite in some ways and yet our group 
struggled to actually find a different approach to the salmon 
problem and that is a pretty good approach. It captures a lot 
of the problems. The one really strong point I would like to 
make though, as we talked earlier today about comprehensive 
review of artificial production and subsequent reform of our 
use of hatcheries. That will be a fairly pointless exercise if 
we do not do harvest reform at the same time, because the 
harvest management drives the hatchery program in the basin.
    Mr. Crapo. I am working on trying to get a hearing on that 
issue specifically, but we will do that in another hearing 
probably, hopefully.
    For both Dr. Casavant and you, Dr. Williams, it seems to me 
that so much of what National Marine Fisheries Service seems to 
be focused on and doing in its proposals assumes the current 
configuration of the dams. And I guess the question I have is 
do you think our region in developing a salmon proposal should 
assume the current configuration of the dams?
    Dr. Williams. I do not believe that, nor do the other 
members on the ISAB. In fact, when you boil it all down, if we 
are going to maintain the status quo, particularly in the lower 
Snake, which is what a lot of this discussion is focused on, 
transportation probably--the National Research Council panel 
that reviewed the salmon problem probably said it best. They 
said that basically in the status quo, transportation is 
probably the best option fish have to get down the river alive. 
However, the transportation system alone will not bring about 
salmon recovery. So the bottom line of that is if we are not 
willing to change the river in a fairly major way, we probably 
are going to lose the salmon in Idaho.
    Mr. Crapo. And before I go to you, Dr. Casavant, let me 
followup. Your second point in the consensus that you believe 
that science has now given us says that the replacement of 
salmon or salmon habitat by artificial means such as artificial 
propagation and supplementation has in many cases not lived up 
to its expectations. In spite of individual and minor successes 
the current approach to salmon recovery has failed to reverse 
or even halt the decline of salmon.
    I assume that what you are saying there is that--what you 
just said, that the current focus on transportation, without 
other changes in the configuration of the river, of the dams 
and the management of the river, will not result in salmon 
recovery.
    Dr. Williams. That is correct.
    Mr. Crapo. Will it cause the extinction or will it 
ultimately result in extinction?
    Dr. Williams. Don Chapman probably put it best, he said it 
is going to slow extinction.
    Mr. Crapo. It will slow extinction down but not make 
extinction--but not stop extinction.
    Dr. Williams. That is correct.
    Mr. Crapo. Thank you. Could you hand the microphone to Dr. 
Casavant. Doctor, the same question, if you would, please.
    Mr. Casavant. First, I assume that Will Stelle will talk 
about it, but I am not so sure that NMFS has assumed the 
configuration of the dams will not change.
    Mr. Crapo. That is a fair comment and I am sure he will 
correct me on that.
    Mr. Casavant. The 1999 decision will be in front of us and 
they are in the range of possibilities. I personally do not 
think we had better assume that no changes will occur to the 
dams, whether it be breaching or lowering of some of the pools 
behind those dams. If we eliminate all those off the table 
scientifically and as management folks, we have greatly 
narrowed the possibility or the options that are available to 
us.
    Mr. Crapo. Now let us clarify here, this does not 
necessarily mean bypassing the dams.
    Mr. Casavant. You mean as in breaching?
    Mr. Crapo. Breaching, yeah.
    Mr. Casavant. No. Let us see, that is an option that is out 
there obviously, but the configuration of the dams that people 
really are talking about is either lowering or drawing them 
down either on the Snake and/or John Day pool on the lower 
Columbia.
    Mr. Crapo. All right. Back to you, Mr. Williams, I am sorry 
to keep--yes, go ahead.
    Mr. Casavant. If I might while I have this great microphone 
here, on the hatcheries and production, the Council is 
currently and will be finalizing probably at our next Council 
meeting a task force, a regional task force to look at 
hatcheries and production and its relation to the wild stocks. 
The Fish and Wildlife Committee has been working on this for 4 
or 5 months. Now it has been spurred on by the report of the 
ISRP that says a regional assessment, not just of those that 
are under the BPA dollar mandate, but all of the hatcheries in 
the region should be undertaken. Then the potential 
appropriations language further pushes in that area, so we will 
in the next months, let us say, be scoping and developing a 
task force on hatcheries and wild stock interaction.
    Mr. Crapo. All right, thank you and I appreciate that. One 
last question to Dr. Williams and then we will go to this 
broader discussion. Doctor, your last paragraph states that the 
biggest challenge facing the region is not the biological 
uncertainties associated with salmon recovery efforts, but 
whether the region is willing to face the fact that we cannot 
have our cake and eat it too. What do you mean by--describe 
what you mean by having our cake and eating it too.
    Dr. Williams. Basically the status quo. You asked Charlie 
an interesting question earlier today. You asked if he felt 
NMFS had been running the river for the previous 20 years. And 
what I think he said was no, but probably in the last 6 since 
the listings. What has been running the river for the last 20 
years is largely economic industrial status quo in the basin 
and the fish have generally taken the hit and that is really 
why we are all here today and why we are in the situation we 
are with all the increased listings. So that is essentially 
what I meant by that statement, is that we are going to have to 
change--if we sincerely want fish back and we commit to having 
a salmon recovery program that is based and driven by the best 
available science, we clearly cannot keep using the river the 
way we have been.
    Mr. Crapo. All right, and that gets me to the discussion 
that I would like to pursue, right back to Mr. Ray's proposal 
but that does not mean anybody else cannot have input or a 
proposal or suggestion, but Mr. Ray, you suggested that 
before--if I understood your point 5 and point 6 correctly, it 
was that yes, Congress should figure out a process of 
decisionmaking, but before it does that, we should have our 
current salmon managers reconcile the three plans into one. Am 
I correct about----
    Mr. Ray. Yes, that is correct. And I want to clarify 
something. I do not think--well, to go back to point 5, I think 
I agree that it is essential that we have one unified plan, 
that is a scientifically derived plan, not a politically 
derived plan, but a scientifically derived plan. What these 
fish need, what has to happen to keep the promises, to restore 
the runs. Then in order not to decide whether or not we are 
going to implement the plan, but to decide how we are going to 
implement the plan, we need the three sovereigns, in my 
opinion--the States, the Federal Government and the tribes--
each with an equal seat at the table, to figure out not whether 
to implement the plan as the prior Council spent the last 17 
years deciding whether to do something, not how to do it but 
whether to do it. NMFS does the same thing. After we have the 
plan on the table, we do not decide whether to do it, we know 
we are going to do it, we decide how best to do it in the most 
expeditious manner.
    Mr. Crapo. And do you believe it is possible to reconcile 
the three plans into one plan, given the current decisionmaking 
process under which we are operating?
    Mr. Ray. No, I do not. I do not think the current 
decisionmaking process is going to reconcile anything.
    Mr. Crapo. Anybody else want to comment on that, or what I 
would like to do is throw it open right now on the issue of 
what should Congress do, if anything, to identify a path 
forward, and I am assuming we are talking about a 
decisionmaking process here.
    Mr. Ray. Since I have got this microphone in my hand, I 
want to step back to something that does have a bearing on this 
question that is on the table right now.
    I think NMFS does have a pretty good idea what they are 
going to do in 1999. I think they are foreclosing alternatives 
really quickly and in order for you and for Congress to find 
out really what NMFS intends to do in 1999, I think you need to 
follow the dead fish and follow the money. The biological 
opinion that we have on the table right now, which is the trial 
run for the NMFS recovery plan, allows 24 to 86 percent of 
juvenile sockeye to be killed at the dams, 24 to 86 percent of 
juvenile spring and summer chinook and 62 to 99 percent of fall 
chinook. It allows the Corps--NMFS says it is okay, Corps, for 
you to kill all these fish, and even if you do kill all these 
fish, it does not jeopardize the species. That is the trail of 
dead fish you should look at.
    The second thing you should look at is the trail of money. 
The Corps' 5 year spending plan devotes nearly $500 million to 
measures almost solely capital expense measures that are 
intended to almost solely complement the transportation program 
only. And NMFS has given its blessing to this Corps spending 
plan.
    So to me, it is fairly obvious where NMFS is heading.
    Mr. Crapo. Hence your recommendation about Congressional 
action in that area.
    Mr. Ray. Absolutely. Thank you.
    Mr. Crapo. Dr. Casavant, did you want to----
    Mr. Casavant. Well, I suggested in my testimony, both the 
written and the oral, that what we are after is indeed a 
mutually agreed upon plan in the region. Then that plan is 
implemented by the authorities under their existing statute of 
rights and obligations. But within that, and here is where 
Charlie and I might split the sheets a little bit, in the 
process, the economic, social and commercial folks have to be 
brought into the process, whether it is by the State 
governments through their State representatives or through an 
open public policy discussion such as the power counsel has. I 
am the only remaining person who voted for the 1994 fish and 
wildlife program. That was DOA and it was DOA not because 
anybody proved scientifically it was bad or it did not do 
enough, it was that the political support was not there in the 
region. We have got to build--it would become even messier, but 
if we can build like we are trying to do right now, a three 
sovereign effort to get a plan and in that development of the 
plan, we have public process, I think then we will have 
something that will stand, either support from the legislature, 
legislative action, or the region itself stand behind it.
    Mr. Crapo. Let me explore that a minute, and I welcome 
anybody to jump in here, just stick your hand out and claim the 
microphone if you would like to say something. But it seems to 
me that the issue you have just raised is a very critical one, 
we do need to have the three sovereigns involved. And their 
testimony in the earlier panel indicated that the practical 
problems with trying to give decisionmaking authority to a 
group that did not involve sovereigns. And I think there really 
is a practical problem to reach that. In fact, I have run into 
that practical problem when I have tried to just hold meetings 
and invite every interest group that thinks they should be at 
the meeting, and sure as shooting, I do not invite somebody 
that thinks they should have been there, and I hear about it. 
So I know--you know, we sit down and have meetings about how to 
be sure we invite everybody to the meeting. So I understand how 
that works.
    On the other hand, I also believe that you will not, 
whether it is three sovereigns or one sovereign or whatever, 
you will not get a plan that can be effectively implemented 
until you have public support for the plan, and collaborative 
decisionmaking is something that I strongly support in terms of 
getting the involved interests and groups to have a meaningful 
participatory role in the decisionmaking process.
    In a sense, those two are competing concerns. I am not 
convinced that there is not a way to reconcile them, but I 
would certainly welcome comments on that issue. Dr. Williams 
has claimed the microphone for first shot here.
    Dr. Williams. I think that you have just identified what is 
the kernel of this whole issue, which is how does the region 
craft a sin-

gle unified plan that has the political support of all the 
necessary constituents and primarily the three Federal, State 
and tribal sovereigns, because without that kind of political 
support behind a plan, it is predestined to failure.
    But the second caveat on that is how do you craft the plan, 
which is that plan with that support, which is also based on 
the best science, because biologically if it is not based on 
the best science, it is also likely predestined to failure. 
That is the fine line that is going to have to be walked.
    Mr. Crapo. Yeah, you have got to add science to the----
    Dr. Williams. And too often the science gets laid out and 
then compromised through the political process, so this is 
going to have to hold up both the science and the political 
support as equal icons, as the plan is developed. It will be 
very, very difficult.
    Mr. Crapo. That is a good observation. Anybody else want to 
jump in?
    Mr. Ray. I agree with Dr. Williams, but I think the 
sequence of doing these things is important and it is essential 
to have a scientifically credible plan that lives up to the 
promises to restore the fish and then come up with a process, 
again, not whether to implement it but how to implement it. And 
that is--I do not have much confidence in the consensus idea 
because I do not think you are ever going to reach consensus on 
taking the hard steps and making the tough decisions. And if a 
process is set up to rely on consensus, I think it is doomed 
from the start to failure.
    Mr. Crapo. I was actually very pleased to see that Idaho 
did generate the consensus, but that was one State. Other 
States did ultimately end up supporting that to some extent and 
I have wondered whether we would be able to reach consensus, 
but I also believe that even when you do not reach consensus, 
the fact that the public is very involved enables people to 
feel that at least their procedural rights were honored and 
that they were given a meaningful--and I emphasize that word--
meaningful opportunity to participate in having their point of 
view seriously considered. So I understand what you are saying 
and I am not sure that you are wrong or right, but there is a 
lot of important consideration that must be given to the public 
involvement in the decisionmaking process if Congress moves 
forward to evaluate that.
    I do not know the right path yet, that is why I am asking 
these questions. I do not have a predetermined outcome in my 
mind. Mr. Bruce.
    Dr. Bruce. Yes, I think that we have heard the science, I 
think we know the science is there. I think at this point it is 
a societal issue and I wish I knew how to get to that decision 
and how to get there quickly, and obviously it is going to take 
some consensus. I think it needs to be done on a regional 
basis, but I guess more than anything, I am concerned that over 
the years this has--you know, we have spent so much time, we do 
not have that much time any more. Whatever we do, I think we 
need to do it rather quickly. I think a lot of our stocks right 
now are very close to extinction in the next couple of years, 
whether it be Pistol Creek of Sulphur Creek, there will not be 
any salmon up there any more and we do not have a lot of time 
to go through years and years of process. We need to figure out 
soon what we are going to do.
    Mr. Crapo. Dr. Casavant.
    Mr. Casavant. At the present time, the Governors are--they 
consider the Council as their representatives and they have put 
their governance--the Council is their governance structure. 
But they are also supporting a three sovereign effort that is 
underway concurrently right now, in that we are meeting to 
identify options on governance, options on fish and wildlife 
activities. The five options under discussion range from 
enhanced role of the Power Council, and that is frankly in 
three of the options, to an enhanced role for National Marine 
Fisheries Service to one that simply takes and creates a new 
body. In the next--again, in the next month or so, that 
subcommittee will be coming together and trying to end up on 
one recommendation. So I am hopeful, whether it is the task 
force or this, that in the next month or so, we will have some 
information to help you in your deliberations.
    Mr. Crapo. Is that information available currently, is 
there a report or document?
    Mr. Casavant. We have a rough draft of the five options, I 
could make that certainly available, Congressman.
    Mr. Crapo. I would certainly appreciate looking at that. 
You know, the previous panel--a couple of members of the 
previous panel discussed the idea of having a board of 
directors with a CEO type approach where the sovereigns, the 
States, the tribal entities and the Federal Government would 
create a, I guess, managing entity, whether it be one person or 
a person backed up by a board. Any comment on that idea? I 
mean, the reason I am asking this is because I strongly believe 
the buck has got to stop somewhere and as a Member of Congress, 
I want to know who. And right now, I do not. In fact, this 
panel has given me different answers to that question.
    Mr. Casavant. I think this panel is aware of it, and what I 
am certainly aware of is that the existing system is not 
offering the solution we are after, but a lot of us are 
conscientiously and honestly trying to find a resolution. I am 
a little worried about the CEO. Some might call them the 
benevolent dictator or some day he might not be. Depending on 
the goals of what you are trying to achieve, and really that 
goal structure underlies the problem of the three entities that 
are trying to restore salmon.
    Mr. Crapo. Good point. Any other comment on that?
    [No response.]
    Mr. Crapo. All right, that is all the questions that I 
have. I appreciate this panel and your time and attention to 
this issue.
    We are going to take a 5-minute break here, I need to take 
a break, and then we will call up our next panel. Is Mr. Curtis 
here?
    [No response.]
    [Recess.]
    Mr. Crapo. Let me check again, did Mr. Herb Curtis ever 
show up?
    [No response.]
    Mr. Crapo. Okay, well let me get my papers organized here 
and we will continue. All right, we will go ahead with this 
panel and we have here with us Mr. Doug DeHart, Mr. Ed Bowles, 
Mr. Ted Strong and Mr. Will Stelle. We appreciate all of you 
being here with us today and we will proceed in that order. Mr. 
DeHart.

  STATEMENT OF DOUGLAS A. DEHART, CHIEF OF FISHERIES, OREGON 
                DEPARTMENT OF FISH AND WILDLIFE

    Mr. DeHart. Good afternoon, Congressman. For the record, I 
am Dr. Douglas DeHart, Assistant Director and Chief of 
Fisheries of the Oregon Department of Fish and Wildlife.
    Mr. Crapo. Where is the microphone, we ought to get that 
over there so that the people in the back can hear.
    Mr. DeHart. I wish to thank you for the opportunity to 
speak with you today about Oregon's interactions with the 
National Marine Fisheries Service concerning restoration of 
Columbia River salmon populations. As you requested, I will 
highlight what Oregon believes are outstanding issues that if 
resolved would significantly improve coordination among key 
stakeholders in salmon restoration decisions in the region.
    Let me preface my comments with a general observation. Much 
attention has been focused on the forum and the process needed 
to resolve current problems. This energy may be misplaced. 
Although there are problems with process, the more significant 
issues involve the substance of the issues that we need to 
make. The bottom line is that the region, whether through joint 
decisionmaking or through the National Marine Fisheries 
Service, the U.S. Army Corps of Engineers or the Bureau of 
Reclamation, must make informed decisions based on the best 
available technical and scientific analysis. Existing processes 
have fostered discussions, information exchange and consensus 
building. With some changes, those processes are also capable 
of establishing the type of accountability for decisions needed 
to move salmon restoration efforts forward.
    Our concerns relate to three main areas. First, how Federal 
decisionmakers can be held more accountable for the decisions 
they make that affect salmon. Next, how the information used to 
make decisions can be improved. And finally, how the region can 
better articulate and reach agreement on what we are trying to 
accomplish.
    Federal decisions affecting salmon restoration need to be 
made in an open process that fosters deliberate discussions 
among managers of the resources affected by those decisions. 
Salmon restoration efforts need to meet the requirements of 
recovery for the Endangered Species Act, but they also need to 
meet the mitigation responsibilities of the Federal Government 
for the loss of fish due to hydro development. These decisions 
must be supported by detailed explanations of why they are the 
right thing to do.
    In our opinion, the Federal Government, through NMFS 
leadership, has improved accountability for the decisions that 
they make. However, the Federal Government must better explain 
what information influenced their decisions and how that 
information was weighted and used to make decisions. Likewise, 
the Federal Government must explain what alternatives it 
considered and equally important why at times it has rejected 
alternatives put forward by State and tribal resource managers.
    The Federal Government can improve the credibility of its 
decisions, we believe, by supporting them with regionally 
accepted technical and scientific analysis.
    We commend the National Marine Fisheries Service for the 
role it has played in establishing a regional analytical forum 
called PATH, a Plan for Analysis--yes--a Plan for Analysis and 
Testing of Hypotheses. Almost caught me on an acronym. This 
forum involves scientists from the Pacific Northwest and from 
throughout the region and is charged with describing and 
testing the various hypotheses put forth concerning salmon 
restoration. It is a scientifically rigorous process that 
includes independent peer review of analyses by outside experts 
and it has played a significant role in evaluating the 
scientific merit of competing hypotheses and setting the stage 
for well-informed decisions about the long-term course of 
action. We urge NMFS and the other Federal agencies to stay the 
course in their commitment to supporting and using that process 
to support decisions.
    In concluding my statement to you today, I turn to the most 
important issue dogging efforts to restore salmon; namely, the 
lack of agreement on what we are trying to accomplish regarding 
that restoration and how we go about achieving those 
objectives. This effort would be greatly facilitated by a 
deliberate effort by the Federal Government to clearly 
interpret ambiguous measures in the biological opinion on the 
operation of the Columbia River Federal power system. This 
ambiguity has significantly hampered some decisionmaking and 
encouraged debate and delay in many instances.
    There are three issues that seem to underlie this:

          The first of these is that there is no common 
        regional understanding of what the ultimate goal is 
        regarding survival and recovery standards.
          The second is that there is no common regional 
        understanding of the specifics of the measures in the 
        biological opinion to avoid jeopardy. This leads to 
        varying interpretations among Federal managers and 
        these differences have been the source of considerable 
        disagreement over how the opinion is to be implemented 
        for listed stocks.
          Finally, there is no common regional understanding of 
        how actions to recover listed salmon relate to and 
        complement actions to protect and restore non-listed 
        salmon and other listed fish and wildlife in the 
        region. The recent listings of steelhead in Oregon, 
        Washington and Idaho and in particular the listing in 
        eastern Washington of steelhead, only focuses more 
        attention on this need to integrate and balance the 
        protection of each of these species.
    In conclusion, Congressman, we do not believe the National 
Marine Fisheries Service is the problem. The complex and high-
stakes decisions facing a region on the verge of losing a 
precious heritage present a significant challenge to all of us. 
The focus should not be on assigning blame or spending valuable 
time and resources on constructing new processes in which we 
may better argue and debate the issues at hand.
    We must move ahead with informed decisions that describe 
what we seek as the ultimate outcome for salmon and what risks 
we are willing to take that that outcome is a reality.
    Thank you, Congressman.
    Mr. Crapo. Thank you, Mr. DeHart. Mr. Bowles.
    [The prepared statement of Mr. DeHart may be found at end 
of hearing.]

 STATEMENT OF EDWARD C. BOWLES, ANADROMOUS FISH MANAGER, STATE 
              OF IDAHO DEPARTMENT OF FISH AND GAME

    Mr. Bowles. Congressman Crapo, my name is Ed Bowles, I am 
the Anadromous Fish Manager for the State of Idaho Department 
of Fish and Game. Thank you for the opportunity to discuss 
Snake River salmon and steelhead recovery efforts. Your 
interest and initiative reflect highly on your commitment to 
solving this decades-old tragedy.
    We have heard much today on NMFS' process for handling 
salmon recovery, ways the process might be improved and who 
should be in charge. These are important questions, but do not 
get at the root cause of our continued collective inability to 
solve the salmon dilemma. This inability stems from a focus on 
process and justifying the status quo, rather than on 
leadership and commitment to finding solutions and securing 
societal acceptance of these solutions. We do not need a 
solution to the process debacle, we need a solution to the 
salmon and steelhead decline. As long as we are more concerned 
about process than we are about solutions, it does not matter 
who is in charge or who is involved, we will likely fail.
    The Snake River salmon and steelhead dilemma is akin to a 
ball and chain on the ankle of northwest prosperity. Multi-
million dollar fisheries have been lost from local and regional 
economies. A centerpiece of our northwest cultural, 
recreational and ecological heritage is crumbling. A third of a 
billion dollars is spent annually in our attempt to save these 
fish, with little, if any, success to show for the effort.
    Agency, industry and public resources are severely strained 
participating in the process. Irrigation and recreation from 
upper basin storage reservoirs are threatened. The status quo 
is not cheap or benign.
    So far, the salmon recovery process has focused on how to 
make the ball and chain more comfortable and less obvious, 
instead of finding solutions to remove the ball and chain. The 
primary motivation has been to preserve the status quo rather 
than finding a lasting solution that meets the biological needs 
of the fish and find ways to keep vital economies whole. 
Without this leadership and collective vision, repackaging the 
recovery process will do little to save the salmon.
    Snake River salmon and steelhead recovery pivots on the 
1999 decision point. This is the process that should be our 
primary focus and concern. As a result of litigation, NMFS 
committed to a decision path to finalize a long-term recovery 
strategy by 1999. The first step to ensure the 1999 decision 
points toward recovery is to stop debating whether the fish 
should be in the river or in barges. This controversy is one of 
the primary reasons the NMFS recovery process has little to 
show for its effort. Available science indicates that 
sustainable recovery requires an in-river solution and that the 
solution must recreate normative conditions.
    I refer you to my written testimony which covers the 
scientific debate in more detail. The sooner the region can 
come to terms with this biological reality, the sooner we can 
focus our collective efforts on helping society find ways to 
truly meet the needs of the fish while maintaining northwest 
economies, cultures and prosperity. This is where we need to 
focus our efforts if we are to help society and decisionmakers 
prepare for the 1999 decision; not continuing to try to 
rationalize recovery through transportation and flow 
augmentation.
    Perhaps the biggest threat to successful recovery and NMFS' 
ability to lead us there is NMFS' prejudice toward 
transportation and flow augmentation as a preferred recovery 
path. This prejudice is both regrettable and unacceptable. It 
is regrettable because this unprecedented opportunity to work 
collectively toward meaningful recovery may soon be lost. It is 
unacceptable because there is no scientific peer support or an 
empirical or theoretical basis for concluding that wild Snake 
River salmon and steelhead are likely to recover if we follow 
the non-normative path of full transportation and flow 
augmentation. NMFS' bias toward transportation and flow 
augmentation seriously detracts from their ability to provide 
leadership toward in-river solutions and focus the recovery 
process on finding ways to keep vital affected economies whole.
    The 1999 decision point is just around the corner. We 
cannot afford to let recovery slip away by continuing to debate 
the science. This is not a biological issue, it is a social and 
economic issue. The recovery process should focus on providing 
the best possible economic information so that society and 
decisionmakers can determine how best to keep vital economies 
whole as these biological solutions are implemented.
    How to meet the biological needs of the fish is not the 
important question. We know what the fish need. The important 
questions are: In meeting the biological requirements of the 
fish, can we provide an economical and effective way to get 
commodities to market? Can we maintain an economical energy 
source? Can we reduce the threat to irrigation water? Can we 
reduce loss of recreation opportunities in up-river storage 
reservoirs? Can we reduce or eliminate the ongoing financial 
burden of the salmon recovery process industry? Can we help 
ease burdens and uncertainties associated with energy 
deregulation? These are the sort of questions that the 1999 
decision point really pivots on. If they go unanswered, society 
will not be in a position to make informed decisions for or 
against salmon recovery and will likely default to the 
continuation of expensive and ineffective status quo 
operations.
    I am not convinced that the current process or leadership 
is headed in this direction or committed to an honest and open 
debate of these issues.
    Thanks once again for including me in this important 
discussion. I hope my comments have been constructive.
    Mr. Crapo. Thank you, Mr. Bowles. Mr. Strong.
    [The prepared statement of Mr. Bowles may be found at end 
of hearing.]

  STATEMENT OF TED STRONG, EXECUTIVE DIRECTOR, COLUMBIA RIVER 
                  INTER-TRIBAL FISH COMMISSION

    Mr. Strong. Thank you very much, Congressman Crapo. On 
behalf of the Columbia River Inter-Tribal Fish Commission and 
our member tribes--the Yakima, Umatilla, Warm Springs and Nez 
Perce, I appreciate the opportunity and the tribes extend their 
gratification to you for the leadership you have demonstrated 
in this issue and appreciate the efforts to resolve some of 
these issues.
    The tribes want to express, first of all, Congressman 
Crapo, that there are deep philosophical differences that 
divide Indian and white interpretation of what should be done, 
how things should be done. At the beginning of time, before 
there was any kind of electronic media or any other races of 
people, there were in our legendary times the fish and birds 
and other creatures that had voice and had dominion over 
everything. And in making way for the arrival of the humans, 
the salmon gave themselves to the humans that were here at that 
time and in turn we gave ourselves to the salmon for their 
life-giving properties and the religion and the sovereignty 
that they provided to us. In that sense, Congressman Crapo, the 
salmon and Indian people belong to each other.
    It was never meant to be presided over by any makeshift 
process or committee or structure. The human laws that have 
followed have been disastrous toward the natural environment. 
Human laws made by Congress and enacted in Federal courts have 
destroyed Indian spiritualism and culture and for that there is 
no compensation that can ever take the place of what was 
destroyed. And yet we are here today thinking that these 
industries and these human made laws are paying for the way of 
salmon. It is the other way around, Congressman Crapo.
    The memorandum of agreement that was signed said it was 
helping salmon. The MOA was clearly a limitation that excluded 
the most viable salmon restoration alternatives because the 
Bonneville Power Administration and other Federal agencies 
needed to maintain their financial viability. The salmon are 
still subsidizing the corporate industries along the Columbia 
River and they are not appreciated for that. Instead, they are 
in many ways insulted by saying that it is the economy, it is 
the region's jobs that are important first and foremost. But 
that is the arrogance of human life today in America.
    Even the Endangered Species Act, which was supposed to 
protect the species is designed today so that all of our 
discussion is centered around money, economy and other 
capitalistic purposes. The Endangered Species Act passed by 
Congress does nothing to protect the specie, and it seems only 
some of the environmentalists, recently some of the cattle 
ranchers, loggers, those who work with nature and the Indian 
people fight, even in courts, to protect the salmon.
    The National Marine Fisheries Service has come out here to 
preside over the most deadliest of rivers where salmon can 
live. They have a losing job, they are not going to win that 
fight. And instead of declaring that this deadliest of all 
killers of salmon is a jeopardy, the National Marine Fisheries 
Service has maintained that they are allowed to operate and it 
is best to take the fish out of that deadly river. That is not 
being truthful toward the Endangered Species Act, it is not 
being respectful toward the salmon, it is not living up to the 
agreements made by the United States of America and sovereign 
Indian nations.
    We deplore these actions, we think that the United States 
and the States in the northwest should say what they mean and 
mean what they say, get on with salmon restoration in a very 
meaningful fashion. We have done nothing but tinker around the 
edges of this deadly hydro system and yet, since 1964, tribal 
and non-tribal peoples have had a moratorium on commercial 
fishing on summer chinook, to let them rebuild. A surplus of 
2,000 returned to the south fork of the Clearwater, they will 
be destined for killing unless the tribes sue over them.
    Since 1977 the tribes and non-tribal fishers have had a 
moratorium on commercially fishing spring chinook. The State of 
Oregon passed a contrived wild fish policy recently. Those 
surplus 144 spring chinook to the Imnaha will be killed unless 
the tribes sue over them, and we intend to sue in order to 
protect these salmon. These spring chinook at Imnaha will be in 
a trash pile somewhere, they will not be allowed to spawn and 
they will not be allowed to procreate as the natural law has 
intended.
    So the tribes are here to say that we believe that a lot 
better can be done and whatever it takes, whether it is in 
court or anywhere else, the tribes are here to advocate for the 
salmon.
    Thank you.
    Mr. Crapo. Thank you, Mr. Strong. Mr. Stelle.
    [The prepared statement of Mr. Strong may be found at end 
of hearing.]

 STATEMENT OF WILLIAM STELLE, REGIONAL ADMINISTRATOR, NATIONAL 
        MARINE FISHERIES SERVICE, DEPARTMENT OF COMMERCE

    Mr. Stelle. Thank you, Mr. Chairman. I will submit my 
written testimony for the record and touch on a number of major 
points in my oral remarks.
    Let me offer a couple of general observations, then speak 
to the issue of hydro power, the 1997 Idaho Steelhead Plan and 
my decision on it and then the bigger picture.
    As a general observation, first of all, let me emphasize 
that at NOAA Fisheries, we are dedicated to the restoration of 
salmon and steelhead stocks in the Columbia Basin and to the 
restoration of the aquatic health of this basin. There are 
enormously deep differences of views on what the problems are 
and how to remedy them, particularly as it relates to the hydro 
system, and as the testimony before this Subcommittee 
demonstrates. Finger pointing among the various participants 
dominates the public discourse and that is a shame.
    NOAA Fisheries is dedicated to using the best scientific 
information available when making its decisions on implementing 
the Endangered Species program here in the basin. Science-based 
decisionmaking is perhaps the single most important principle 
we have. Given the deep divisions that exist and the stakes 
involved, we must stick to the science. If we do not, we will 
be rudderless, adrift without direction, and lost.
    Salmon and steelhead recovery must be comprehensive if it 
is to be successful. Recovery must include efforts to protect 
and improve the habitat, fix the dams, modernize the hatcheries 
and ensure that we do not harvest too many fish. A single focus 
will not solve the problem.
    Further, do not expect miracles. It has taken generations 
to drive these stocks down and it will take time to restore 
them. It will not happen overnight and we must be prepared to 
stay the course if we are to succeed. Statements complaining 
that the Endangered Species Act has been invoked for 3 or 4 
years and the salmon are still not back ignores this most basic 
biological fact. The region can do this, but it will take time, 
and we must stay the course.
    On hydro power, improving survivals in the hydro power 
system is essential to long-term recovery, and we are dedicated 
to doing so based upon the best science we can muster as a 
region.
    Secondly, there remain, obviously, deep divisions within 
the region on how to fix the dams, ranging from leaving them 
alone to taking out at least five of them. We have developed a 
strategy which was contained in the 1995 biological opinion for 
the hydro power system for resolving this dilemma which has 
three facets. A set of interim operations, given the current 
configuration of the dams, to improve survivals, continuing 
research on where precisely we are losing the fish through very 
robust evaluations of mortalities associated with each of the 
four Snake dams, and a thorough evaluation of the different 
options for fixing the system and the biological and economic 
impacts of each option.
    We firmly believe that this course is the correct course. 
We are gratified that the States of Washington, Oregon, Idaho, 
Montana and Alaska have all called for the full implementation 
of this path in the recent American Rivers litigation 
challenging the biological opinion. We are furthermore pleased 
that a recent Federal court decision upheld that pathway. Given 
the degree of differences on that subject, this is considerable 
progress indeed.
    Further, we are committed to working directly with the 
State and tribal governments as we implement the year-to-year 
interim operations and as we develop the range of alternatives 
for the long-term fix. We furthermore are committed to working 
with State and tribal governments for the selection of that 
preferred remedy for the system in 1999.
    We believe that any remedy will be worthwhile only if 
successfully implemented. Successful implementation will 
require broad agreement among the governments in the Pacific 
Northwest that it is the right remedy.
    Let me turn to the bigger picture, my time has almost 
expired.
    Mr. Crapo. You have taken such a hit in these hearings, you 
can have a little extra time.
    Mr. Stelle. Well, if I may, Mr. Chairman, let me just 
describe a couple of points on the recent decision on the 1997 
transportation scenario. First, the State of Idaho, let me 
point out and emphasize, has been a solid participant in the 
day-to-day hard work of implementing changes to the hydro power 
system, along with the States of Oregon and Washington, 
reflecting I believe the States' commitment to a regional 
approach. We appreciate that, we applaud that and we encourage 
the State to continue at all levels.
    In 1996, NMFS and the other salmon managers worked 
successfully with the State of Idaho under the State's 
leadership on ad-

justments in reservoir operations to accommodate some interests 
pertaining to Dworshak.
    In 1997, Idaho proposed its steelhead plan which called for 
leaving two-thirds of the juvenile steelhead in the river 
rather than transporting them down around the eight downstream 
dams. After considerable review and discussion among the salmon 
managers at various levels, I decided that we could only 
accommodate the Idaho plan up to a certain point reflecting 
the, quote, spread-the-risk strategy which we adopted last year 
in consultation with the salmon managers and reflecting a 
similar strategy called for in the Northwest Power Planning 
Council's fish and wildlife program. I made this judgment based 
upon my best professional judgment that placing more fish in 
this river would only subject them to a higher rate of 
mortality, an outcome that is not consistent with our 
obligations under the Endangered Species Act. The above 
decision reflects, in my judgment, the best scientific 
information available. It is consistent with the findings and 
recommendations of the Snake River Recovery Team, the National 
Academy of Sciences and the recent report of the Independent 
Scientific Advisory Board. It is a situation where, 
unfortunately, the best science is not always the most popular. 
We must stick with the science.
    On the bigger picture, progress on protecting and restoring 
habitat, modernizing hatchery practices and properly managing 
fishing must and will proceed. Progress in each area is 
essential for long-term success. The governments of the region 
should and must work hard to develop a set of options for 
fixing the Federal hydro power system. That process is underway 
and it deserves to proceed. The governments must also work very 
hard to examine if broad agreement is possible on a remedy, 
because it will be the best for the fish and for the region.
    There is in fact a large confluence of agreement on many, 
many aspects of a salmon recovery program and I would surmise 
that in looking at our draft recovery program for salmon in the 
Snake, that there is probably an 80 percent plus overlap with 
the fish and wildlife program of the Northwest Power Planning 
Council. Most of the basics are agreed to. We must not get 
distracted by those issues that require further resolution.
    To an interest which I understand you are particularly 
interested in. In the upper Snake, the Bureau of Reclamation 
and NMFS have reached an agreement in the 1995 biological 
opinion that resulted in the contribution of an annual 
additional 427,000 acre-feet of water from the upper Snake 
through 1999, acquired on a willing buyer-willing seller basis. 
The Bureau, with the support of the State of Idaho, has been 
successful in meeting these commitments and we encourage that 
progress to continue.
    In light of pending litigation on the matter, we have also 
agreed to undertake a consultation on the activities of the 
Bureau of Reclamation and are currently progressing with that 
consultation.
    The resolution of the issues on the lower Snake and John 
Day and the Federal dams may also have a direct bearing on the 
long-term role of flow augmentation from Montana reservoirs and 
the upper Snake basin. It is therefore our preference to work 
with the parties to develop a larger conservation agreement 
that might encompass issues associated with the operation of 
the Reclamation projects in the upper Snake and the Hells 
Canyon complex as the governments address the question of what 
to do about the Federal dams in the lower river so that through 
this larger agreement certainty and stability is provided to 
the basin and we succeed in our long-term efforts at salmon 
recoveries.
    We have broached these options informally with a number of 
the parties and will continue to explore them in the coming 
months.
    In conclusion, let me state simply that the issues 
associated with salmon recovery are extraordinarily complicated 
and controversial, Mr. Chairman. The divisions within the 
region on certain aspects of the recovery effort run deep and 
the emotions run high. In this most difficult setting, going to 
the issue of leadership, our role and responsibility, in my 
view, is to articulate a clear pathway for fixing the hydro 
power system, as clear as we believe is possible, to base that 
pathway on the best science available, to provide an open 
collaborative process with the other governments in the region 
to implement it, and to stick with it.
    Given the winds of controversy that buffet this subject 
almost daily, consistency and a commitment to a clearly 
articulated pathway based on good science is absolutely vital.
    Thank you and I look forward to what I anticipate to be a 
few questions.
    [The prepared statement of Mr. Stelle may be found at end 
of hearing.]
    Mr. Crapo. Thank you, Mr. Stelle.
    Let me start out with you, Mr. DeHart, we will pass the 
microphone back your way.
    As I read and listened to your testimony, tell me if I 
correctly understood it. It seems to me that with regard to the 
issue of what process for decisionmaking we need to follow, 
that you are basically saying that the current system we have, 
with maybe some refinement, is a good system and that the--and 
I construe that system to mean that there is basically a 
Federal decisionmaker with collaboration with the other 
governmental entities, but that the final decision is made by 
the Federal sovereign. Do you understand it that way and have I 
correctly characterized your approach to the issue?
    Mr. DeHart. Congressman, my view is that this issue does 
not primarily turn on process and that you will not solve it 
through process. I do not believe that the process to date has 
served us well, it has led to conflict and stalemate, but the 
right parties are generally at the table, they are sharing 
information. What we lack are the ways to drive those decisions 
to a conclusion with clearly understood justification that will 
make those widely acceptable and then move into implementation. 
I do not think you will solve that problem just by a different 
process structure. We need to work on the substance of how we 
make decisions and how we resolve disputes.
    Mr. Crapo. How would we work on that, how would we achieve 
that last step that is necessary?
    Mr. DeHart. Concerning disputes, Congressman?
    Mr. Crapo. Yes.
    Mr. DeHart. We have suggested, and indeed are working with 
the Federal Government, as one outcome of the American Rivers 
lawsuit, a dispute resolution process that we hope will get 
around what has been something of a stalemate to now, where 
each agency retreats behind its own statutory responsibilities 
and the limits on those. And that is showing some progress, 
though it will require that the Federal Government I think 
stretch out somewhat further than it has before in its 
decisionmaking.
    Mr. Crapo. Some differences of opinion have come up today 
in terms of who really has the decisionmaking authority in the 
region. Some have said NMFS effectively controls the 
decisionmaking because nobody really, for one reason or 
another, dares violate it or go contrary to the biological 
opinion. Others have said that there are agencies who are very 
willing to do that, the Corps of Engineers being one.
    Do you believe that there is effectively a Federal 
decisionmaker?
    Mr. DeHart. No, Congressman, not in the sense that you mean 
it. Certainly the biological opinion is now driving river 
actions in a way that they were not controlled before toward 
fish protection, but as I mentioned in my testimony, because of 
some of the uncertainties in how those measures are implemented 
and what they really mean, that has created a great deal of 
gray area and we have seen Federal river operators freely take 
advantage of that and that is what has led to many of the 
disputes that have characterized river operations in the last 
several years.
    Mr. Crapo. Okay. Why do we not move to Mr. Bowles for just 
a minute.
    Mr. Bowles, you indicated that you think the root cause of 
the problem basically is that we are focused too much on--I do 
not want to say this wrong, I have it written down in my own 
words here--the process and basically pursuing the status quo; 
is that correct?
    Mr. Bowles. Yes, basically the default operation is to try 
to figure out how to do something for the fish without 
significantly altering the status quo. And I feel that is 
flawed and somewhat dishonest to the public, because this is 
not a cheap or benign status quo. And if we cannot recover the 
fish with any semblance of the status quo, let us be honest 
with the public, put what is biologically required for the fish 
on the table and put our efforts not into figuring out just how 
much to tweak the status quo, but put our efforts into figuring 
out what is socially acceptable and how do we keep society 
whole on these various interests. And that is where we are 
really falling short. The process is one of debating the 
science and figuring out interim activities during this pre-
1999 period. All our effort is put into figuring out how to 
plod along tweaking the status quo, and very little, other than 
the PATH group, is really focused on getting society prepared 
for the 1999 decision.
    Mr. Crapo. One of the comments that I think both you and 
Mr. Stelle have made is that science needs to be critically 
evaluated. You have a disagreement on science, I think it is 
pretty obvious. One of the questions that I have is--I am going 
to be asking you this later on, Mr. Stelle also--we have had a 
lot of testimony here today and a lot of discussion over the 
years about how important it is to make sure that our recovery 
plans include good science. In fact, I used to say that all the 
time--I still do. But I have found out over the years that 
everybody believes in good science, and everybody has their 
science.
    Now Mr. Williams, if he is still here, is a part of a team 
that is hopefully going to resolve that for us, but are we not 
now at a point where we are competing with different 
interpretations of what the science says we ought to do?
    Mr. Bowles. Actually I do not feel we are. The main 
roadblock in science consensus right now is pretty much limited 
to one group and that is NMFS' own science group. The consensus 
on most of everything else is that the dams are the problem and 
that transportation or an out-of-river type solution is not 
going to work, from all of the sovereigns involved, those that 
have statutory authorities for the management of the fish. The 
scientists associated with NMFS, none of the other groups are 
adamantly holding up a defense that transportation does work, 
believe that it does work, it does mitigate for the hydro 
system and that the reason that we are in decline is because of 
the killer ocean. PATH is resolving that debate and it will 
resolve that, and we are, I guess, somewhat content to let the 
PATH process do its job and I am very confident in its results. 
But what is regrettable is that the focus on debating NMFS' 
views has left us short on being able to prepare society for 
the 1999 decision. All our efforts are on debating the 
science--and this is really a social and economic question. 
Instead of debating the science, let us figure out how to do it 
socially and economically and keep these entities whole.
    Mr. Crapo. Thank you. Let me ask you to give the microphone 
to Mr. Stelle for just a moment here.
    I want to give you a chance to give your response to the 
same question, but if I understand your testimony correctly, 
Mr. Stelle, you took your position against the Idaho policy 
based on your conclusion that the clear weight of the 
scientific information did not support what Mr. Bowles says--I 
think he would be saying--that he thinks the clear weight of 
the scientific information did support. Do you want to clarify 
that, Mr. Bowles and then we will get to Mr. Stelle.
    Mr. Bowles. We need to be careful, Congressman, that we do 
not confuse long-term recovery with interim measures to do what 
is best for the fish. And the 1997 transportation debate 
focused on what was best for the fish, given the configuration 
of the dams and the flow that we had from mother nature in 
1997. Okay? What I am speaking to, what my comments focused on 
was more of the long range vision of how do we get truly to 
recovery. And as we have heard from Dr. Williams and others, 
you are unlikely to get there through a transportation 
approach.
    Mr. Crapo. So you are not saying that NMFS' decision not to 
accept the Idaho policy was a part of or an indication of NMFS' 
intention?
    Mr. Bowles. No, I am saying it is an indication of their 
prejudice, but what I did not want you to get confused is that 
the in-river versus transport issue on a year-to-year basis 
before we get to 1999 is tied in to the long term, directly. 
There is an indirect link to the long term and it does show 
where our heart is, but that issue was more specific to what is 
best for the fish given this year's situation, and we do differ 
quite radically on our interpretation of what was best for the 
fish.
    Mr. Crapo. On the short term.
    Mr. Bowles. On the short term, yes.
    Mr. Crapo. Okay. Mr. Stelle, do you want to respond or has 
he clarified that or not?
    Mr. Stelle. Yeah, I would like to respond. First of all, Ed 
is correct that it is very important to distinguish what is 
best for downstream migrating juveniles through the eight dams 
as we currently have them configured--basically what do we do 
right now--from whether or not, for instance, transporting fish 
around the dams can provide for long-term recovery. Those are 
two completely separate issues. The issue this year, was given 
the current configuration of the dams and, Congressman, you 
stated it quite precisely and you were correct in your 
formulation, given the current configuration of the dams, what 
is the weight of the scientific evidence? Does it--is the 
weight of the scientific evidence that it is safer for fish to 
put them in this river, or not? And I think it borders on the 
unequivocal that it is safer to keep the fish--to collect and 
transport the fish around these eight dams than leave them in 
the river, and I have not seen any specific information that 
would argue to the contrary.
    I would also cite to you the fact that the National Academy 
of Sciences looked at this very closely, and although people 
will attack the National Academy of Sciences' report because of 
all of the hysteria on this particular topic, they were not 
born yesterday and they are very sophisticated scientists and 
they agreed.
    Mr. Crapo. So if I understand the two of you, there is a 
strong difference of opinion on what the science says for short 
term.
    Mr. Stelle. To be honest with you, Congressman, I listened 
very closely to Ed's presentations before the Executive 
Committee on this subject and Idaho at that time was not 
arguing--the biological argument was not that more fish will 
survive, it is that as a general matter, in-river survivals are 
better in better flow--in years of better water. We do not 
dispute that.
    Our view though, and again, I have to emphasize that in my 
view and I think Rick Williams corroborated that this morning, 
that given the current configuration of this river, this river 
kills fish.
    Mr. Crapo. But did you not just say that you accepted the 
argument that in a high flow year, transportation was not the--
how did you say that?
    Mr. Stelle. The data that we have indicates that when flows 
are better, in-river survivals are better. That is a very 
different question than whether or not, nevertheless, given 
both routes of migration, are fish likely to die more in-river 
through the dams and the pools or die through being collected 
and transported. And again, on that question, I believe some 
pretty robust empirical information tells us that putting fish 
in the river will kill fish.
    Mr. Crapo. Is that information not based on low flow years?
    Mr. Stelle. No, it is a range of years. There are about 22 
or 24 transportation studies over the last 15 years, the most 
recent ones being by far the most robust, and they cover a 
range of conditions.
    Mr. Crapo. Do you agree--I will stick with Mr. Stelle for a 
few minutes because he has got me thinking about some things.
    Mr. Stelle. Congressman, could I make one point?
    Mr. Crapo. Sure.
    Mr. Stelle. It is, I think, to reinforce what Ed's 
perspective is or one of Ed's points. A judgment about what 
kind of survival benefits you can bilk out of the system as it 
is current configured, and whether or not you can bilk more 
survival benefits from collecting and transporting them around 
the dams or leaving them in the river is one thing, and it 
gives us some guidance on what we should do today and tomorrow 
and the next day, because we have the system as we inherited 
it.
    That is a completely separate issue from whether or not the 
survival benefits you are able to secure from either route of 
migration is going to be enough to support long-term 
sustainable rebuilding of these runs. That is the key issue.
    This minor issue of how many fish you put in a barge in 
1997 is just that, it is a sideshow. The big issue is given the 
current configuration, what are reasonable expectations of what 
kind of survival benefits we can get through transportation, 
through in-river migration, through improvements in the surface 
collectors, et cetera, et cetera. That is the bigger issue.
    Mr. Crapo. Would you agree then with the comment that was 
made by one of the earlier witnesses who I believe attributed 
it to Dr. Chapman, but since he is not here we will not hold 
him to that. But the comment that said that essentially 
sticking with the current configuration of the dams will only 
delay extinction.
    Mr. Stelle. I think my view on that is that that precise 
issue is probably the most important issue that the PATH 
process needs to resolve. And what the rate of survivals are 
that will be necessary to avoid extinction and support recovery 
is the essence of the scientific debate that is going to occur 
now. My own view is that, given what I understand today, at 
best we will continue to bump along the bottom of the recovery 
barrel.
    Mr. Crapo. All right, and----
    Mr. Stelle. But again, that issue is really central to the 
analytical work now being done by the group that Doug DeHart 
described, the PATH analytical group.
    Mr. Crapo. Okay. Do you want to hand the microphone back 
and we are going to come back to that, but let me finish with 
Mr. Bowles first.
    When you indicated then, Mr. Bowles, that you felt that 
NMFS' approach is basically perpetuating a failed solution, 
explain that a little more to me, what is it exactly that you 
were saying?
    Mr. Bowles. Well, it actually starts from a fundamental 
difference in a founding premise, I guess if you will, as a 
salmon manager. Mr. Stelle stated that they have a very strong 
empirical data base that the fish do better in the barges. I 
disagree with that, the only official scientific peer review of 
transportation disagrees with that assessment.
    Mr. Crapo. Which one is that?
    Mr. Bowles. This is the Mundy report, the only ones that 
officially took on transportation. And where I am getting at is 
for high-flow situations--his statement was that under all 
conditions, fish do better in the barges. The issue that Idaho 
brought to the table was that under the bounty that nature 
provided in 1997, where is the compelling evidence that tells 
us to take these fish out of the river and put them in the 
barge? There is none. The data set on high flow years similar 
to what we had, similar to the 1982 through 1984 situation 
where we had good adult returns and high flows, there is no 
transport benefit information.
    Given that, we would like to err on the side of keeping the 
fish in the river under that uncertainty, or at least--we did 
not want to put all the fish in the river, we just wanted what 
we considered a more equitable balance.
    Mr. Crapo. Let me interrupt a minute. Mr. DeHart, do you 
agree with that, with Idaho's approach on that issue?
    Mr. DeHart. Oregon and Idaho have not always seen exactly 
eye-to-eye on in-year decisions and we did have some 
disagreements this spring on elements of the Idaho plan, to be 
fair. But on the issue that we are talking about here, I think 
we see this very much the same, and frankly when I look at the 
data set that is available to us right now and when I look at 
survival of those fish, which is the important issue, what I 
see is that survival of not only in-river fish goes down in 
low-flow years, but survival of barged fish also goes down in 
low-flow versus high-flow years, a very important point. And 
that is today, if you think barges are going to solve the 
problem of low flows in the Columbia and Snake River, you are 
wrong, and there is plenty of information there right now to 
show that.
    Likewise when you look at the issue of how much of an 
increase in survival it would take to bring about recovery, and 
here the PATH analysis has helped us a lot already, the answer 
is almost a 10-times increase, and the actual experience over 
20-plus years of trying to improve survival of barged fish has 
actually been, if anything, somewhat of a downward trend in 
survival, certainly not any significant increase through years 
in altering the methods of handling and moving fish.
    So I think there is enough information on the table now, 
and I think Idaho and Oregon are in agreement there, that you 
could draw a final conclusion on where that technique fits in 
the strategy. I think that is the main thing that is wrong with 
barging at this point and how it fits in the debate, not the 
question of how we can use it in 1997 and whether that is the 
best part of the mix, but do we continue to push it forward and 
spend time, energy and political capital on it, or do we set it 
aside and say no, that is not the path to recovery and now let 
us figure out which viable paths are out there and start 
building a consensus and a case for one of them.
    Mr. Crapo. Keep the microphone for a minute, Mr. DeHart. I 
am going to ask you and Mr. Bowles and Mr. Strong the same 
question I asked Mr. Stelle, and that is do you believe that if 
we maintain the current configuration of the dam; in other 
words, maintain the status quo with the configuration of the 
dams, that that will simply--I have got to get this said 
right--simply delay--any other options we might undertake, 
whether it be barging or spill or whatever, will simply delay 
extinction?
    Mr. DeHart. If our objective is the objective of the 
Endangered Species Act, to restore naturally spawning runs of 
fish to upriver areas that can sustain themselves, I do not 
believe you can get there without major changes in the system 
of dams and reservoirs in the Columbia and Snake River.
    Mr. Crapo. But you are not ready to say that if we do not 
do something, we will see extinction?
    Mr. DeHart. Oh, I am ready to say that, yes. I mean 
extinction in the sense of losing natural populations. We can 
maintain the genetics of some of these fish through captive 
brood programs, through supplementation, through some other 
means, but we will lose natural, self-sustaining populations.
    Mr. Crapo. Okay, Mr. Bowles.
    Mr. Bowles. I agree. I think the science is pretty 
unequivocal on the risk and that is the reason for the 
threatened status and the fact that it should have gone to 
endangered for spring-summer chinook but it was just an 
administrative oversight. So that aspect speaks for itself of 
where these fish are. I do not think they are going to go 
extinct tomorrow or the next day. I think they will continue to 
drain the resources and the talent and creativity of the 
Northwest, that is the ball and chain analogy, for the next 
probably two-three decades. And the lower the numbers get, the 
more expensive it is going to be, like we are seeing with 
sockeye.
    Mr. Crapo. Thank you. Mr. Strong, do you remember the 
question? The question is if we do not do something with the 
dam configurations, the current configuration of the dams, will 
we simply delay extinction.
    Mr. Strong. Science has been attendant since the dams were 
built and every generation of scientist that came along bragged 
about the ability to make life better and improve upon things. 
And we have seen nothing but destruction. These dams have 
already killed many, many stocks of salmon in the Columbia 
Basin. I do not know how much more evidence it takes before we 
believe what is happening before our eyes, and it is only 
because we want to make ourselves feel good somehow, that we 
have such a guilty conscience that we believe that if we put 
some more science out there, that we are going to make 
ourselves feel good enough that we are actually doing 
something, when we are just appeasing our political conscience 
and we are not doing anything for salmon.
    These dams and everything else that are associated with 
this development are driving all of these salmon into 
extinction. Of everything that has been killed, we have a very 
small percentage of those salmon left and we are playing with 
them. And we are going to lose them and unless somebody steps 
up to the plate and says that enough is enough, we may as well 
bid all of these salmon and other species that are associated 
with them in this river system goodbye.
    Mr. Crapo. So I took the answer from the three of you, in 
one context or another, to be that we have got to do something 
about the configuration of the dams in order to restore the 
species. What? Why do we not go back across. And when I say 
that, I am not asking you to--I suspect that some of you may 
know exactly what you want to do, but I am not asking you to 
say exactly, and I am going to give you, Mr. Stelle, an 
opportunity to answer the same question a little later. But 
options, you know, when we say the current dam configuration is 
not acceptable, then what are the options we have to look at? 
Mr. Strong?
    Mr. Strong. When it was first of all stated that perhaps 
harvest was the problem, I mentioned the moratorium on summer 
and spring chinook in 1964 and 1977, you heard testimony that 
when the Federal Government felt that a cow was perhaps capable 
of killing one salmon, they were forbidden, somebody is 
supposed to train the cow not to step on these redds or train 
that cow not to kill a salmon. But all of the science that 
engineers have brought to these dams, they should be smart 
enough to know what to do about it. They will not accept what 
is right because it costs them money. That is what is driving 
this.
    Barging was brought in to help alleviate the problems and 
shield us from embarrassment because these dams are killing the 
salmon. What is better than barging in terms of configuration 
is breaching these dams, let the water flow around the dams, 
decommission them, they are not needed for electric development 
here in the Snake River. They are there for another specified 
purpose, many of them are not even needed for flood control. 
The Idaho Statesman recently commented about the cost of 
decommissioning versus the benefits from decommissioning. But 
somewhere, if the authorities do not rest clearly with the 
people in the region, and the people in the region are relying 
upon political leadership, that political leadership is going 
to have to step forward.
    I do not know how much more volume we can turn up our 
voices before Congress and the Corps and others say I think we 
have heard enough, I think we have seen enough, history has 
told us how we should reconfigure. I think that the choices are 
not that difficult to make out there.
    Mr. Crapo. Thank you. Mr. Bowles, what options do we have?
    Mr. Bowles. Well, as I have said many times before, I view 
this as somewhat of a biological no-brainer. Just 30 short 
years ago, we had 120,000 wild salmon and steelhead coming into 
Idaho. That is not that long ago, that was with four dams in 
place, and viable fisheries, viable, healthy, sustainable runs.
    So there is no doubt that the fish are going to do much 
better, in my opinion and what PATH is coming to, and have a 
high probability for recovery under a natural river condition 
in the lower Snake. But this is not a biological issue, that is 
not what this is pivoting on, that is what it has been cloaked 
behind but it is really not the essence of this. It is a social 
and economic one.
    So for me to say what we need to do biologically, to me 
that is very easy. Let us start with something like that, let 
us get together with the social groups, the local communities 
and let us aggressively pursue ways of keeping these sectors 
whole. I think the solutions are there and I think if we put 
our effort into that instead of debating the science, we will 
find a solution nearby.
    But that is the place to start. If there are areas that are 
unacceptable, backup to less of what the fish require until we 
get to something that is socially acceptable. But let us first 
give it a fair chance to do the right thing for the fish and 
find a way to balance this with societal needs. But you cannot 
do it without societal acceptance. For the Federal Government 
to come in and try to lever-

age something like that would be extremely flawed, it has got 
to come from social problem-solving, you know, community-based 
problem solving.
    Mr. Crapo. All right. Mr. DeHart.
    Mr. DeHart. I would agree with Ed that I do not think the 
real issue here is science. It is fairly easy to lay out a 
suite of different alternatives that clearly would have 
biological benefits, and you have heard several of those just 
now. There is no way around the fact that returning stretches 
of the river to its pre-hydro power condition as a free-flowing 
river, however you did that, would be biologically beneficial 
to fish. It is clear because we are facing a cumulative 
mortality problem that if there were fewer dams on the river, 
that would be biologically advantageous. It is clear if the 
projects, dams and reservoirs were smaller, they would have 
less impact on fish than they do now.
    The only scientific question there is how far do you have 
to go in doing that to bring about the recovery objective that 
you have. So I think Ed is right in pointing to the fact that 
science will only take you part way here and then it is a 
political and economic and social decision.
    But also just a comment at the risk of being accused of 
practicing engineering without a license I guess, the 
hydroelectric system of this region is aging and wearing out at 
this point. Even if you wanted to maintain the status quo, that 
will require huge new investments in those projects. So 
fortunately for us, we have the opportunity to ask the question 
how do we want to make that investment. If it is not in the 
status quo, well then in what alternative. And that is an 
important point because it means that some of these 
alternatives really are not as expensive as they sound at first 
blush, because you have to subtract off what you would have 
spent anyway.
    So that is a perspective I think that is worth considering.
    Mr. Crapo. What timeframe are the facilities, you say they 
are wearing out. Is there a timeframe you are talking about?
    Mr. DeHart. Well, we are looking right now at the 
replacement of the turbine units at the original powerhouse at 
Bonneville Dam. We have had frequent failures of turbine units 
at Ice Harbor Dam and at John Day Dam. Those are projects that 
approximately 30 years old at this point, the last two. The 
first one is more like 50 years old. Wells Dam just replaced 
all of its turbines, so this is a problem that the Corps of 
Engineers is dealing with and planning for and budgeting right 
now, in how they replace and rebuild these facilities. So it is 
a fairly short-term issue.
    Mr. Crapo. All right, thank you. Back to you, Mr. Bowles.
    On page three, I believe it is, of your testimony----
    Mr. Bowles. Oral or written?
    Mr. Crapo. Your written testimony. You indicated that even 
the proponents of the bad ocean argument have found no evidence 
for different distribution patterns of closely related stocks. 
Although the ocean environment is a powerful regulator of 
salmon abundance, this sort of extremely selective phenomenon 
has no plausible basis in fact. I think you were referring to 
the fact that chinook runs in the lower Columbia River in some 
areas have to negotiate fewer dams than others, and they are 
doing better. Is that right?
    Mr. Bowles. That is correct. This is based on the PATH 
analysis and their conclusions document.
    Mr. Crapo. The reason I raise that with you is because I 
have had people tell me that that is not the case. In other 
words, that the explanation must be in the ocean because fish 
that have to negotiate a lot of dams are not doing any better 
than fish that do not have to negotiate any dams or very few 
dams. Are you saying that the science now is suggesting 
otherwise or that that is not a correct analysis?
    Mr. Bowles. Yes, the PATH group, which I reiterate is a 
group of scientists from, you know, agencies, tribes, Federal 
and State as well as universities and some consultants, it has 
very rigorous peer review, independent peer review outside of 
this northwest group, and their conclusions document is very 
clear that the decline and continued suppression of upper basin 
stocks is because of the dams, and has not been mitigated 
through the transportation system, that it is still at a far 
lower productivity level or survival level, than down river 
stocks.
    Now ocean productivity and characteristics are extremely 
important in regulating population abundances--no doubt about 
it. But to say that the ocean has affected all stocks and they 
are all going down is not at all correct. You look at the data 
set and it shows very clearly that the upper river stocks are 
in significantly more trouble than the down river stocks, 
throughout the time series.
    And basically if I could just expand on this a little bit, 
what it translates into is, in order for NMFS'--and this is 
NMFS' scientists that are primarily proposing that the hydro 
system has been mitigated through the transport system--in 
order for that to hold scientific ground, the hypothesis can 
basically be stated this way: that upper basin stocks, both 
upper Columbia and Snake, go to a spot in the ocean that is far 
less productive than other stocks and that only the upper basin 
stocks go there, and that they only go there during years of 
drought and poor ocean conditions. The hypothesis--and that 
actually is now the one NMFS scientists are proposing, PATH has 
taken that on. Regrettably, we actually have to scientifically 
debate that one. I think we need to get beyond that myself. But 
PATH is looking at it.
    Mr. Crapo. All right. Mr. DeHart, did you want to make a 
comment there?
    Mr. DeHart. Congressman, just one quick fact to add to that 
that I think helps with the argument that Ed just made, and 
that is compare fall run chinook salmon on coastal waters of 
Oregon and Washington to the fall chinook of the Snake River, 
you have got a fairly close comparison there in terms of life 
history type. What is going on with those coastal stocks at the 
same time? Sure, they go up and down with ocean conditions. 
Right today, on the Oregon coast, we have got populations that 
are just as big as they were in 1900 where of course the Snake 
River fall chinook populations have fallen to a couple of 
percent of what they were at the turn of the century. And that 
certainly cannot be explained by ocean conditions.
    Mr. Crapo. All right. Why do you not pass that down to Mr. 
Stelle, and I want to go through a series of questions with 
you, Mr. Stelle.
    As I have listened to the statement today, it still seems 
to me that there is a strong disagreement on the short-term 
part of this with regard to the 1997 decision. It still seems 
to me there is a strong disagreement between you and Mr. Bowles 
and probably Mr. DeHart as well, on what the science says. 
Would you take that from this discussion, or have I 
misunderstood it?
    Mr. Stelle. Mr. Chairman, I would not say it is a strong 
disagreement, it is not a deep disagreement. Doug or Ed, 
correct me if I am wrong. I think again, this is a--this is not 
a major issue one way or the other. I mean if Ed wants to say 
that the State of Idaho is absolutely convinced that the weight 
of scientific opinion is that more fish survived in the river 
in 1997, I have not heard that from the State of Idaho. So no, 
I do not think it is a strong point of disagreement. Ed, do you 
want to disagree?
    Mr. Crapo. I saw a little body language there, Ed.
    Mr. Bowles. It is kind of switched again from the long 
term.
    Mr. Stelle. Absolutely. Well, I was just asking a short 
term question.
    Mr. Bowles. It makes it a little--I mean, I can speak to 
the short term, if you would like.
    Mr. Crapo. Why do I not have Ed speak to the short term and 
then I will be thinking on the same wave length and then I can 
come back to you.
    Mr. Stelle. I think my view on the short term issue was 
very ably described by Rick Williams of the ISAB.
    Mr. Crapo. Okay.
    Mr. Bowles. And I agree with Mr. Stelle that I think it is 
more productive to look at how this fits into the long term, 
and so I agree with him that this is a minor issue itself, but 
it does hint at some perspectives that I think are causing us 
to lose taking advantage of the opportunities we have to solve 
this problem. They show the propensity of NMFS to hold onto 
transportation as the way, the default way of operating, and 
that does affect the long range decision and it affects the way 
we deal with that.
    But just on the short thing, what I was getting at earlier 
was that our starting premises are different. Our default, even 
on the short-term, should be to keep the fish in the river or 
at least have a viable spread-the-risk migration policy unless 
there is evidence to take them out of the river. And I think 
NMFS may disagree and Will can speak to this on his own, but 
their default is to take the fish out of the river unless there 
is evidence to keep them in. There is no data set that says 
transportation is better than in-river under high flow 
conditions--there is none. NMFS' own consultant that they hired 
to do an evaluation recommended putting far fewer fish in 
barges than the State of Idaho did under the conditions we had 
in 1997. Their own consultant they hired to develop what they 
called a transportation rule curve said that under high flow 
conditions, much more fish should be left in the river. The 
State of Idaho recommended putting more fish in the barges than 
NMFS' own consultant said. And so to characterize this as a 
closed book on the in-river versus transport on this interim 
period, I think is misspoken. But that still does not address 
the long-term recovery issue because neither the current in-
river or trnasportation can save the fish. Let us not get 
bogged down too much, Congressman, in the short term. How does 
it affect the way NMFS is dealing with the 1999 decision 
process. That is the key question.
    Mr. Crapo. So he says, Mr. Stelle, that there is a bias 
there and the 1997 decision was an indication of that bias.
    Mr. Stelle. Actually, let us look again, my first 
preference, Mr. Chairman, was not to get hung up on the 1997 
decision because I do not think it is material to the long term 
remedy. Having said that, the decision in fact was to adopt a 
spread-the-risk approach, largely in deference to the 
continuing debate within the region, which means that our 
instructions to the operators was to manage the system so as to 
end up transporting around--manage it toward the transportation 
of 50 percent. Now Ed cites an equal shot, that gets pretty 
equal to me.
    Mr. Crapo. But that is not what was done, is it?
    Mr. Stelle. Yes, the system is being operated I think to 
transport between 50 and 55 percent of the spring/summer 
chinook, is that correct?
    Mr. Crapo. Go ahead, Ed.
    Mr. Bowles. We are going to get into this, I guess.
    Mr. Crapo. Yeah, I do want to get into this.
    Mr. Stelle. My guidance to the operating agencies was just 
as I said and I can provide you a written copy of that 
guidance.
    Mr. Crapo. Okay.
    Mr. Stelle. And frankly, I do not know how the spill 
regimes are working, whether we are not we are getting those--
53 percent or 57 percent, I am not that familiar.
    Mr. Crapo. And this is salmon.
    Mr. Stelle. Yes.
    Mr. Bowles. And these are the spring migrants, the season 
is over, we are doing summer migrants right now, the fall 
chinook.
    Mr. Stelle. What were the percentages?
    Mr. Bowles. It depends, and this gets to a pivotal point on 
this, whether or not you are looking at listed fish or all the 
fish, and for all the fish, it was just above 50 percent. For 
the listed fish, it was upwards of 56 to 60 percent.
    Now maybe this will be productive if we look at it in the 
context of how the process works, trying to keep that in mind, 
because I have already debated this at length, you know, with 
NMFS and their staff.
    Mr. Crapo. Yeah, but I have not heard the debate.
    Mr. Bowles. But I am sure you do not want to revisit that.
    I think what is instructive here is how the process worked 
and Mr. Stelle is correct, the State of Idaho did come in and 
within the process with the recommendations worked very hard to 
develop a consensus and I feel we were quite successful with 
that consensus among the salmon managers. And this was 
overruled at the Executive Committee meeting, and even that in 
and of itself, I think the State of Idaho accepted and was 
grateful for and recognized Mr. Stelle's authority in doing 
that, and accepted that decision. Mr. Stelle characterized that 
right, it was to ensure that no fewer than 50 percent of the 
fish were in the barges.
    But he also made a statement which was consistent with 
their statutory responsibilities, that this was for listed 
fish. And this led to another place where the process broke 
down. So I feel Idaho, in very good faith, gave it our best 
shot; NMFS did do a good job of meeting us halfway and working 
with us on that. They overrode a consensus of basically 11 of 
the 12 salmon managers. So then we went forward and we figured 
out how to do it within the 50 percent.
    During that period, it became evident that listed fish 
versus unlisted fish transport at different rates and so we 
developed a transport operation that met the 50 percent 
criteria for listed fish. To make a long story short, things 
were changed by the operating agencies from what we had agreed 
to.
    Mr. Crapo. Are you talking about the Corps of Engineers?
    Mr. Bowles. The Corps of Engineers and the TMT, while Idaho 
was absent. They changed the operations to ensure that all fish 
stayed above 50 percent, and not just the listed fish. And so, 
we came in and tried to change that back through the process, 
through the TMT process. We put in a system operation request, 
and actually got consensus again from all of the salmon 
management agencies--entities except NMFS to again implement 
this thing, to correct what had been done wrong. That was again 
overruled by NMFS on what should have been a pretty minor 
issue, particularly listening to Mr. Stelle now.
    And what this comes down to is in the process of joint 
decisionmaking, obviously you have to have somebody who is 
going to make the final decisions if you cannot reach 
consensus, that is fine. But I think that entity must choose 
their battles carefully and to override two efforts that 
developed total consensus other than that authority group, to 
override that on these two different situations, for an issue 
that Mr. Stelle says is relatively minor, is somewhat 
disturbing in the process aspect of this.
    Mr. Crapo. Well, let me tell you--and I would like you to 
give the microphone back to Mr. Stelle and he can certainly 
respond to this. The reason this is--it might sound like I am 
just endlessly going into something that the witnesses here say 
is a minor part of the issue. The reason it is a big issue to 
me is because if there is a bias in the direction of what is 
suggested, that can have massive implications on the people who 
live in the State of Idaho, if that bias is carried through 
into the long-term decision.
    As you probably know, Mr. Stelle, from comments that I have 
made in the past, I have a concern that that bias is there. The 
question I have is--well, I guess I will just ask it to you 
directly. Is there a bias in the National Marine Fisheries 
Service in favor of transportation over other solutions?
    Mr. Stelle. No. And let me describe the reason why I say 
that and also let me describe--I think that raises a good point 
about why did you feel compelled to override an apparent 
consensus or lack of objection on a particular matter. It is a 
good question and it deserves a clear answer.
    In my view, the issue on--the transportation issue as it is 
proposed now in 1997 boils down to an issue of the role of 
science in decisionmaking here. And in my view, as I stated----
    Mr. Crapo. In the short term.
    Mr. Stelle. Absolutely. And in my view, the most important 
dynamic of the issue as it was presented in 1997 was the issue 
of the role of the best available scientific information in 
making sub-

stantive decisions. I was very much aware that lots of people 
did not agree with this and frankly it was not a comfortable 
position for myself to be in. And I do not particularly like 
being in those positions.
    But I feel very strongly that if we are going to have 
success in all of the facets of this effort, we must stick to 
what we believe to be the best evidence available on what is 
the right course. In my view, there is not a lot of 
equivocation on what the right course is in 1997.
    Mr. Crapo. Well, one of the reasons the concern is raised 
to folks like myself--and I would like you to comment on this--
Mr. Bowles indicates that 12 of the other salmon managers 
agreed or had consensus, and I realize it might not have been 
100 percent agreement, as Mr. DeHart has indicated that there 
were some differences on some aspects of the approach to salmon 
recovery, but 12 of the managers had consensus and NMFS says 
no, we are not going to go that direction.
    Mr. Stelle. Let me describe in a little more detail exactly 
what the nature of that agreement was, as I understand it, and 
Ed and Doug, please correct me if I am wrong.
    In fact, this issue was debated first, as it should be, at 
the technical management team level and a different set of 
options was evaluated and then in the absence of an agreement 
at that level on the transportation regimes and the operation 
of the spill and collector projects, it was elevated to the 
implementation team which are what I consider the senior 
program managers and I believe at the implementation team 
discussion there were several options being evaluated and as 
reported to me, there was an agreement between the States of 
Oregon, Washington, Idaho, NMFS and I do not know whether or 
not the operators were involved in this, in a spread-the-risk 
option and this was actually the State of Idaho moving some 
from their proposed position in order to reach an agreement. 
The lower river salmon tribes objected to that option, which 
was alternative six, I believe. And on the basis of that 
objection, the issue was elevated to the Executive Committee.
    When it was so elevated to the Executive Committee, the 
State of Idaho reiterated its preference for and its insistence 
on the Idaho plan, two-thirds in the river as opposed to 
spread-the-risk, and the other States to my knowledge did not 
object, expressed a preference for the spread-the-risk option, 
but chose not to object. And the tribal participants supported 
the Idaho proposal. So that was in fact the nature of the 
agreement, as I understand it.
    It is a little simplistic to simply say everybody agreed 
that the Idaho plan was the right way to go. That is not quite 
accurate.
    Mr. Crapo. Is it fair to say nobody opposed it?
    Mr. Stelle. Yes, that is exactly--at the Executive 
Committee level, there was an absence of objection to it, but 
for the objection of the National Marine Fisheries Service.
    Mr. Crapo. Okay.
    Mr. Stelle. And again, Mr. Chairman, I am just trying to be 
very precise here.
    Mr. Crapo. No, I understand that. And you are telling me 
that NMFS' ultimate decision to ignore, or not to accept----
    Mr. Stelle. I did not ignore it.
    Mr. Crapo. I realize you did not ignore it. Not to accept 
the Idaho proposal or Idaho policy.
    Mr. Stelle. In whole.
    Mr. Crapo. In whole.
    Mr. Stelle. Yes.
    Mr. Crapo. Does not show any bias whatsoever on the part of 
the National Marine Fisheries as to the ultimate outcome of its 
decision for the long-term recovery plan.
    Mr. Stelle. Absolutely. And on to the issue of bias, there 
are--in my view, we are absolutely open to making sure that our 
science, as well as everybody else's science is properly peer 
reviewed and subject to an open scientific evaluation process. 
It was we who decided the need to convene an independent 
science advisory board specifically to ensure that--and it was 
we who decided to bring in the National Academy of Sciences to 
help us construct that board, specifically because of the food 
fight that occurs here constantly in the region as to whose 
science is the right science. And it was my judgment that 
because of a lack of credibility of anyone, that convening an 
independent science advisory board with the assistance of the 
National Academy of Sciences was essential and that we were 
absolutely prepared to open all of our books to it whenever and 
wherever it so chooses.
    Mr. Crapo. And I agree with you on that. In fact, you and I 
had a telephone conversation about that when it was first 
happening, and I think that that was a correct decision.
    Does NMFS in fact intend to transport all the smolt it can 
during the 1998 smolt migration?
    Mr. Stelle. I will leave that issue to the process which we 
have in place, which is in late winter/early spring looking at 
the flow projections, decreases in flow projections. The 
technical management team will develop a set of options which 
will then be either reviewed by the implementation team. I do 
not want to prejudge that issue right now.
    Mr. Crapo. But that proposal has been put forward, is that 
correct?
    Mr. Stelle. I am sorry?
    Mr. Crapo. Has that proposal to transport all fish in 1998, 
or as many as possible----
    Mr. Stelle. A couple of my staff people have said based on 
the preliminary returns from the PIC-tag transportation studies 
this year, and this is the first year of the returns, those 
preliminary returns indicate basically a two-to-one survival 
benefit from transported fish. She said that if that holds up 
in evaluation, why would we put more fish in the river. That 
was purely a staff observation.
    My own view on that, which will be controlling, is that we 
will work that issue through the technical management team and 
the implementation team in the development of the 1998 
scenario.
    Mr. Crapo. But what you are telling me is at least the 
proposal to abandon this spread-the-risk policy has been 
raised.
    Mr. Stelle. At the staff level, in hall talk, yes.
    Mr. Crapo. Does NMFS assume the current configuration of 
dams in its approach to the 1999 decision?
    Mr. Stelle. It is a good question, and let me go to that 
and what I believe is important in that 1999 decision.
    We do not assume anything there. We assume that by 1999 we 
will have been able to develop the necessary biological and 
economic information associated with each of the five or six 
principal options in order to make a better informed selection 
of what the long-term remedy is. We can sit here at this table 
today and speculate, but because of the significance of the 
issue for the Pacific Northwest, it is my view that our 
obligation to ourselves is to pursue a very steady, open 
evaluation of the performance, the likely performance of each 
of these options so that we can then answer the question to 
ourselves, do we think we know what we are doing. Because when 
we get to the selection of a preferred alternative, it will be 
essential to be able to demonstrate to you and to all the other 
participants that yes, we believe that our projections of the 
outcomes of this particular alternative are reliable. And the 
issue of reliable projections is essential.
    Secondly, the issue of the economic costs and benefits of 
each of the particular options, going to Ed's point, and what 
the degree of economic impact may be on different sectors and 
what the opportunities might be to mitigate those impacts so as 
to be able to accept them as a region is also an absolutely 
essential facet of this effort over the next several years.
    Mr. Crapo. Okay. I am sure you have heard the argument, the 
gold plating argument.
    Mr. Stelle. Yes, I would like to speak to that.
    Mr. Crapo. Good. The Corps of Engineers is--well, let me 
just ask you, do you agree that the Corps' capital budget plan 
seems to predispose the region toward a particular recovery 
plan that requires flow augmentation as a continued recovery--
--
    Mr. Stelle. No, I do not agree.
    Mr. Crapo. [continuing] outcome. Okay, tell me why.
    Mr. Stelle. The issue, as I understand it, Mr. Chairman, is 
that in particular there were three or four sets of capital 
projects, dam improvement projects, in the 1998 Corps' capital 
program that were the subject and have been the subject of 
continuing debate. The salmon managers in the system 
configuration team, which is the team of people that try to set 
priorities for that Corps capital budget, reviewed these four 
projects and they involved the continued work on the collector 
project at the lower Snake, extended length screens at John 
Day, improvements to the juvenile and adult bypass facilities 
at Bonneville and I believe one other. Doug, do you remember 
what the other was?
    Mr. DeHart. Ice Harbor.
    Mr. Stelle. Ice Harbor, Okay. There was what I perceived to 
be a fairly strong agreement between the Federal and State 
participants in the SCT and implementation team that those four 
projects should proceed and that they did not constitute gold-
plating or prejudicing the 1999 decision, because--there are 
separate reasons for each, but for the lower Granite project it 
was basically that the question of the ability to develop 
surface collection to better collect and bypass or spill 
juveniles is an essential option.
    Mr. Crapo. May I interrupt right there? Is there any effort 
underway right now to accelerate the research on the surface 
collector design?
    Mr. Stelle. I do not know the answer to that, I think that 
the Corps was pursuing some additional reconfiguration of the 
prototype this year and testing it out with some curtains. I do 
not know whether or not--I think they are going full bore on it 
frankly.
    Mr. Crapo. All right, go ahead.
    Mr. Stelle. In essence, the salmon managers, the Federal 
and State salmon managers decided that these projects should go 
forward for various and sundry reasons, be it research or 
simply because we need the improvements in survival that they 
hold out, and that particularly in the case of John Day, 
obviously the question of whether or not John Day should be 
reconfigured is one of the major questions we have to get to. I 
think the salmon managers' judgment was that yes, even though 
we put those extended length screens in at John Day--in fact, 
for 5 days this coming year, the survival benefits of that, 
even if we end up deciding to take out John Day, will be worth 
it because implementing a drawdown decision, an extended 
drawdown decision at John Day may take us 10 to 12 years, and 
that therefore, the incremental benefits of those extended 
length screens are worth it and in their view did not prejudice 
that decision.
    For Bonneville, the issue was juvenile bypass at what Ted 
Strong and the Columbia River Inter-Tribal Fish Commission has 
rightly termed is a lousy bypass system and has been lousy for 
years. And I think again the Federal and State salmon managers 
decided that those bypass improvements were fairly reliable and 
would result in some fairly significant survival benefits.
    I have to say that the salmon tribes, represented by Mr. 
Strong here, do not agree with the Bonneville decision and I 
believe do not agree maybe with John Day. And we are looking at 
that very hard. My own personal view is that I want to sit down 
and look at the issue of the John Day extended length screens 
for 1999 and beyond, because maybe we should not be further 
pursuing any more investments there.
    Mr. Crapo. So you are prepared to give me your assurance 
today that the current expenditures are not intended to or 
designed to push the decision in one direction or another.
    Mr. Stelle. Absolutely.
    Mr. Crapo. The 1995 biological opinion provides that the 
water in the upper Snake River basin will only be acquired from 
willing buyers and willing sellers and in compliance with State 
law. You have probably heard me express concern about that 
remaining the case in any new decision that is made in 1999 or 
whenever it is made. Do you have any plans to approach 
obtaining water in any other way?
    Mr. Stelle. No.
    Mr. Crapo. If the water is not able to be obtained through 
a willing buyer-willing seller and is required by whatever 
recovery plan that you may approve or whatever biological 
opinion or whatever decision is made in 1999, how will you 
obtain it?
    Mr. Stelle. My view on that, Congressman, is that the 
subject of operations of the upper Snake reservoirs and the 
Hells Canyon complex and the relicensing of that complex should 
properly be open to negotiations between the Bureau--and this 
is the long term----
    Mr. Crapo. Right.
    Mr. Stelle. [continuing] between the Bureau, the Idaho 
Power Company, the States, the tribes and ourselves and that 
that in my view is very directly related to the issue of the 
lower Snake Federal projects. Hence in my view, our objective 
should be to try to reach a more comprehensive agreement that 
involves both decisions about those lower Snake dams and some 
long-term understandings and commitments about flows or flow 
augmentation from the upper Snake.
    Mr. Crapo. And those commitments again would come, if I 
understand it correctly, if the water is obtained only from 
willing buyer-willing seller arrangements, those commitments 
would have to come from individual water users.
    Mr. Stelle. Yes, and I believe the implementation of those 
commitments would require the continued support of the State of 
Idaho.
    Mr. Crapo. Do you have any opinion or knowledge of any 
legal opinions that would indicate that the managing agencies, 
whether it be the Bureau of Reclamation or otherwise, could 
obtain that water other than through a willing buyer-willing 
seller arrangement?
    Mr. Stelle. I heard the testimony this morning and the 
exchange this morning, and Mr. Chairman, that is not my area of 
expertise, so I really----
    Mr. Crapo. So beyond that, you have nothing to add?
    Mr. Stelle. No.
    Mr. Crapo. You heard us refer to the consultation this 
morning between the Bureau and NMFS.
    Mr. Stelle. Yes.
    Mr. Crapo. Do you have any plans on increasing the 427,000 
acre-foot amount that is now requested or provided as a part of 
this new consultation?
    Mr. Stelle. Can I give you a precise legal response to 
that?
    Mr. Crapo. Sure.
    Mr. Stelle. And let me describe to you why I am giving you 
a precise legal response. We have received a 60-day notice on 
that issue, we may well be in litigation on that issue and I do 
not want anything I say here to prejudice our ability to defend 
what we do in that litigation, and therefore, I am being 
careful.
    If your question is do we have any current intention of 
requiring more water beyond that which we called for in the 
1995 biological opinion, the answer is no. If your question is 
do we intend to look at all of the current available 
information and examine all of the issues in accordance with a 
normal and lawful consultation process, we do intend to do 
that. But at this point in time, we have no intention, based 
upon what we know and we believe we have considered all the 
relevant information in the 1995 biological opinion.
    Mr. Crapo. Who has filed the notice of intent to sue?
    Mr. Stelle. Oh, I do not know.
    Mr. Crapo. Is there only one?
    Mr. Stelle. Anybody here know that? Legal Defense Fund or--
--
    Mr. Crapo. There are several here that know, but we will 
find that out.
    Mr. Stelle. American Rivers. There are so many, Mr. 
Chairman.
    Mr. Crapo. Has--let us get it all, it is the American 
Rivers group, are there any others that are a part of that?
    Mr. Stelle. Again, I am not sure who signed that 60-day 
notice.
    Mr. Crapo. Mr. Ford, do you have an answer to that 
question?
    Mr. Ford. The lawyers have told me the Defense Fund and 
Northwest Environmental Defense Center, the plaintiffs are 
American Rivers, Sierra Club, National Resource Defense 
Counsel, Oregon Natural Resources Counsel, Federation of Fly 
Fishermen, Northwest Sportfishing Industry Association, Pacific 
Coast Federation of Fishermen Associations.
    Mr. Stelle. To name a few.
    Mr. Ford. Trout Unlimited may also be in there.
    Mr. Crapo. Okay, good, thank you.
    What is meant by the statements in your May 19, 1997 letter 
to FERC regarding the water diversion activities in the upper 
Snake River basin and progress on securing additional water? 
You are familiar with the paragraph that I am referring to, the 
second paragraph on page 2?
    Mr. Stelle. I do not have it before me.
    Mr. Crapo. I have got a marked up copy here and there is 
also a copy in the record from our previous hearing, but 
basically in your letter to FERC--I think I have got it here, 
yes--it states, ``The effectiveness of the FCRPS project 
operation seeking to achieve BO in-river flow objectives is 
dependent upon water diversion activities in the middle and 
upper Snake River basin and upon the operation of the Hells 
Canyon project situated in between.'' I will skip a sentence or 
two and then it says, ``Specifically, the BO adopted the 
Council's requirement for immediate provision of 427,000 acre-
feet and progress on securing additional water from the middle 
and upper Snake River and specific drafting levels from 
Brownlee Reservoir of the Hells Canyon complex in May, July, 
August and September.''
    The question that I have is the question in this 
consultation that is raised by that language of what ``progress 
on securing additional water'' refers to.
    Mr. Stelle. That is one of the numerous points that we 
intentionally incorporated in the 1995 biological opinion to 
try to draw that opinion as close as possible to the fish and 
wildlife program of the Northwest Power Planning Council. In 
our view--the Council program called for an additional one 
million acre-feet out of the upper Snake.
    Mr. Crapo. That is right.
    Mr. Stelle. We did not believe that that was feasible and 
that it would be inappropriate to request the Bureau to provide 
that. We therefore, in working with the Bureau, decided that 
the--that a firm commitment for the 427,000 acre-feet was 
feasible and implementable, but that we would continue to 
examine the possibility of additional water over and above 
that, in reflection of the Power Council's call for one million 
acre-feet.
    Mr. Crapo. Then what that tells me is that the Power 
Planning Council's call for an additional one million acre-feet 
is very much in play.
    Mr. Stelle. In my view, the agreement that we have now with 
the Bureau of Reclamation for the providing of 427,000 acre-
feet is the agreement that we will continue to look to with the 
Corps--with the Bureau and will be the subject of further 
discussions in the consultation. I do not know of any specific 
further measures for additional water from the upper Snake, if 
that is what your question is.
    Mr. Crapo. At least in occasional discussion and 
consultation with FERC and the issue of seeking an additional 
one million acre-feet, or at least looking at the issue of 
seeking an additional one million acre-feet in that 
consultation.
    Mr. Stelle. Again, to parallel and be consistent with the--
--
    The Reporter. Will you use the microphone, please? I cannot 
hear you.
    Mr. Stelle. Oh, I am sorry.
    So the issue is--and, Mr. Chairman, I am not even sure that 
the Federal Energy Regulatory Commission has decided to 
initiate consultation.
    Mr. Crapo. I understand that.
    What is the current progress on meeting the 1999 deadline 
for making a decision on the long-term mechanism for salmon 
recovery?
    Mr. Stelle. I would say it is good. In fact, at our last 
meeting with the State and tribal senior members of the 
process, we, in fact, had presentations by the mediator for the 
PATH process on their progress and on the--by the Corps of 
Engineers on their economic and engineering evaluations. We 
looked at the schedules. We even looked at the question of 
whether or not schedules should be accelerated or could be 
accelerated and what we might or might not sacrifice by 
accelerating decision schedules. We distributed a discussion 
paper on the relevant schedules and timeframes and issues and I 
would be happy to provide that to you, Mr. Chairman.
    Mr. Crapo. If you would, I would appreciate it.
    Mr. Stelle. But my general impression is, I think the 
economic and biological work is pretty much on track.
    Mr. Crapo. I think that discussion paper refers to more 
water, too.
    Mr. Stelle. Yes. Yes, in fact, one of the issues that the 
PATH process is examining is the role of flow augmentation in 
the long-term remedy.
    Mr. Crapo. In that context, what implication will either of 
the two long-term decisions have for water in southern Idaho? 
And when I say that, I am referring to basically the enhanced 
transportation and surface collector approach or the drawdown 
dam breaching approach. In other words, if the decision moves 
in one direction or the other in the 1999 decision that is 
going to be made, what implications do each of those options 
have, in your opinion, with regard to the need for additional 
water from southern Idaho? And I am referring not just to the 
upper Snake but clear across southern Idaho.
    Mr. Stelle. Again, based on what I know now, my view is 
that there is a correlation between flow augmentation or 
additional flow augmentation in southern Idaho or the upper 
Snake and drawdown options on the lower Snake at the Federal 
projects. If the region decides to implement a drawdown 
strategy, then, I think, that will likely result in reduced 
demands for flow augmentation from the upper Snake. Exactly how 
much and what the equation is, Mr. Chairman, I do not know and 
I do not frankly think we have developed that information 
through the PATH process, but there is a relationship there.
    Mr. Crapo. Is it possible that the need for flow 
augmentation could be eliminated entirely under some options?
    Mr. Stelle. We would have to talk about what you mean by 
flow augmentation. Fish need a river and fish will be returning 
in summer and fall. So there will need to be flows in the 
summer and fall time in the lower Snake. Now does that require 
flow augmentation, or does the natural hydrograph provide for 
it? That is some of the details we have to take a look at.
    Mr. Crapo. In the event that there were a requirement of 
more flow augmentation from southern Idaho, particularly in dry 
years, some have suggested additional storage such as Galloway 
for those purposes. Is NMFS evaluating that and is that a 
feasible option?
    Mr. Stelle. I do not have information on that topic, Mr. 
Chairman. I do not know.
    Mr. Crapo. Okay. Were you here this morning when we had the 
discussion with Mr. Campbell about the two million acre-feet of 
water?
    Mr. Stelle. Yes.
    Mr. Crapo. Do you have a comment on that?
    Mr. Stelle. I believe the discussion pertained to the 
recently completed study by the Bureau of Reclamation.
    Mr. Crapo. Yes.
    Mr. Stelle. The--that study was intended by both NMFS and 
the Bureau to be an evaluation of the cumulative effects of all 
different water resource activities on in-stream close in the 
Snake and Columbia system. It was called for, and part of the 
1995 biological opinion. The study was released--finished and 
released by the Bureau, I believe, in the spring of this year. 
Exactly when, I am not sure. And in essence, what that seeks to 
display is the--is the relative role of different types of 
water resource management activities on in-stream flows, 
including, but not limited to, power production, flood control 
and irrigation.
    Mr. Crapo. And so you do not interpret that study to mean 
anything other than----
    Mr. Stelle. Accumulative effects study.
    Mr. Crapo. [continuing] accumulative effects study? All 
right.
    In his testimony, Mr. Ray asked--or said that he is not 
aware of--and I am not aware of--what the improved 
transportation alternative really is. Are you in a position to 
give us details on what that alternative is?
    Mr. Stelle. Yes. They are fairly commonsensical. The most 
significant of which I think is the--is substantial 
improvements in the ability to collect juveniles in their 
downstream migration through this question of surface 
collectors. If we--if transportation is the chosen long-term 
remedy, then it must be predicated on the assumption that we 
are going to be able to collect enough juveniles in order to 
support rebuilding. Right now, the collection efficiencies at 
the different projects is quite variable. The most important 
im-

provement in the transportation system is the ability to--is 
the collection abilities, and that--and the most important 
focus there is whether or not we can develop surface collectors 
that work. There are other more modest improvements, 
improvements in the bypass systems, improvements with the other 
collection facilities like screens, improvements in barge--in 
the conditions in the barges themselves, reduced crowding, 
improvements in release strategies of fish in the downstream 
areas, et cetera, et cetera.
    Mr. Crapo. All right, thank you. I am going to change gears 
over to the conservation agreements.
    Mr. Stelle. Yes.
    Mr. Crapo. Do you see positive potential for NMFS to use 
the conservation agreements that were discussed earlier in 
terms of dealing with private parties and others?
    Mr. Stelle. Yes.
    Mr. Crapo. What have you done or what do you plan to do in 
support of these agreements as a tool for fish recovery?
    Mr. Stelle. I plan to work very hard to try to get more 
staff to help us negotiate that. That is actually a serious 
issue. What we have done thus far principally in Oregon, 
Washington and California, Congressman, is initiate a fairly 
aggressive program to negotiate long-term conservation 
agreements with applicants who come in the door. They tend to 
be 40 to 100-year agreements with the large industrial 
landowners, mostly timberland owners. And the basic deal, if 
you will, associated with those agreements--which I strongly 
support--is that if they promise to manage their landscape in a 
way that provides a high likelihood that the aquatic habitat on 
that landscape will be healthy over time and will support 
salmon and steelhead, we, in turn, promise not to come back and 
take another bite of the apple. They are multi-species, all 
species. They tend to cover both aquatics and terrestrials and 
they represent very large scale, very sophisticated agreements. 
We have been--we have been quite successful with a number of 
them thus far, and I think that they--the landowners themselves 
are willing to change their land management practices for the 
long term with some significant investments associated with it 
in return for the stability it proves them, that, in essence, 
they are home free from an Endangered Species Act or Clean 
Water perspective. They are a very important tool in the 
toolbox.
    Mr. Crapo. And you fully intend to use them?
    Mr. Stelle. Yes.
    Mr. Crapo. I want to go back to your answer with regard to 
the water from the upper Snake. I recognize that you are facing 
a notice of intent to sue. I assume you can tell me what is in 
that notice. Is that not a public document, the notice of 
intent to sue?
    Mr. Stelle. Oh absolutely. I can give you a copy.
    Mr. Crapo. I would like to see that.
    Mr. Stelle. Okay.
    Mr. Crapo. I assume that the reason you cannot discuss 
water issues is because the notice of intent to sue seeks 
further water, or says that there may be a claim for further 
water from southern Idaho, is that correct?
    Mr. Stelle. I think that sounds like a safe assumption. To 
be honest with you, I cannot recall the exact claim. I believe 
the heart of the claim is a procedural claim that you did not 
consult and you have to. Whether or not the relief sought is 
something more than a formal consultation under section 7 is 
the question. My guess is probably they are looking for more 
than just process.
    Mr. Crapo. And you will provide a copy of that notice?
    Mr. Stelle. Yes.
    Mr. Crapo. And I do not--I think I asked this, but you were 
in the middle of answering something else. Is that the only 
notice that you are currently operating under or dealing with 
right now?
    Mr. Stelle. No. I can answer with great confidence that 
we--we get a sort of sprinkling of 60-day notices on a monthly 
basis from various and sundry parties. Do you mean in the 
context of the upper Snake?
    Mr. Crapo. Well no, I meant the first, but let us go to 
that. In the context of the upper Snake, are there others that 
you are aware of?
    Mr. Stelle. Not to my knowledge.
    Mr. Crapo. Can you tell me--and I realize you may not have 
this on the tip of your tongue. But can you tell me which 
groups may have--individuals or groups may have filed notices 
of intent to sue with regard to the 1995 biological opinion? Is 
that going to be a long list?
    Mr. Stelle. No. Doug, you might be able to help here, or 
Ted. I believe the principal plaintiffs for challenging the 
hydro opinion----
    Mr. Crapo. Yes.
    Mr. Stelle. [continuing] were the--I believe three of your 
member tribes, or was it four?
    Mr. Strong. We were just amicus.
    Mr. Stelle. I am sorry. Then it was--I assume American 
Rivers was the plaintiff, the principal plaintiff. I assume 
some of the Idaho environmental groups may have been part of 
the coalition of plaintiffs. I believe they were represented by 
the Sierra Club Legal Defense Fund. As Ted indicated, his 
member tribes joined that litigation as amicus, and I believe 
the State of Oregon joined as a party plaintiff, and the State 
of Washington joined as an amicus, and the States of Idaho and 
Montana joined as party defendants.
    Mr. Crapo. And that is all in one notice?
    Mr. Stelle. That was all in one litigation.
    Mr. Crapo. In one litigation. Are there any notices that 
have not resulted in litigation?
    Mr. Stelle. Oh, yeah.
    Mr. Crapo. That is a long list, or is it?
    Mr. Stelle. A 60-day notice can be a tactical move, 
Congressman, as you probably well know, to stimulate further 
discussions on a particular matter. So I do not necessarily 
assume that 60-day notices automatically translate into 
actively prosecuted litigation.
    Mr. Crapo. But you are treating the----
    Mr. Stelle. Yes.
    Mr. Crapo. [continuing] American Rivers one as a 
potential--the recent one----
    Mr. Stelle. Yes.
    Mr. Crapo. [continuing] as a potential for very real 
litigation?
    Mr. Stelle. Yes.
    Mr. Crapo. Hold on just 1 minute.
    [Pause.]
    Mr. Crapo. All right, I just want to go into one more area 
with you, Mr. Stelle, and then I do want to have a brief 
discussion with the panel about process. As you have heard from 
some of my other questions, I am sure, and from some of the 
testimony at the first hearing and in this hearing, a lot of 
objections come to me from individual participants in various 
endeavors, whether it be mining or timber or grazing or other 
uses that have been impacted by salmon management--often 
habitat management decisions. And one of the constant 
complaints is they can deal with the overall managing agency, 
but then when the layer of management that NMFS adds to it is 
overlayed, that it is a very unworkable and frustrating 
circumstance. I do not really have a question, although you are 
welcome to respond if you would like to. I just want to tell 
you that that is a constant concern that is raised to us, often 
enough that I feel it necessary to bring it to your attention 
here that in one way or another, we have got to get past that. 
We have got to get to the point where the managing agencies and 
officials are working together and in a timely fashion with 
NMFS. I am not going to necessarily say it is NMFS' fault, but 
you are the one at the table today. I have the opportunity to 
talk to other managing agencies as well. To just encourage you 
to look at that issue and make sure that your people in the 
field are providing the kind of timely and prompt public 
service that they ought to be providing to those who are 
dealing with our managing agencies. If you would like to 
comment to that, you are welcome to.
    Mr. Stelle. Let me offer just a couple of brief comments. 
First of all, I--there have been--I think there are probably 
some of the--some of the frustration is warranted, and at times 
things have not gone as quickly as everybody would hope. I 
think that there is--there has been some room for improvement 
with the interagency process and that, in fact, we are seeing 
some real improvements occurring. So I am optimistic that 
things are in fact getting better on the ground.
    I would also note that we have--I have made a big effort to 
try to expand our Boise office so that just the bloody issue of 
workload and bottlenecks tries to get resolved better. We have 
made some pretty good progress there.
    Finally, I would like to say that after the--on the issue 
of the grazing permits, I listened to Jim's testimony this 
morning, Jim Little----
    Mr. Crapo. Yes.
    Mr. Stelle. [continuing] and he participated in the review 
team that we had on the ground a couple of weeks ago to look at 
the issues of cattle management on Federal lands and what kind 
of strategies might be implementable and what kind of 
monitoring requirements might be required. What I would like to 
do is to give you a commitment that when the report from the 
National Riparian Team comes back with what their 
recommendations are on how to implement a strategy, that I will 
call Jim and I will meet with him to talk to him about 
developing a larger multi-year framework for grazing management 
in a way that gives him better predictability. I think that is 
entirely possible. I think we are closing the bounds between 
the different points of view and I will give you my commitment 
that I will meet with him to look to explore that.
    Mr. Crapo. Thank you. That is the kind of thing that I 
think really does help, because even though we all recognize 
that the issues are complex and the agency is very heavily over 
worked, we still have people on the ground who's livelihoods 
are seriously impacted by these things.
    Mr. Stelle. Yeah.
    Mr. Crapo. Let us go now to a discussion with the whole 
panel on the question that we have talked with each panel 
about, and that is what kind of a process do we need to move 
forward. We have the sovereigns in one capacity or another 
represented here, and that has been different than the other 
panels because they have had an opportunity to talk about you. 
But I would like to get your perspectives on this. I tend to 
come at it--I will tell you out front--up front that I tend to 
come at it from a perspective of thinking that we need a 
decisionmaking model in which there is a final place where the 
buck stops. Although NMFS may be the closest thing we have got 
to that, I do not think that we have got that even now with 
NMFS. There are those who say, okay, then we ought to have a 
Federal agency doing that. There are those who say, no, we 
ought to create a regional entity that has equal participation 
from the tribes and the States and the Federal agencies. There 
is a suggestion, as you heard this morning, to have maybe those 
sovereigns create a single managing person or a board of 
directors with a CEO for management. I am sure that a number of 
other options could be discussed. I would like to know what 
your thoughts are.
    First of all, do we need to have a different system than we 
now have? If your answer to that is no, then I would just like 
to know why, and if your answer to that is yes, I would like to 
know what you have as suggestions.
    Mr. DeHart, do you want to start?
    Mr. DeHart. Certainly, Congressman. Maybe the best way for 
me to answer this, rather than just sort of speculate myself on 
some of these options, is to offer you an example of an 
approach that I think is working well in Oregon at this point, 
and that is the process that we have gone through as a State 
and have worked with National Marine Fishery Service on in 
developing recovery strategies for coho salmon. And that was, I 
think it is fair to characterize, very much a bottom up rather 
than top down effort. An effort that involved a commitment by 
State agencies, by the Governor of Oregon, by the Oregon State 
legislature in partnership with local governments, with local 
landowners to bring together measures to meet scientific 
objectives, biological objectives that we developed working 
with the National Marine Fishery Service and others. The end 
result was really not, I do not think, fundamentally a 
different process in the sense of the Federal side of it, but 
it was different in the sense that when it came together, the 
pieces came with buyoff. So that plan, as it stands right now, 
has State and local money behind it, as well as Federal money 
behind it. Of course, it was only adopted earlier this summer, 
but many of the measures are already happening and moving 
forward quickly. Now in fairness, that did not solve the issue 
of Federal management re-

sponsibilities for Federal lands and Federal water projects 
versus non-Federal ones. It operated on the assumption--and it 
is working there--that the Federal agencies define their 
measures and then they implement those to the same set of 
agreed to standards and the State implements ones involving 
State and privately owned lands. I think that model is worth a 
real close look. It is a bit of a brave new world in how you 
implement the Endangered Species Act and also in how you get 
ahead of the Endangered Species Act and deal with weak stocks 
before you have to talk about kicking in federally driven, ESA 
driven management. So I certainly offer that one as food for 
thought here.
    Mr. Crapo. All right, thank you.
    Mr. Bowles.
    Mr. Bowles. Congressman, that is a big question you asked 
and one I have a lot of opinions about. As I mentioned in my 
testimony, you know, I really do not feel that how ever we 
package the process that we are going to get there unless we 
have a fundamental shift in what is motivating the participants 
at the table. And that motivation has to be meeting the 
biological requirements of the fish in a way that is acceptable 
to society. I feel that it is a very simple mission, but we, as 
a group, get far too bogged down in the process of salmon 
recovery. The concern, legitimate as it is, on litigation, on 
the bureaucracies that we all are part of causes us to lose 
sight of that mission. I do not feel that our tendency as a 
group to try to first and foremost see if we can somehow make 
it fit without causing any real changes is going to get us 
there.
    The other, you know, thing that I brought up is that from 
the standpoint of having one person in charge, I think you are 
right in that we do need some place for the buck to stop. But 
that leadership is going to require somebody that has solely 
focused on that mission and without any scientific, economic or 
social biases within that. And I do not feel NMFS is there on 
that, mainly because of what I perceive as their bias toward 
sticking with the transportation program. I think if we can get 
beyond that and focus on the social and economic issues of how 
to make in-river survival work, we could be much more 
successful in this.
    Mr. Crapo. Okay. Mr. Strong.
    Mr. Strong. I believe we are already on this road to a new 
process and structure and it came about because the tribes 
withdrew from the adaptive management forum for the reason 
which is to overcome the bias that Will says was not there. You 
know, we felt there was extreme bias on the part of National 
Marine Fishery Service in leaning on its own science and 
utilizing only its own scientists' advice. That first came to 
public attention when we went through the MOA process to which 
allocated the $435 million. That was predicated almost 
exclusively on the biological opinion which the tribes objected 
to, which many environmentalists objected to, and which in part 
was the American Rivers versus NMFS lawsuit. When the adaptive 
management process began and all of these tiered committees 
were put together, NMFS chaired those, and despite any 
protestations from the tribal scientists, many of those 
decisions were made at a very low level. We objected 
strenuously to having technicians and scientists making policy. 
After several months of frustration--maybe a year went by, we 
finally--after fully consulting with the chair for the Council 
of Environmental Quality, we withdrew from that process, asking 
that a new process be developed in which three sovereigns would 
respect each others authorities and bring a greater kind of 
communication toward resolving what we thought were these 
biases. And when the decision about barging went forward, to 
us, that was the ultimate in terms of bias. And when the 
decision was supposed to be made in the future about breaching 
the dams, and the goldplating went ahead as a decision anyway, 
the Army Corps of Engineers and the Bureau of Reclamation said 
we are obligated to do that because it is in the biological 
opinion. Their hands were tied by the National Marine Fishery 
Service. That is a bias because it excludes the decisions and 
the science from the tribes and other environmentalists. So it 
is biased.
    I think to the credit of the National Marine Fishery 
Service and others, we are now putting together a new framework 
that allows us to have these very authoritative decisionmaking 
processes put into place. I think--I am hopeful anyway that a 
new kind of optimism will grow from decisionmaking being made 
from the policymakers on down. The tribes were quite frustrated 
having policy decisions made at a very low level. So I think we 
ultimately hope that improved communication will result in 
better decisionmaking and maybe take the edge off what we felt 
was a bias toward only the National Marine Fishery Service 
science.
    Mr. Crapo. Okay, thank you. Mr. Stelle.
    Mr. Stelle. Yes, Mr. Chairman, let me first draw a couple 
of distinctions in your question, because I think they are 
useful. They are not perfect, but they are useful. There is, 
first of all, the suite of activities which occur on a day-to-
day basis in implementing the biological opinion in preparation 
for the larger discussion in 1999 in running the river, in 
deciding what the Corps should spend their money on, et cetera, 
et cetera, et cetera. And in our view, I consider that as sort 
of interim governance issues. And then there is the larger 
question of how is this region going to decide what that long-
term pathway should be in 1999. And they are qualitatively 
different subjects in some respects.
    On the first, I sincerely believe that--call it what you 
will, and I do not care what we call it--you need in essence 
the implementation team made up of the senior program managers 
of the relevant State, tribal and Federal agencies overseeing 
day-to-day implementation activities. You just need that. Now 
we could go behind closed doors and say this is just a Federal 
system, but that makes absolutely no sense. And we have that 
implementation team structure in place and I think it works 
fairly well, and hundreds and hundreds of issues get worked out 
there. And they oversee some technical committees which are 
essential technical committees.
    So I see in some respects the interim decisionmaking 
apparatus is there. It is an implementation apparatus and we do 
not need to worry too much about that in some respects. There 
are incremental improvements we can make and should be making 
in it and are making with everyone.
    The real larger governance issue is the big--is how to make 
the long-term decision. In my view, first and foremost--and I 
think I represent the Administration on this. We believe that 
the long-term--the selection of a long-term remedy must 
absolutely involve the active and formal participation of the 
governments of the Pacific Northwest. The State governments and 
the tribal governments must come together with the Federal 
agencies in developing a long-term solution. If it does not 
happen, it will not get implemented. The question for us on 
governance, I think, is what kind of mechanism can we agree to 
to ensure that those options that we are developing are the 
right options, that the information is the correct information, 
and that the--and that we then negotiate and come to an 
agreement on the right pathway. On that, I think Ted is correct 
that largely because of the effort of the Governors and the 
tribes with Federal participation, we are actively discussing 
how we can develop that kind of deliberative process. Maybe 
using the offices of the counsel representing the States, with 
active tribal and Federal participation, maybe doing it some 
other way. At the end of the day, we will end up having three 
sovereigns around some table somewhere in a deliberative 
process. We need to come to a more complete understanding of 
how that will work so that when we get 299, we are prepared to 
do business.
    Mr. Crapo. Mr. Stelle, in that context, it seems to me that 
what you have just described, we already have or have the 
potential to have put into place if that collaborative process 
between the sovereigns assumes that the Federal sovereign will 
ultimately make the final call, which is what happens now, am I 
correct? In other words, we can bring the State and tribal 
governments into collaboration or consultation or whatever we 
want to call it, but under the current system, basically you 
have to make a decision, NMFS has to make a decision, and then 
the other operating Federal operating agencies have to decide 
whether they are going to comply with that decision or not, is 
that correct?
    Mr. Stelle. That is the current--that is the current 
system, yes.
    Mr. Crapo. So the question I would have in the context of 
what you have just suggested is, do you think that is adequate? 
In other words, the States and the tribes--and I would ask this 
to all of you. That the States and the tribes are involved but 
they are not actual decisionmakers, or should we move to a 
system in which the States and the tribes are the 
decisionmakers, if we can create one. I do not even know if we 
can do that. But do you see what the question is?
    Mr. Stelle. Yes, I do, and it is a fair--it is a good 
question. I again think there are really very qualitatively 
different things at play here. On the one hand, the current 
system we have now is the implementation of day-to-day 
activities pursuant to our various responsibilities and 
statutory obligations, and we all try not to get sued too much. 
On the other hand, this larger decision, again in my view, is a 
macro--is a macro choice by the Pacific Northwest. I fully 
expect that the implementation of that choice will be by 
legislation, will require legislation and will require some 
degree of consensus among the governments and the political 
leadership here in the Pacific Northwest. And in my view, that 
ultimately--the coming together of that political consensus, as 
I think Ed was saying, is going to be the essential ingredient 
for long-term salmon success. It is not going to be simply NMFS 
and the Corps of Engi-

neers going off and making a section 7 decision under the 
Endangered Species Act, no, sir.
    Mr. Crapo. All right. Mr. Strong, do you want to add 
anything to that?
    Mr. Strong. First of all, I want to make sure that in this 
area of bias--because Mr. Stelle is good at some of this stuff, 
he is a good bureaucrat at this point. That just because things 
are interim, as he terms it, it does not mean that the tribes, 
States and others should not be included. Barging, budgeting, 
spills, flows, production, they are interim. They are decisions 
being made today, but they impact the long-term availability of 
salmon in the future. We are not going to have that door closed 
on us by NMFS saying that these are interim measures and we 
will make the decision and you guys just go along with it. That 
is not going to happen.
    Secondly, I think that with regard to these processes and 
the decisions that are being made, I do think that while we 
have gone through this adaptive management process, that it is 
going to be very important that each of the respective 
governments be able to make decisions at these forums. That has 
been one of our problems. We do not necessarily need a CEO. We 
need people coming to that table who can make the decisions at 
that time instead of saying well, we have got to give this to 
our scientists, we have got to give this to our attorneys and 
the statisticians and everybody else to make a decision for us. 
There is no need for any of that kind of leadership if that is 
what we are going to do in a new process. We need people who 
can come there, make those decisions, make them binding and get 
on with the show.
    Mr. Crapo. All right. Mr. Bowles.
    Mr. Bowles. I would like to just reiterate what Mr. Stelle 
brought up. This really is going to be a societal decision, and 
I think where the process really needs to start focusing on is 
embracing society into the discussion and the debate. Hopefully 
not so much in the debate of these conflicting ways of 
protecting our interests, or anything else, but actually in 
finding solutions on how to keep their interest whole. That 
cannot be done with the current process. We put, and it would 
be a fair question to ask us involved in the process, how much 
time relatively have we spent dealing with the science, dealing 
with the day-to-day implementation of things versus how much 
time have we spent figuring out how best to get society 
prepared for the decision they have to make? I think you would 
be a little disappointed in the answer.
    I think Mr. DeHart has a good model for us perhaps on the 
coastal coho restoration plan, in that they basically came in 
with some ideas of what they need to accomplish it. It was not 
a big debate on the biology. I mean, it was there but it was 
not the focus. And they came in and said okay, this is what is 
biologically needed. Now let us figure out how to do it. That 
generated a lot of grassroots support. They had the threat of a 
listing, so that helped motivate people. But basically what you 
had was people figuring out how to keep themselves whole and 
still get the job done. Whether or not it works or not, the 
verdict is still out. But, at least, I think it was a good 
model and a way to begin that.
    Mr. Crapo. All right. Mr. DeHart.
    Mr. DeHart. Well the only thing I could add is--at this 
point is to agree with the characterization that Will made a 
process, and that is, there is only so many ways to rearrange 
the same pieces in any case and they are largely on the table. 
So from my perspective, why do not those pieces always function 
now? I said this before, but it is worth reiterating. There is 
a couple of things that are missing, I think. One of them are 
clear biologically based goals and objectives that the process 
is supposed to meet. I would suggest that that has really been 
the failure of the Northwest Power Planning Council to the 
degree that process has failed to date. It has not been able to 
take on and resolve that fundamental issue. Instead, it has 
built an array of measures, but never the fundamental 
objectives for what they are trying to accomplish and what the 
measures need to meet.
    And then second--and I mentioned this earlier, too--a 
dispute resolution process. Because clearly, just as you have 
mentioned several times, this is not going to work if it is 
just simply regional sovereigns and Federal Government 
disagree, regional sovereigns lose. I mean, the process has to 
be able to deal with what happens if there are good faith 
disagreements between regional and Federal parties. If you can 
make those two pieces work, I think largely the process piece 
will run all right.
    Mr. Crapo. All right. I appreciate your thoughts and input 
and the time you have taken to come here and testify. I have no 
further questions, so I am going to adjourn the Subcommittee 
hearing. For those who want to give a 1-minute speech, we will 
still do that. As I said earlier, it will not be a part of the 
record, but the record will remain open for written submission 
of comments for 30 days. This Committee is hereby adjourned.
    [Whereupon, at 2:46 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T4214.017
    
    [GRAPHIC] [TIFF OMITTED] T4214.018
    
    [GRAPHIC] [TIFF OMITTED] T4214.019
    
    [GRAPHIC] [TIFF OMITTED] T4214.020
    
    [GRAPHIC] [TIFF OMITTED] T4214.021
    
    [GRAPHIC] [TIFF OMITTED] T4214.022
    
    [GRAPHIC] [TIFF OMITTED] T4214.023
    
    [GRAPHIC] [TIFF OMITTED] T4214.024
    
    [GRAPHIC] [TIFF OMITTED] T4214.025
    
    [GRAPHIC] [TIFF OMITTED] T4214.026
    
    [GRAPHIC] [TIFF OMITTED] T4214.027
    
    [GRAPHIC] [TIFF OMITTED] T4214.028
    
    [GRAPHIC] [TIFF OMITTED] T4214.029
    
    [GRAPHIC] [TIFF OMITTED] T4214.030
    
    [GRAPHIC] [TIFF OMITTED] T4214.031
    
    [GRAPHIC] [TIFF OMITTED] T4214.032
    
    [GRAPHIC] [TIFF OMITTED] T4214.033
    
    [GRAPHIC] [TIFF OMITTED] T4214.034
    
    [GRAPHIC] [TIFF OMITTED] T4214.035
    
    [GRAPHIC] [TIFF OMITTED] T4214.036
    
    [GRAPHIC] [TIFF OMITTED] T4214.037
    
    [GRAPHIC] [TIFF OMITTED] T4214.038
    
    [GRAPHIC] [TIFF OMITTED] T4214.039
    
    [GRAPHIC] [TIFF OMITTED] T4214.040
    
    [GRAPHIC] [TIFF OMITTED] T4214.041
    
    [GRAPHIC] [TIFF OMITTED] T4214.042
    
    [GRAPHIC] [TIFF OMITTED] T4214.043
    
    [GRAPHIC] [TIFF OMITTED] T4214.044
    
    [GRAPHIC] [TIFF OMITTED] T4214.045
    
    [GRAPHIC] [TIFF OMITTED] T4214.046
    
    [GRAPHIC] [TIFF OMITTED] T4214.047
    
    [GRAPHIC] [TIFF OMITTED] T4214.048
    
    [GRAPHIC] [TIFF OMITTED] T4214.049
    
    [GRAPHIC] [TIFF OMITTED] T4214.050
    
    [GRAPHIC] [TIFF OMITTED] T4214.051
    
    [GRAPHIC] [TIFF OMITTED] T4214.052
    
    [GRAPHIC] [TIFF OMITTED] T4214.053
    
    [GRAPHIC] [TIFF OMITTED] T4214.054
    
    [GRAPHIC] [TIFF OMITTED] T4214.055
    
    [GRAPHIC] [TIFF OMITTED] T4214.056
    
    [GRAPHIC] [TIFF OMITTED] T4214.057
    
    [GRAPHIC] [TIFF OMITTED] T4214.058
    
    [GRAPHIC] [TIFF OMITTED] T4214.059
    
    [GRAPHIC] [TIFF OMITTED] T4214.060
    
    [GRAPHIC] [TIFF OMITTED] T4214.061
    
    [GRAPHIC] [TIFF OMITTED] T4214.062
    
    [GRAPHIC] [TIFF OMITTED] T4214.063
    
    [GRAPHIC] [TIFF OMITTED] T4214.064
    
    [GRAPHIC] [TIFF OMITTED] T4214.065
    
    [GRAPHIC] [TIFF OMITTED] T4214.066
    
    [GRAPHIC] [TIFF OMITTED] T4214.067
    
    [GRAPHIC] [TIFF OMITTED] T4214.068
    
    [GRAPHIC] [TIFF OMITTED] T4214.069
    
    [GRAPHIC] [TIFF OMITTED] T4214.070
    
    [GRAPHIC] [TIFF OMITTED] T4214.071
    
    [GRAPHIC] [TIFF OMITTED] T4214.072
    
    [GRAPHIC] [TIFF OMITTED] T4214.073
    
    [GRAPHIC] [TIFF OMITTED] T4214.074
    
    [GRAPHIC] [TIFF OMITTED] T4214.075
    
    [GRAPHIC] [TIFF OMITTED] T4214.076
    
    [GRAPHIC] [TIFF OMITTED] T4214.077
    
    [GRAPHIC] [TIFF OMITTED] T4214.078
    
    [GRAPHIC] [TIFF OMITTED] T4214.079
    
    [GRAPHIC] [TIFF OMITTED] T4214.080
    
    [GRAPHIC] [TIFF OMITTED] T4214.081
    
    [GRAPHIC] [TIFF OMITTED] T4214.082
    
    [GRAPHIC] [TIFF OMITTED] T4214.083
    
    [GRAPHIC] [TIFF OMITTED] T4214.084
    
    [GRAPHIC] [TIFF OMITTED] T4214.085
    
    [GRAPHIC] [TIFF OMITTED] T4214.086
    
    [GRAPHIC] [TIFF OMITTED] T4214.087
    
    [GRAPHIC] [TIFF OMITTED] T4214.088
    
    [GRAPHIC] [TIFF OMITTED] T4214.089
    
    [GRAPHIC] [TIFF OMITTED] T4214.090
    
    [GRAPHIC] [TIFF OMITTED] T4214.091
    
    [GRAPHIC] [TIFF OMITTED] T4214.092
    
    [GRAPHIC] [TIFF OMITTED] T4214.093
    
    [GRAPHIC] [TIFF OMITTED] T4214.094
    
    [GRAPHIC] [TIFF OMITTED] T4214.095
    
    [GRAPHIC] [TIFF OMITTED] T4214.096
    
    [GRAPHIC] [TIFF OMITTED] T4214.097
    
    [GRAPHIC] [TIFF OMITTED] T4214.098
    
    [GRAPHIC] [TIFF OMITTED] T4214.099
    
    [GRAPHIC] [TIFF OMITTED] T4214.100
    
    [GRAPHIC] [TIFF OMITTED] T4214.101
    
    [GRAPHIC] [TIFF OMITTED] T4214.102
    
    [GRAPHIC] [TIFF OMITTED] T4214.103
    
    [GRAPHIC] [TIFF OMITTED] T4214.104
    
    [GRAPHIC] [TIFF OMITTED] T4214.105
    
    [GRAPHIC] [TIFF OMITTED] T4214.106
    
    [GRAPHIC] [TIFF OMITTED] T4214.107
    
    [GRAPHIC] [TIFF OMITTED] T4214.108
    
    [GRAPHIC] [TIFF OMITTED] T4214.109
    
    [GRAPHIC] [TIFF OMITTED] T4214.110
    
    [GRAPHIC] [TIFF OMITTED] T4214.111
    
    [GRAPHIC] [TIFF OMITTED] T4214.112
    
    [GRAPHIC] [TIFF OMITTED] T4214.113
    
    [GRAPHIC] [TIFF OMITTED] T4214.114
    
    [GRAPHIC] [TIFF OMITTED] T4214.115
    
    [GRAPHIC] [TIFF OMITTED] T4214.116
    
    [GRAPHIC] [TIFF OMITTED] T4214.117
    
    [GRAPHIC] [TIFF OMITTED] T4214.118
    
    [GRAPHIC] [TIFF OMITTED] T4214.119
    
    [GRAPHIC] [TIFF OMITTED] T4214.120
    
    [GRAPHIC] [TIFF OMITTED] T4214.121
    
    [GRAPHIC] [TIFF OMITTED] T4214.122
    
    [GRAPHIC] [TIFF OMITTED] T4214.123
    
    [GRAPHIC] [TIFF OMITTED] T4214.124
    
    [GRAPHIC] [TIFF OMITTED] T4214.125
    
    [GRAPHIC] [TIFF OMITTED] T4214.126
    
    [GRAPHIC] [TIFF OMITTED] T4214.127
    
    [GRAPHIC] [TIFF OMITTED] T4214.128
    
    [GRAPHIC] [TIFF OMITTED] T4214.129
    
    [GRAPHIC] [TIFF OMITTED] T4214.130
    
    [GRAPHIC] [TIFF OMITTED] T4214.131
    
    [GRAPHIC] [TIFF OMITTED] T4214.132
    
    [GRAPHIC] [TIFF OMITTED] T4214.133
    
    [GRAPHIC] [TIFF OMITTED] T4214.134
    
    [GRAPHIC] [TIFF OMITTED] T4214.135
    
    [GRAPHIC] [TIFF OMITTED] T4214.136
    
    [GRAPHIC] [TIFF OMITTED] T4214.137
    
    [GRAPHIC] [TIFF OMITTED] T4214.138
    
    [GRAPHIC] [TIFF OMITTED] T4214.139
    
    [GRAPHIC] [TIFF OMITTED] T4214.140
    
    [GRAPHIC] [TIFF OMITTED] T4214.141
    
    [GRAPHIC] [TIFF OMITTED] T4214.142
    
    [GRAPHIC] [TIFF OMITTED] T4214.143
    
    [GRAPHIC] [TIFF OMITTED] T4214.144
    
    [GRAPHIC] [TIFF OMITTED] T4214.145
    
    [GRAPHIC] [TIFF OMITTED] T4214.146
    
    [GRAPHIC] [TIFF OMITTED] T4214.147
    
    [GRAPHIC] [TIFF OMITTED] T4214.148
    
    [GRAPHIC] [TIFF OMITTED] T4214.149
    
    [GRAPHIC] [TIFF OMITTED] T4214.150
    
    [GRAPHIC] [TIFF OMITTED] T4214.151
    
    [GRAPHIC] [TIFF OMITTED] T4214.152
    
    [GRAPHIC] [TIFF OMITTED] T4214.153
    
    [GRAPHIC] [TIFF OMITTED] T4214.154
    
    [GRAPHIC] [TIFF OMITTED] T4214.155
    
    [GRAPHIC] [TIFF OMITTED] T4214.156
    
    [GRAPHIC] [TIFF OMITTED] T4214.157
    
    [GRAPHIC] [TIFF OMITTED] T4214.158
    
    [GRAPHIC] [TIFF OMITTED] T4214.159
    
    [GRAPHIC] [TIFF OMITTED] T4214.160
    
    [GRAPHIC] [TIFF OMITTED] T4214.161
    
    [GRAPHIC] [TIFF OMITTED] T4214.162
    
    [GRAPHIC] [TIFF OMITTED] T4214.163
    
    [GRAPHIC] [TIFF OMITTED] T4214.164
    
    [GRAPHIC] [TIFF OMITTED] T4214.165
    
    [GRAPHIC] [TIFF OMITTED] T4214.166
    
    [GRAPHIC] [TIFF OMITTED] T4214.167
    
    [GRAPHIC] [TIFF OMITTED] T4214.168
    
    [GRAPHIC] [TIFF OMITTED] T4214.169
    
    [GRAPHIC] [TIFF OMITTED] T4214.170
    
    [GRAPHIC] [TIFF OMITTED] T4214.171
    
    [GRAPHIC] [TIFF OMITTED] T4214.172
    
    [GRAPHIC] [TIFF OMITTED] T4214.173
    
    [GRAPHIC] [TIFF OMITTED] T4214.174
    
    [GRAPHIC] [TIFF OMITTED] T4214.175
    
    [GRAPHIC] [TIFF OMITTED] T4214.176
    
    [GRAPHIC] [TIFF OMITTED] T4214.177
    
    [GRAPHIC] [TIFF OMITTED] T4214.178
    
    [GRAPHIC] [TIFF OMITTED] T4214.179
    
    [GRAPHIC] [TIFF OMITTED] T4214.180
    
    [GRAPHIC] [TIFF OMITTED] T4214.181
    
    [GRAPHIC] [TIFF OMITTED] T4214.182
    
    [GRAPHIC] [TIFF OMITTED] T4214.183
    
    [GRAPHIC] [TIFF OMITTED] T4214.184
    
    [GRAPHIC] [TIFF OMITTED] T4214.185
    
    [GRAPHIC] [TIFF OMITTED] T4214.186
    
    [GRAPHIC] [TIFF OMITTED] T4214.187
    
    [GRAPHIC] [TIFF OMITTED] T4214.188
    
    [GRAPHIC] [TIFF OMITTED] T4214.189
    
    [GRAPHIC] [TIFF OMITTED] T4214.190
    
    [GRAPHIC] [TIFF OMITTED] T4214.191
    
    [GRAPHIC] [TIFF OMITTED] T4214.192
    
    [GRAPHIC] [TIFF OMITTED] T4214.193
    
    [GRAPHIC] [TIFF OMITTED] T4214.194
    
    [GRAPHIC] [TIFF OMITTED] T4214.195
    
    [GRAPHIC] [TIFF OMITTED] T4214.196
    
    [GRAPHIC] [TIFF OMITTED] T4214.197
    
    [GRAPHIC] [TIFF OMITTED] T4214.198
    
    [GRAPHIC] [TIFF OMITTED] T4214.199
    
    [GRAPHIC] [TIFF OMITTED] T4214.200
    
    [GRAPHIC] [TIFF OMITTED] T4214.201
    
    [GRAPHIC] [TIFF OMITTED] T4214.202
    
    [GRAPHIC] [TIFF OMITTED] T4214.203
    
    [GRAPHIC] [TIFF OMITTED] T4214.204
    
    [GRAPHIC] [TIFF OMITTED] T4214.205
    
    [GRAPHIC] [TIFF OMITTED] T4214.206
    
    [GRAPHIC] [TIFF OMITTED] T4214.207
    
    [GRAPHIC] [TIFF OMITTED] T4214.208
    
    [GRAPHIC] [TIFF OMITTED] T4214.209
    
    [GRAPHIC] [TIFF OMITTED] T4214.210
    
    [GRAPHIC] [TIFF OMITTED] T4214.211
    
    [GRAPHIC] [TIFF OMITTED] T4214.212
    
    [GRAPHIC] [TIFF OMITTED] T4214.213
    
    [GRAPHIC] [TIFF OMITTED] T4214.214
    
    [GRAPHIC] [TIFF OMITTED] T4214.215
    
    [GRAPHIC] [TIFF OMITTED] T4214.216
    
    [GRAPHIC] [TIFF OMITTED] T4214.217
    
    [GRAPHIC] [TIFF OMITTED] T4214.218
    
    [GRAPHIC] [TIFF OMITTED] T4214.219
    
    [GRAPHIC] [TIFF OMITTED] T4214.220
    
    [GRAPHIC] [TIFF OMITTED] T4214.221
    
    [GRAPHIC] [TIFF OMITTED] T4214.222
    
    [GRAPHIC] [TIFF OMITTED] T4214.223
    
    [GRAPHIC] [TIFF OMITTED] T4214.224
    
    [GRAPHIC] [TIFF OMITTED] T4214.225
    
    [GRAPHIC] [TIFF OMITTED] T4214.226
    
    [GRAPHIC] [TIFF OMITTED] T4214.227
    
    [GRAPHIC] [TIFF OMITTED] T4214.228
    
    [GRAPHIC] [TIFF OMITTED] T4214.229
    
    [GRAPHIC] [TIFF OMITTED] T4214.230
    
    [GRAPHIC] [TIFF OMITTED] T4214.231
    
    [GRAPHIC] [TIFF OMITTED] T4214.232
    
    [GRAPHIC] [TIFF OMITTED] T4214.233
    
    [GRAPHIC] [TIFF OMITTED] T4214.234
    
    [GRAPHIC] [TIFF OMITTED] T4214.235
    
    [GRAPHIC] [TIFF OMITTED] T4214.236
    
    [GRAPHIC] [TIFF OMITTED] T4214.237
    
    [GRAPHIC] [TIFF OMITTED] T4214.238
    
    [GRAPHIC] [TIFF OMITTED] T4214.239
    
    [GRAPHIC] [TIFF OMITTED] T4214.240
    
    [GRAPHIC] [TIFF OMITTED] T4214.241
    
    [GRAPHIC] [TIFF OMITTED] T4214.242
    
    [GRAPHIC] [TIFF OMITTED] T4214.243
    
    [GRAPHIC] [TIFF OMITTED] T4214.244
    
    [GRAPHIC] [TIFF OMITTED] T4214.245
    
    [GRAPHIC] [TIFF OMITTED] T4214.246
    
    [GRAPHIC] [TIFF OMITTED] T4214.247
    
    [GRAPHIC] [TIFF OMITTED] T4214.248
    
    [GRAPHIC] [TIFF OMITTED] T4214.249
    
    [GRAPHIC] [TIFF OMITTED] T4214.250
    
    [GRAPHIC] [TIFF OMITTED] T4214.251
    
    [GRAPHIC] [TIFF OMITTED] T4214.252
    
    [GRAPHIC] [TIFF OMITTED] T4214.253
    
    [GRAPHIC] [TIFF OMITTED] T4214.254
    
    [GRAPHIC] [TIFF OMITTED] T4214.255
    
    [GRAPHIC] [TIFF OMITTED] T4214.256
    
    [GRAPHIC] [TIFF OMITTED] T4214.257
    
    [GRAPHIC] [TIFF OMITTED] T4214.258
    
    [GRAPHIC] [TIFF OMITTED] T4214.259
    
    [GRAPHIC] [TIFF OMITTED] T4214.260
    
    [GRAPHIC] [TIFF OMITTED] T4214.261
    
    [GRAPHIC] [TIFF OMITTED] T4214.262
    
    [GRAPHIC] [TIFF OMITTED] T4214.263
    
    [GRAPHIC] [TIFF OMITTED] T4214.264
    
    [GRAPHIC] [TIFF OMITTED] T4214.265
    
    [GRAPHIC] [TIFF OMITTED] T4214.266
    
    [GRAPHIC] [TIFF OMITTED] T4214.267
    
    [GRAPHIC] [TIFF OMITTED] T4214.268
    
    [GRAPHIC] [TIFF OMITTED] T4214.269
    
    [GRAPHIC] [TIFF OMITTED] T4214.270
    
    [GRAPHIC] [TIFF OMITTED] T4214.271
    
    [GRAPHIC] [TIFF OMITTED] T4214.272
    
    [GRAPHIC] [TIFF OMITTED] T4214.273
    
    [GRAPHIC] [TIFF OMITTED] T4214.274
    
    [GRAPHIC] [TIFF OMITTED] T4214.275
    
    [GRAPHIC] [TIFF OMITTED] T4214.276
    
    [GRAPHIC] [TIFF OMITTED] T4214.277
    
    [GRAPHIC] [TIFF OMITTED] T4214.278
    
    [GRAPHIC] [TIFF OMITTED] T4214.279
    
    [GRAPHIC] [TIFF OMITTED] T4214.280
    
    [GRAPHIC] [TIFF OMITTED] T4214.281
    
    [GRAPHIC] [TIFF OMITTED] T4214.282
    
    [GRAPHIC] [TIFF OMITTED] T4214.283
    
    [GRAPHIC] [TIFF OMITTED] T4214.284
    
    [GRAPHIC] [TIFF OMITTED] T4214.285
    
    [GRAPHIC] [TIFF OMITTED] T4214.286
    
    [GRAPHIC] [TIFF OMITTED] T4214.287
    
    [GRAPHIC] [TIFF OMITTED] T4214.288
    
    [GRAPHIC] [TIFF OMITTED] T4214.289
    
    [GRAPHIC] [TIFF OMITTED] T4214.290
    
    [GRAPHIC] [TIFF OMITTED] T4214.291
    
    [GRAPHIC] [TIFF OMITTED] T4214.292
    
    [GRAPHIC] [TIFF OMITTED] T4214.293
    
    [GRAPHIC] [TIFF OMITTED] T4214.294
    
    [GRAPHIC] [TIFF OMITTED] T4214.295
    
    [GRAPHIC] [TIFF OMITTED] T4214.296
    
    [GRAPHIC] [TIFF OMITTED] T4214.297
    
    [GRAPHIC] [TIFF OMITTED] T4214.298
    
    [GRAPHIC] [TIFF OMITTED] T4214.299
    
    [GRAPHIC] [TIFF OMITTED] T4214.300
    
    [GRAPHIC] [TIFF OMITTED] T4214.301
    
    [GRAPHIC] [TIFF OMITTED] T4214.302
    
    [GRAPHIC] [TIFF OMITTED] T4214.303
    
    [GRAPHIC] [TIFF OMITTED] T4214.304
    
    [GRAPHIC] [TIFF OMITTED] T4214.305
    
    [GRAPHIC] [TIFF OMITTED] T4214.306
    
    [GRAPHIC] [TIFF OMITTED] T4214.307
    
    [GRAPHIC] [TIFF OMITTED] T4214.308
    
    [GRAPHIC] [TIFF OMITTED] T4214.309
    
    [GRAPHIC] [TIFF OMITTED] T4214.310
    
    [GRAPHIC] [TIFF OMITTED] T4214.311
    
    [GRAPHIC] [TIFF OMITTED] T4214.312
    
    [GRAPHIC] [TIFF OMITTED] T4214.313
    
    [GRAPHIC] [TIFF OMITTED] T4214.314
    
    [GRAPHIC] [TIFF OMITTED] T4214.315
    
    [GRAPHIC] [TIFF OMITTED] T4214.316
    
    [GRAPHIC] [TIFF OMITTED] T4214.317
    
    [GRAPHIC] [TIFF OMITTED] T4214.318
    
    [GRAPHIC] [TIFF OMITTED] T4214.319
    
    [GRAPHIC] [TIFF OMITTED] T4214.320
    
    [GRAPHIC] [TIFF OMITTED] T4214.321
    
    [GRAPHIC] [TIFF OMITTED] T4214.322
    
    [GRAPHIC] [TIFF OMITTED] T4214.323
    
    [GRAPHIC] [TIFF OMITTED] T4214.324
    
    [GRAPHIC] [TIFF OMITTED] T4214.325
    
    [GRAPHIC] [TIFF OMITTED] T4214.326
    
    [GRAPHIC] [TIFF OMITTED] T4214.327
    

</pre></body></html>
